<html>
<title> - PROTECTING THE HEALTH AND SAFETY OF AMERICA'S MINE WORKERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       PROTECTING THE HEALTH AND 
                    SAFETY OF AMERICA'S MINE WORKERS 
=======================================================================
                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 28, 2007

                               __________

                           Serial No. 110-17

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-100 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
    














                COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Bob Inglis, South Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Timothy H. Bishop, New York          Kenny Marchant, Texas
Linda T. Sanchez, California         Tom Price, Georgia
John P. Sarbanes, Maryland           Luis G. Fortuno, Puerto Rico
Joe Sestak, Pennsylvania             Charles W. Boustany, Jr., 
David Loebsack, Iowa                     Louisiana
Mazie Hirono, Hawaii                 Virginia Foxx, North Carolina
Jason Altmire, Pennsylvania          John R. ``Randy'' Kuhl, Jr., New 
John A. Yarmuth, Kentucky                York
Phil Hare, Illinois                  Rob Bishop, Utah
Yvette D. Clarke, New York           David Davis, Tennessee
Joe Courtney, Connecticut            Timothy Walberg, Michigan
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
























                           C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 28, 2007...................................     1
Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    63
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     3
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1

Statement of Witnesses:
    Dean, Jim, director, Extension and Outreach, West Virginia 
      University College of Engineering and Mineral Resources....    20
        Prepared statement of....................................    22
        Additional materials submitted...........................    64
    Hamner, Deborah, wife of deceased miner George ``Junior'' 
      Hamner.....................................................    28
        Prepared statement of....................................    30
    Howard, Charles Scott, miner.................................     9
        Prepared statement of....................................    11
        Additional remarks.......................................    12
    Knisell, Chuck, miner........................................    25
        Prepared statement of....................................    27
    Lee, Melissa, wife of deceased miner Jimmy Lee...............     7
        Prepared statement of....................................     8
    Oppegard, Tony, attorney at law..............................    12
        Prepared statement of....................................    14
    Roberts, Cecil, president, United Mine Workers of America....    30
        Prepared statement of....................................    33
        ``Injury and Fatality Statistics by Union Status'' 
          (table)................................................    94
    Watzman, Bruce, vice president of Safety and Health, National 
      Mining Association (NMA)...................................    16
        Prepared statement of....................................    17
        ``Mine Safety Improvements: Progress Facts'' (table).....    95
        Internet address to NMA report, ``Review of Mine Safety 
          Technology and Training Recommendations''..............    95


                    PROTECTING THE HEALTH AND SAFETY
                       OF AMERICA'S MINE WORKERS

                              ----------                              


                       Wednesday, March 28, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:30 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Woolsey, McCarthy, 
Kucinich, Wu, Holt, Bishop of New York, Altmire, Yarmuth, Hare, 
Clarke, Shea-Porter, McKeon, Petri, Ehlers, Platts, Wilson, 
Kline, Kuhl, and Heller.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Jordan Barab, Health/Safety Professional; 
Lynn Dondis, Policy Advisor for Subcommittee on Workforce 
Protections; Carlos Fenwick, Policy Advisor for Subcommittee on 
Health, Employment, Labor and Pensions; Michael Gaffin, Staff 
Assistant, Labor; Peter Galvin, Senior Labor Policy Advisor; 
Jeffrey Hancuff, Staff Assistant, Labor; Brian Kennedy, General 
Counsel; Thomas Kiley, Communications Director; Alex Nock, 
Deputy Staff Director; Joe Novotny, Chief Clerk; Megan 
O'Reilly, Labor Policy Advisor; Rachel Racusen, Deputy 
Communications Director; Michele Varnhagen, Labor Policy 
Director; Mark Zuckerman, Staff Director; Robert Borden, 
General Counsel; Steve Forde, Communications Director; Ed 
Gilroy, Director of Workforce Policy; Rob Gregg, Legislative 
Assistant; Jessica Gross, Deputy Press Secretary; Victor Klatt, 
Staff Director; Lindsey Mask, Director of Outreach; Jim 
Paretti, Workforce Policy Counsel; Molly McLaughlin Salmi, 
Deputy Director of Workforce Policy; Linda Stevens, Chief 
Clerk/Assistant to the General Counsel; and Loren Sweatt, 
Professional Staff Member.
    Chairman Miller [presiding]. The Committee on Education and 
Labor will come to order.
    The purpose of this meeting this morning is to conduct a 
hearing on protecting the health and safety of America's mine 
workers.
    I want to welcome everyone to today's hearing on protecting 
the health and safety of America's mine workers.
    Last year, the country was shocked by the accidents at 
Sago, Aracoma Alma and Darby mines, which all came in quick 
succession. In addition to the 19 coal miners killed in those 
three accidents, another 28 coal miners died on the job last 
year.
    Many, if not most, of these 47 deaths were surely 
preventable. Had the Mine Safety and Health Administration 
heeded the warning signs after the accident at Brookwood, 
Alabama, in 2001, for example, the miners at Sago and Darby 
might well be alive today.
    In 1977, recognizing it lacked the experience and the 
expertise to deal with the myriad safety and health risks to 
coal miners in other mines, the Congress established the Mine 
Safety and Health Administration. The key question we must 
examine is whether, 30 years after its creation, the agency is 
adequately meeting the obligations imposed on it by the Mine 
Safety and Health Act.
    The recent record shows the agency has not adequately 
fulfilled its obligation. Last year, the Democratic staff of 
this committee issued a report that found numerous problems 
with MSHA, from the way the Bush administration had stacked it 
with industry insiders to the agency's failure to use its 
authority to collect fines from mine operators that break the 
law.
    Under the Bush administration, MSHA has rolled back safety 
and health rules and has shifted its focus away from enforcing 
the law toward the so-called voluntary compliance assistance.
    When MSHA fails to fulfill its obligation, fails to 
establish and revise rules for safe and healthful mining in a 
timely way, fails to ensure that each of the mine operators has 
a plan that fully implements these rules or fails to enforce 
these rules with trained inspectors and meaningful sanctions, 
then miners' lives are put at an unacceptable risk.
    This committee will hold additional hearings to give the 
Bush administration an opportunity to explain its 
implementation of the Mine Safety and Health Act of 1977 and 
the MINER Act of 2006, and the committee will be interested to 
hear the Bush administration's views on the causes of last 
year's accidents, including a perspective on what else could or 
should have been done to prevent them.
    Of course, MSHA is not the only entity with responsibility 
for the health and safety of miners. The industry bears the 
responsibility, too. Mine operators who do not take the safety 
of their employees seriously should not be allowed to mine coal 
period.
    We know that there are mines, both in this country and 
abroad, that go above and beyond what is required of them to 
keep their workers safe, but we also know that there are mine 
operators who would rather pay their fines than change their 
behavior. Rather than resist even the most basic safety 
advances, the growing mining industry should work with us to 
make every U.S. mine as safe as possible. Sadly, it appears 
that the culture of change about which we have heard so much 
has yet to take root.
    The states play an important role in mine safety and 
health, too. Just this year, the state of West Virginia 
approved the use of five different types of underground 
chambers that trapped miners can go to get oxygen, food and 
water while they await rescue.
    Had these chambers been installed at Sago, lives may very 
well have been saved. If these chambers can help miners in West 
Virginia, then they can help miners in Kentucky, Illinois, 
Alabama or in other mining states.
    Today, we will hear about instances where the states have 
moved more swiftly than the timeframes set in the MINER Act. We 
are going to hear today from loved ones of miners who were 
killed on the job. We are going to hear from miners' 
representatives and from the miners themselves.
    I cannot emphasize enough how important it is for this 
committee to hear from these witnesses. They know better than 
anyone else how important it is for us to get it right. They 
know better than anyone how critical it is that we do 
everything in our power to ensure that miners can go home 
safely at the end of their shifts.
    I welcome all of our witnesses, and I thank you for taking 
your time to educate us today. I promise that this committee 
will work in a partnership with all of you to improve the 
safety of America's mines.
    With that, I would like to turn and recognize Mr. McKeon, 
who is the senior Republican of the committee.
    Mr. McKeon. Thank you, Mr. Chairman, and thank you for 
convening this hearing.
    As I look out and see miners and families of miners, it 
brings back a little memory. My great-grandfather came from 
Ireland, and they worked in the mines in Pennsylvania. Three of 
them--I think it was three of them; the story is a little 
sketchy--died of black lung disease. As bad as things are--
there are some tough conditions now--they were a lot worse 
then.
    But I am glad they came over. That is how I ended up in 
this country.
    Mr. Chairman, I want to thank you for convening this 
hearing, and I welcome today's witnesses. In particular, I 
would like to thank Ms. Lee and Ms. Hamner for joining us and 
providing what I expect will be a moving and important personal 
testimony.
    I believe this hearing will build upon the mine safety 
activities our committee and this Congress undertook last year. 
I look forward to our continued dialogue, and I think that, as 
we begin our discussion today, it is important to take a look 
at where we have gone and, indeed, where we are headed next.
    The most prominent mine safety activities this committee 
engaged in last year occurred when our Workforce Protection 
Subcommittee held a series of oversight hearings and briefings 
during which we heard from federal mine safety officials, mine 
workers, representatives from the mining industry and members 
of the House.
    An initial oversight hearing served to provide a general 
overview of mine safety and health regulations from the 
perspective of federal regulators, representatives of the 
mining industry and those who work in mines, and another 
hearing gave House members from both parties, including all 
members of the West Virginia delegation, the opportunity to 
share their unique perspectives on mine safety, simultaneously, 
through briefings from federal Mine Health and Safety 
officials, complemented the information gathered at these 
hearings.
    Aside from these informative hearings, however, our 
oversight activities actually began months before that. 
Immediately following last year's tragedy at the Sago mine, our 
committee brought the U.S. Labor Department to the Hill to 
detail for members and staff from both parties the events that 
occurred, the Mine Safety and Health Administration's planned 
response and how its investigation should proceed.
    Shortly after, we worked with Representative Shelley Moore 
Capito to successfully request that the department immediately 
reverse an agency policy that barred public access to factual 
information under the Freedom of Information Act, such as 
inspector notes, until a mine safety case had been closed.
    Our philosophy on this was simple: Families of miners 
impacted by the tragedies, Congress and anyone with a stake in 
the mining industry should have the best and quickest possible 
access to meaningful facts about this case.
    After these months of oversight activities, it became 
abundantly clear that we needed better mining communications 
technology, more modern safety practices inside U.S. mines and 
improved enforcement of current mine safety laws. Each of these 
needs were addressed comprehensively by the Mine Improvement 
and New Emergency Response Act, otherwise known as the MINER 
Act.
    The bill passed the Senate without a single vote in 
opposition, and it enjoyed support from two witnesses before us 
today, Mr. Roberts from the United Mine Workers of America and 
Mr. Watzman from the National Mining Association.
    I would be remiss if I did not note that because of some 
partisan wrangling by the party serving in the minority at the 
time, this measure did not advance to the president's desk as 
quickly as it should have. In fact, without this wrangling, 
MSHA's implementation of the MINER Act would be further along 
than it already is.
    Nonetheless, politics aside, I was pleased to stand beside 
members of both parties, as well as mine workers, their 
families and industry officials last June to see this landmark 
bill signed into law.
    Today, more than a year after our oversight hearings on the 
tragedies in West Virginia and Kentucky, we have seen progress. 
MSHA has met each of its congressionally mandated deadlines to 
implement the MINER Act, and similarly, labor and industry 
leaders have been working in good faith to bolster mine safety 
through available and ever-changing technology.
    Just as my colleagues do, I am hopeful that this law can 
and will be implemented just as quickly as possible, and in the 
months ahead, just as we demonstrated last year, I am convinced 
this committee will continue to track this issue closely and 
fairly with the attention it deserves and with an eye toward 
all stakeholders.
    Mr. Chairman, I will be the first to admit that this is an 
emotional issue. Having dealt with it as chairman of the 
committee last year, I know that fact all too well. But I 
believe--and I think we will see this very clearly today--that 
our nation's mine workers are better off today than they were a 
year ago, and it is the collective effort of all stakeholders--
employees, workers, academics, consumer advocates and 
government--that has made it so.
    If we allow ourselves to lose sight of this fact, then this 
hearing will break with the record of action we accomplished 
last year, and no one's purposes would be served.
    Again, I thank you for bringing us together this morning, 
and I look forward to hearing from each of our witnesses.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Mr. Chairman, thank you for convening this hearing. I welcome 
today's witnesses, and in particular, I'd like to thank Ms. Lee and Ms. 
Hamner for joining us and providing what I expect will be moving and 
important personal testimony. I believe this hearing will build upon 
the mine safety activities our Committee and this Congress undertook 
last year. I look forward to our continued dialogue, and I think that 
as we begin our discussion today, it's important to take a look at 
where we've been--and, indeed, where we're headed next.
    The most prominent mine safety activities this Committee engaged in 
last year occurred when our Workforce Protections Subcommittee held a 
series of oversight hearings and briefings during which we heard from 
federal mine safety officials, mine workers, representatives from the 
mining industry, and Members of the House.
    An initial oversight hearing served to provide a general overview 
of mine health and safety regulations, from the perspective of federal 
regulators, representatives of the mining industry, and those who work 
in mines. And another hearing gave House Members from both parties--
including all Members of the West Virginia delegation--the opportunity 
to share their unique perspectives on mine safety. Simultaneously, 
thorough briefings from federal mine health and safety officials 
complemented the information gathered at these hearings. Aside from 
these informative hearings, however, our oversight activities actually 
began months before that.
    Immediately following last year's tragedy at the Sago Mine, our 
Committee brought the U.S. Labor Department to the Hill to detail for 
Members and staff from both parties the events that occurred, the Mine 
Safety and Health Administration's planned response, and how its 
investigation would proceed. Shortly after, we worked with 
Representative Shelley Moore Capito to successfully request that the 
Department immediately reverse an agency policy that barred public 
access to factual information under the Freedom of Information Act, 
such as inspector notes, until a mine safety case had been closed. Our 
philosophy on this was simple: Families of miners impacted by the 
tragedies, Congress, and anyone with a stake in the mining industry 
should have the best--and quickest--possible access to meaningful facts 
about this case.
    After these months of oversight activities, it became abundantly 
clear that we needed better mining communications technology, more 
modern safety practices inside U.S. mines, and improved enforcement of 
current mine safety laws. And each of these needs were addressed 
comprehensively by the Mine Improvement and New Emergency Response Act, 
otherwise known as the MINER Act. The bill passed the Senate without a 
single vote in opposition, and it enjoyed support from two witnesses 
before us today: Mr. Roberts from the United Mine Workers of America 
and Mr. Watzman from the National Mining Association.
    I would be remiss if I did not note that because of some partisan 
wrangling by the party serving in the Minority at the time, this 
measure did not advance to the President's desk as quickly as it should 
have. In fact, without this wrangling, MSHA's implementation of the 
MINER Act would be further along than it already is. Nonetheless, 
politics aside, I was pleased to stand beside Members of both parties, 
as well as mine workers, their families, and industry officials last 
June to see this landmark bill signed into law.
    Today, more than a year after our oversight hearings on the 
tragedies in West Virginia and Kentucky, we have seen progress. MSHA 
has met each of its congressionally-mandated deadlines to implement the 
MINER Act, and similarly, labor and industry leaders have been working 
in good faith to bolster mine safety through available--and ever-
changing--technology. Just as my colleagues do, I am hopeful that this 
law can and will be implemented just as quickly as possible. And in the 
months ahead, just as we demonstrated last year, I'm convinced this 
Committee will continue to track this issue closely and fairly; with 
the attention it deserves and with an eye toward all stakeholders.
    Mr. Chairman, I'll be the first to admit that this is an emotional 
issue. Having dealt with it as Chairman of this Committee last year, I 
know that fact all too well. But I believe--and I think we'll see this 
very clearly today--that our nation's mine workers are better off today 
than they were a year ago. And it is the collective effort of all 
stakeholders--employees, workers, academics, consumer advocates, and 
government--that has made it so. If we allow ourselves to lose sight of 
this fact, then this hearing will break with the record of action we 
established last year, and no one's purposes would be served. Again, I 
thank you for bringing us together this morning, and I look forward to 
hearing from each of our witnesses.
                                 ______
                                 
    Chairman Miller. Just so we can get all the partisan 
wrangling out of the way at the beginning here, I would note 
that the ``partisan wrangling'' to which Mr. McKeon referred, 
which I am proud to be part of, was an attempt to try to 
strengthen that legislation because of a number of shortfalls 
that I and others felt that it had.
    The second fact of ``partisan wrangling'' was the refusal 
by the majority to hear from the families of those who died in 
the mines. And we said at that time that should we have a 
reversal of fortune in November that this was a hearing that 
was owed to these families, and, today, we are delivering on 
that promise.
    Our first witness----
    Mr. McKeon. Mr. Chairman?
    Chairman Miller. Yes?
    Mr. McKeon. If I may just shortly----
    Chairman Miller. This is political wrangling.
    Mr. McKeon. I totally agree with the chairman. He was 
fighting to do more. I was in a position where we had a bird in 
the hand. You know, sometimes we pass bills and they die in the 
Senate. This bill that we did finally sign into law did pass 
the Senate.
    It was the majority's feeling, and many of the minority 
members', that we would have liked to do more. Charlie Norwood, 
who was subcommittee chairman of the committee, wanted to do 
more. He has since passed away. I think we could have probably 
done more, but it would have drug this thing out longer.
    This is the first mining safety bill in 20 years, and while 
we would have liked to do more, I think we should not have 
partisan wrangling on this, and we really did not have it, 
normal political wrangling. The chairman just did not want to 
do more, and hopefully, we will be able to do that in this 
Congress at this time.
    Chairman Miller. The good news is we are going to give you 
an opportunity to do more.
    Mr. McKeon. Good.
    Chairman Miller. Melissa Lee is a widow who lost her 
husband, Jimmy D. Lee, in the Kentucky Darby mine explosion in 
Harlan, Kentucky. She is the mother of four and has worked as a 
small-business owner.
    Charles Scott Howard is a coal miner from southeastern 
Kentucky, and he has been a miner since 1979.
    Tony Oppegard graduated from Notre Dame and received his 
law degree at Antioch School of Law. From 1998 to 2001, he 
worked for the Mine Safety and Health Administration as an 
adviser to the Assistant Secretary of Labor. From 2001 to 2005, 
he worked for the Kentucky Department of Mines and Minerals, 
and he currently works as an attorney representing miners and 
their family.
    Bruce Watzman is a vice president of safety, health and 
human resources for the National Mining Association. Mr. 
Watzman holds a Master's degree in environmental health 
management and an undergraduate degree in economics and 
psychology. He has worked for the National Mining Association, 
as president of the National Coal Association since 1980.
    Jim Dean is currently the director of extension and 
outreach in the College of Engineering and Mineral Resources at 
West Virginia University. He is currently serving as chairman 
of the West Virginia Mine Safety Technology Task Force. Mr. 
Dean graduated from Fairmont State College and received his 
Master's degree in mining engineering from West Virginia 
University.
    Chuck Knisell is a fourth-generation coal miner, and he 
worked at several mines, including Sago mine, before the 
explosion.
    Debbie Hamner is the widow in the Sago mine disaster. Her 
husband, George ``Junior'' Hamner, was a miner for 28 years, 
and she continues to own his cattle farm.
    Cecil Edward Roberts, Jr., is a sixth-generation coal miner 
and has been president of the United Mine Workers of America 
since 1995. He began working in the mines in 1971, served as 
vice president from 1982 to 1995 and is the first president in 
the history of the mine workers to serve three consecutive 
terms.
    Welcome to all of you. We look forward to your testimony.
    Any prepared statements that you have will be placed in the 
record in their entirety. When you start to speak, a green 
light will go on. You will have 5 minutes, and then a yellow 
light will go on, and that will suggest that you want to wrap 
up your testimony so we will have time for questions.
    Yes, Mr. McKeon?
    Mr. McKeon. I appreciate the chairman's indulgence.
    This does not happen too often, but I have a niece here 
today--Erin, her husband Joe, and three of their children, 
Rachel, Natalie and Justin. I just would like to honor them.
    Chairman Miller. Welcome. Welcome. Thank you for being 
here.
    Rachel and Natalie, do you want to come up here and sit 
behind here? We will make you an honorary member of the staff. 
Come up here. Come on. You look at us through our eyes down 
here. Feel free to leave any time you want. You are not a 
prisoner.
    You are, however. [Laughter.]
    Welcome, and we look forward to your testimony. Thank you 
so much for being here.

   STATEMENT OF MELISSA LEE, WIFE OF DECEASED MINER JIMMY LEE

    Ms. Lee. Thank you, Chairman Miller. It is an honor to be 
here. I am glad you all invited me.
    I am Melissa Lee. I am a widow from the Kentucky Darby 
explosion, May 20, 2006.
    That was the worst day so far of my life. At 3:39 a.m., I 
received a phone call from Ralph Napier, the owner/operator of 
the mine, that there had been an explosion and that my husband, 
along with five other men, was still underground.
    I was told to go to a local church near the mines to wait 
for information about the explosion. The information did not 
come quick enough. The widows, the wives, were receiving 
information via telephone from other family members. They were 
more informed than we were.
    Paul Ledford was the only survivor. Paul and Roy Middleton 
and I graduated high school together in 1988 from Evarts High 
School. We were all friends.
    My husband died doing an occupation that he loved. He loved 
coal mining. My husband was a high school graduate from Cawood 
High School. He enjoyed other things outside of mining, but 
mining was what he wanted to do.
    The devastation--I do not consider it an accident; it was a 
devastation--has caused grief in our family. I have four small 
boys that I am left raising: Hayden is 14, Brody is 12, Seth is 
4, and Ross is 2. And every day these boys miss their father, 
and I am left to be mother and father. It is difficult.
    I closed my business after having it open only 1 year for 
the fact that someone had to be there with the children and, in 
the process, somebody has to keep speaking for the miners. 
These men were not just coal miners. They were husbands, 
fathers, grandfathers. They were men to be reckoned with.
    My husband was partially decapitated. An O<INF>2</INF> tank 
impaled through his abdomen. My husband had a closed coffin. I 
was not allowed to see this face that I had for 8\1/2\ years of 
my life.
    Jimmy was not just my husband. He was an awesome, awesome 
man. He had at his memorials or service, his personal 
memorial--I do not consider it a funeral--over 1,200 people 
were there--1,200 people. No one could tell me one bad thing 
about my husband.
    He loved what he did, and because of that, there are other 
miners just like him that deserve the same benefit that my 
husband was not given. My husband died at the face of the 
explosion. There was methane there that caused the omega blocks 
to blow out.
    He died instantly, I am told. If he had had his own methane 
detector, he could have taken his own reading, possibly not 
doing the job that he was taken to the explosion site to do.
    House Bill 207 is not just a bill; it is common sense. The 
things we are asking to pass are common sense: more 
inspections, methane detectors, more information and education. 
These things are not things to be toyed with.
    These men who still go underground every day to provide aid 
and support for their family need to be taken care of. Children 
need their fathers to come home. Wives need their husbands 
there. Mothers need to be able to hug their sons.
    Roy Middleton was the only son of Nellie and Dan Middleton. 
I am asking for you all to please take this story to heart. 
This has to be passed. This has to become a law.
    [The statement of Ms. Lee follows:]

  Prepared Statement of Melissa Lee, Wife of Deceased Miner Jimmy Lee

    I am Melissa Lee, widow of Jimmy D. Lee a miner that died in the 
May 20th, 2006, Kentucky Darby Mine explosion in Harlan, Kentucky. 
Jimmy and I have four sons and many broken dreams. We married only 
after dating a very short time. We were to celebrate our 9th 
anniversary in 2006, but that did not happen.
    I was given a call at 3:39 am and told there had been an explosion 
and that 6 men were underground. Jimmy being one of the trapped. I was 
shocked to hear that all his close coworkers were trapped as well. Roy 
Middleton, Paris Thomas, Bill Petra, Cotton ``Amon'' Brock and Paul 
Ledford. I made the trip to the church I was told to go to and there I 
found my seat to wait.
    During the wait, we were told nothing for hours. The update 
information came from people not even at our waiting spot. Paul Ledford 
was the first and only to be found alive. All others were dead. I was 
more than heartbroken.) was beyond numb) was dead myself.
    During the next weeks, I was given calls always saying if they 
could help, or if I or my sons needed anything to not hesitate and 
contact them. That was a joke. The widows and myself were kept on the 
low end--NO information given on the explosion, just promises of help. 
State police were called to stand watch over the area of the 
questioning of witnesses. I was told by the state troopers that they 
were to keep us away from the doors and make sure we did not make a 
scene. WE heart ripped out, tear stained and drained widows. I was 
appalled at these choices. We were not a threat, but grief stricken.
    I found out later through the autopsy report that my darling 
husband had sustained blunt force and thermal trauma to his body during 
the explosion. HE had part of his skull removed, impaled by a oxygen 
tank and destroyed by heat and soot. He would have never survived. He 
was asked by his foreman to stay behind to do a job. THAT job took him 
from his wife, sons and life. I lost my best friend, the one I wanted 
to grow old with. I was looking forward to having another child with 
him. He is gone.
    The explosion wrecked many, many lives. It has caused to many of us 
to have to remap our lives. I moved away, closed my new business, 
relocated my children to different schools they do not like, I have had 
to make changes in things I should have never had to change.
    The bill I worked for and think will save lives of other miners is 
only one of common sense. It doesn't require much but the want to have 
safe mining. I have family still underground. Three of these miners 
have small children just like their cousins who lost their daddy to a 
terrible devastation. This will keep these men/women safe and never let 
what has happened in my life happen to other wives and children.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Howard?

                STATEMENT OF SCOTT HOWARD, MINER

    Mr. Howard. My name is Charles Scott Howard. I am a 
southeastern Kentucky coal miner. I am glad to be here, and I 
am glad that you are all here to listen to our testimony.
    I started working in 1979, in the winter of 1979, in the 
mines. I have always worked non-union, except the last couple 
of years I worked for a company that has just a small union. 
People that work there are in the union.
    I have been fired for safety complaints, fired for refusing 
to do unsafe work. I was fired once for not bolting the place 
without an ATRS. An ATRS supports the top so you can bolt the 
places falling in, and I refused to bolt it. So I was 
terminated from that job, blacklisted in that county.
    I went to another county to work, and a few years later, I 
come back to Harlan County and worked. I was the foreman then. 
I became a foreman.
    When I started in the mines, I saw how foremen manipulated 
the men. So I decided to become a foreman and try to make it 
better. But foremen are mistreated, too, in the mines.
    I take the air reading and stuff when you start your shift 
on producing coal. I went in one morning, did not have any 
ventilation. So I called out, told the superintendent no 
ventilation. He said, ``Well, we will get you some air.''
    So I went across the section and checked my faces, checked 
my curtains, make sure I had everything right so that when the 
air came into the mines that I would get it to the places I 
need it where they were producing coal.
    So I called back out--they never sent me any air--and I 
told him when he sent me air, I would send him coal out. At 
10:30 that day, they asked me how much coal I would run. I 
said, ``I ain't run nothing. You ain't sent me no air.'' Well, 
I lost that job.
    So I quit bossing.
    Where I work now, we have a little old union. It is not 
much, but it is better than nothing. You have a little 
authority on safety. I worked Monday night. I work now, I still 
work in the mines, and I go to work tomorrow.
    Now I do belts and fireboss where I work. I went up to the 
section. I always go up to the section and see what the men are 
doing, where they are mining. They know me. They know I am a 
safety advocate and that I will help them any way I can.
    I went up there and they were not running, and I saw some 
of the guys sitting there. I said, ``What are you all doing 
down there--a safety meeting or something?'' They said, ``No. 
We hit gas up here.'' I said, ``What are you doing?''
    I had a spotter with me and said, ``Come on up here and 
check it for us.'' So I went up there and checked. I was up 
there at the start of the shift, and there was a test hole in 
the top, and there was not any gas coming out at that time. A 
scoop man had come down, and he thought he busted a hose on his 
scoop. He heard it, so he had to find somebody with a detector.
    That is why I was pushing for this rule in Kentucky, the 
House Bill 207, that every coal miner have a detector because, 
see, this guy, he was running a battery scoop. If he had went 
on down through there and the battery lid jumped up and come 
back down and arced on those batteries, he would have been 
traveling under that hole.
    They found 3 to 5 percent methane coming out of it, and 
when we left that shift, it was still coming out.
    I heard somebody say earlier that coal mining has become 
safer over the years. I have worked 28 years in the mines, and 
it is not safer from the first day to tomorrow when I go back 
to work. Laws have been passed to make it safer, but laws do 
not mean nothing when you go down, when you go to work, when 
they send you back in the mines.
    Outside, safety is first. When you go underground, coal is 
all that matters. I have had superintendents call underground 
and holler, ``I do not care if you kill every man in there, I 
want coal on the belt.''
    I have heard them have problems and want extra men to stay 
back and try to help produce coal or get to where you can run 
coal. I have heard them say how many people have to stay back. 
I have heard them say, ``If Jesus Christ is there, you make him 
stay too.''
    Coal is all that matters and the coal operator is the only 
one who has a voice, the only one to educate the miners where I 
work.
    Where I work, I started putting up stuff on safety issues, 
laws, bills to try to be passed, stuff about this day here. The 
coal operator comes in, tears it down. So I go to the union, 
say, ``I want to file a grievance.'' They say, ``If you file a 
grievance, they will take our board down. We would have 
nothing.'' I said, ``If we do not have a voice, we have nothing 
anyway.''
    I would like to just know that the truth is what people 
know, and to know the truth, you have to come down to where we 
work and come around some of the little stores and the hollers 
and find out. Reporters have come. Listen to what they write 
and say, and you will know the truth, what the miner needs 
today. And I want to live.
    [The statement and addendum of Mr. Howard follows:]

           Prepared Statement of Charles Scott Howard, Miner

    My name is Charles Scott Howard and as I have said before I am a 
South Eastern Kentucky Coal Miner. I am not a hillbilly, I am a 
mountain man forged from an ancestry of hardworking men and women who 
wake up or did wake up day after day to survive. I was raised to 
believe not only in God and his Word, but that there is a standard for 
a man; to work, to take care of family, respect others and to stand up 
for your rights. I never dreamed of being a coal miner when I was 
growing up but my family ended up back in Eastern Kentucky when I was 
in the 7th grade and the best chance of a decent wage was to be a coal 
miner, but I didn't want to mine coal for I had watched my grandfather 
suffer from his days in the mines, he lived a bad life because of what 
the mines did to him and after they pulled him out of the mines it took 
him about 30 years to die and his quality of life for these years was 
not much.
    In the winter of 1979 I started my career in the coal industry and 
still mine coal today.
    I started working on what they called a Wilcox Section. It 
consisted of a small miner that was propelled into the coal by two 
winches mounted on each side and a man would hook a jack onto the end 
of a rope and wedge the jack between the roof and floor of the mine and 
the winches would pull the augers into the coal and a conveyor chain 
would take the coal down the middle of the mine and dump it into 
another conveyor chain of a bridge connected to the miner and to 
another bridge and then to a conveyor belt that would continue on in a 
series of belt lines to the surface. The Wilcox mines were called Man 
killers for they were a cheap mine made to extract seams of coal as low 
as 24-25 inches. All the motors on the miners had fans to keep them 
cool so there was no need for water. On other miners water was needed 
to cool the motors and the water was then sprayed onto the coal being 
cut as it left the motors thus suppressing the fine dust made as coal 
is cut, so that meant that a Wilcox man would breath all this dust for 
no water was needed. I can remember breathing so much dust that my 
nostrils would completely stop up with dust and the back of my throat 
and tongue would be caked with coal dust and you would swallow so much 
dust your stomach would burn like fire from the sulfur and iron pyrite 
that filled you up and you would cough and hack till you puked. The 
dust was so thick that you could not see your partner 4 foot away who 
would be setting timbers if he had any which was used as a sole means 
of supporting the roof. Your eyelids would collect so much dust that 
the grit would keep your eyes red and so sore and when you bathed, the 
dusts rings around your eyes made you look like you had eyeliner on. 
With your back against the roof and your hands and knees ambulating you 
around as you done your duties the loud noise from the miner and 
bridges, up to 20 decibels, deafened you as you wore out your back and 
knees. The steel ropes that pulled this monster around that you hoped 
wouldn't crush you if it decided to walk would splinter and when you 
had to grab the rope to pull off another length the strands would 
pierce into your fingers and hands keeping them sore and infected. I 
remember my mom looking at my hands and crying. I worked on Wilcox 
sections about 7\1/2\ years before I escaped them to a better form of 
mining but not before receiving my first stages of Black Lung and 
injuries to my joints and not before seeing many of my fellow workers 
crippled up and hearing of others being killed in other Wilcox mines in 
other areas. I thanked God I had escaped this form of mining called man 
killers with my life.
    A solid section was the next kind of mine I worked at. This kind of 
mining is very old. You simply drill holes into the face of the coal in 
a certain angle and fill them full of explosives. The explosion forces 
the coal out into the entries and this is scooped up and taken to a 
feeder that pours the coal onto a conveyor belt that carries the coal 
to the surface. After a place is cleaned up of the coal that has been 
shot down, a bolter comes in and drills holes in the top on four foot 
centers and places roof bolts into them to support the roof from 
collapsing. Then the process of drilling starts again. This seems 
simple doesn't it, but there are things to be done to make this form of 
mining safe. When a hole is drilled the first stick of power to be 
placed in the hole is the cap stick which is a stick of powder with a 
blasting cap in it. The purpose in this is to ensure that the blasting 
cap will set off every stick of powder placed in the hole. This was not 
done because the caps would be ordered with different lengths of wire 
to ensure they reached the end of the hole to be wired up to detonate. 
This practice was not done; the operator ordered shorter cap wires 
because they were cheaper so we had to put the cap in the last stick 
put into the hole. Usually every stick still went off but you are still 
gambling on whether they will or not. The last thing to go into the 
hole was a length of stemming we called dummies. This was done to 
suppress the flame produced when the explosion was set off. You guessed 
it right. We didn't use dummies to save cost for the operator, which I 
might add was a very small savings. I worked the graveyard shift at 
that mines and we were sent to this section to work usually without a 
boss so no air readings or methane checks were made. One day a mine 
inspector made this section and found 8% methane, this is a very high 
amount being that 10% provides for the most violent explosion. The 
operator was forced to buy a cutting machine so that the minimum amount 
of explosives was used to separate the coal from the seams. I quit this 
place when I found out the dangers we had been working in and again 
thanked God for sparing my life again.
    Another kind of mines I've worked at used continuous miners. These 
miners are on track similar to a bulldozer and has a cylinder on one 
end filled with carbon tipped bits to cut the coal and a scoop type pan 
that gathers the coal and a conveyor chain carries it thru the middle 
of this machine and dumps out the other end into a form of haulage that 
takes the coal to a conveyor belt and then to the surface. This form of 
mining produces more coal than anything I have ever worked around. It 
also produces a lot more dust.
    I still work at mines that use continuous miners today and I guess 
I'll finish my career at these kinds of mines.
    I could tell you mining stories for hours but I've told these few 
to try to let you see first hand from a coal miner the issues we face 
each day in the mines. Safety is a huge responsibility. The industry 
must be held responsible for they have all the power and authority to 
see that safety comes first.
    Black Lung is still a big problem, compensation is still a big 
problem and the inspectors and government that regulates mining is a 
big problem. The problem is the coal industry has put forth too much 
money to hide the truth.
                                 ______
                                 
                                                  Roxana, Kentucky.
    This testimony is from Charles Scott Howard, a southeastern 
Kentucky coal miner. This is just a bit more of my story to those who 
would lend an ear to hear the trouble and turmoil that coal miners 
face.
    They say there are around 300 million people in the United States 
of America and about 79,000 of those citizens are coal miners, that is 
surface and underground, and almost 17,000 of those are like myself, 
Kentucky Coal Miners. Coal produces over half of the electricity in 
this nation. Electricity is a great service to this country and its 
people and so few men and women work hard and long hours to bring this 
natural resource to the people of this nation. The efforts of the coal 
miner make this great nation strong and keeps Americans comfortable and 
going even when darkness falls. What the American Coal Miner does for 
the United States also benefits the world. In the past 2 years the 
United States has exported around 50 million tons a year to other 
nations. What a great accomplishment so few citizens of this nation, 
but not without cost.
    During my career, which is not over yet, I have wore out my 
shoulders, knees and other joints in my body, I have had eye injuries, 
a broken nose, cuts, strains, sprains, a closed head injury, spinal 
cord damage and a broken back and my lungs have been filled with coal 
and rock dust. I have also been poisoned, but I have never missed a 
shift of work because of these things, except the eye injury. Why you 
ask, because I work to do for my family and if I were to be a worker to 
miss over an injury I would be labeled as a liability.
    I love my country and my fellow coal mining brother and sisters and 
I hope this nation would prove to love the small percent of its 
population, ``The Coal Miner,'' to do such an enormous amount of 
service to the nation by giving to its coal miners what they deserve. 
Give back Black Lungs Benefits and Compensation for the worn out miners 
who literally give their lives for their country.
    I hope to share more with you all in the future.
            Thank you,
                                  Charles ``Scott'' Howard.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Oppegard?

          STATEMENT OF TONY OPPEGARD, ATTORNEY AT LAW

    Mr. Oppegard. Thank you for the invitation to speak, 
Chairman Miller.
    Chairman Miller. Is your mike on?
    Mr. Oppegard. Thanks for the invitation to speak, Chairman 
Miller. You truly are the champion of the coal miner in the 
U.S. Congress, and we appreciate the work you are doing.
    I am going to deviate from my prepared remarks.
    We have a lot of outlaw coal operators in eastern Kentucky. 
What Scott is talking about is nothing unusual. It is not an 
aberration. We have some good operators, but we have a lot of 
operators that all they care about is getting the coal out and 
they will do whatever it takes to get it out and disregard the 
laws.
    We have miners working right now as we speak in eastern 
Kentucky this morning that are working without ventilation 
curtains being hung. They are working under dangerous roofs. 
They are working with electric equipment being bridged out that 
is bypassing the safety features.
    It is commonplace, and most of those miners are afraid to 
complain, although there is a federal law granting them the 
right to refuse unsafe work, because if they complain, they 
will be told to get your dinner bucket and go on to the house, 
which means you are fired. That is exactly what is going to 
happen to most miners.
    I am proud to say I was Scott Howard's attorney in that 
case he was talking about. He got fired for refusing to bolt 
when his ATRS would not reach the roof. That is the hydraulic 
shield that goes up against the mine roof and protects the roof 
bolt machine operator from roof falls. His ATRS would not reach 
the roof, he said he would not bolt, and they fired him, and he 
did get blacklisted.
    I am proud to be Melissa Lee's attorney. I am representing 
four of the Kentucky Darby families as well as the survivor. 
That was another dog coal mine. There was no reason for those 
miners to die, other than the fact that they were cutting 
corners on safety.
    The House Bill 207 that Melissa referred to was a law that 
we just had passed in Kentucky. It was signed by the governor 
last week. It has a lot of provisions in there that exceed the 
requirements of the federal law, and those are some of the 
things we would like to see this Congress pass, some similar 
provisions.
    They are all common-sense provisions that were based on 
accidents in Kentucky in the last 2 years. They do not do so 
much in terms of helping miners after a disaster. These are all 
provisions that help prevent disasters in the first place, help 
prevent accidents.
    So let me go over a couple of them.
    The first thing is in Kentucky now, we have six inspections 
per year. At this time last year, we had two in underground 
coal mines. In the general assembly last year, we got it up to 
three. This year, we are up to six, and four of those are 
complete inspections, two are electrical inspections. For the 
first time in Kentucky history, we have mandated electrical 
inspections.
    We would like the U.S. Congress to mandate six underground 
inspections per year in all coal mines in America. If you do 
nothing else, that is the best thing you could do for coal 
miners. The more often you have inspectors under ground, the 
more likely it is that they will see unsafe conditions that 
could cause an accident, either fatal or serious nonfatal, to 
try to prevent those accidents from occurring.
    We have been stuck on four inspections per year in the 
United States for the last 30 years. You need to have the will 
to protect miners, allocate the money to protect miners, go up 
to bimonthly inspections. It is the best thing that you could 
do.
    Some of the other provisions that we have in the Kentucky 
law: We are now requiring two METs, mine emergency technicians, 
on every shift, one of which has to be underground at all 
times. That stems from an accident in December of 2005 where we 
had a miner, both of his legs were severed in a mining 
accident. The MET underground panicked and did not treat him, 
and he bled to death. Had there been two METs there, even one 
outside, his life would have been saved.
    We had two miners killed in Harlan County in August of 2005 
while retreat mining, which is the most dangerous type of 
mining where you are pulling the pillars that hold up the roof, 
and we now have in Kentucky a 48-hour notification requirement. 
Any operator who is pulling pillars has to notify the state 
enforcement agency within 48 hours that we are going to pull 
pillars.
    The state has to document that in writing, then has to 
ensure that all miners have been trained on that pillar removal 
plan, because what we found through the years is that almost 
all accidents on pillar sections, miners have not been trained 
in the plan. They are just told to get the coal out however 
they can.
    We also have a requirement now in Kentucky for preshift 
examinations at all surface mines. It is a basic requirements. 
The federal law requires preshift examinations for hazardous 
conditions at underground mines, but not at surface mines. Now 
in Kentucky, we are the only state that has that requirement 
for surface mines.
    Finally, we have a requirement now or a provision where the 
state can issue subpoenas to investigate allegations of unsafe 
working conditions, regardless of whether there has been an 
accident or an injury. MSHA does not have that subpoena power. 
As a matter of fact, even if there is a mine disaster like the 
Kentucky Darby, MSHA does not have subpoena power, unless they 
convene a public hearing.
    MSHA as an agency does not have the will or the guts to 
hold public hearings to find out why miners were killed. They 
invite witnesses and then tell them, ``You have the right to 
refuse to answer any questions. You can terminate the interview 
at any time.''
    Now in Kentucky, even without an accidents, if we have 
miners who call and say, you know, ``We were required to work 
under unsafe conditions,'' the state can subpoena those miners 
and investigate.
    Thank you very much.
    [The statement of Mr. Oppegard follows:]

          Prepared Statement of Tony Oppegard, Attorney at Law

    Thank you to committee for invitation & to Chairman Miller for his 
commitment to protecting the safety of America's miners; champion of 
the coal miner in the U.S. Congress--compare to Sen. Paul Wellstone.
    Acknowledge UMWA & President Cecil Roberts, who has dedicated his 
life to making the mines safer for all miners, union & non-union.
    Appearing on behalf of Appalachian Citizens Law Center of 
Prestonsburg, KY; non-profit law office which represents coal miners in 
safety-related matters.
    My background: 27 years working for coal mine safety, particularly 
o/b/o miners in the non-union mines of eastern KY (not a single union 
mine--average mining height of 40-48 inches); 18 years litigating 
safety discrimination cases under section 105c--miners fired for 
refusing unsafe work (only attorney in the nation so specializing); 
2\1/2\ years for MSHA in D.C.--advisor to Davitt McAteer; 4-plus years 
as mine safety prosecutor for Commonwealth of KY (appointed by Gov. 
Paul Patton); 2 years private practice, specializing in mine safety 
litigation; lobbying work for ACLC.
    KY General Assembly recently passed HB 207, which the ACLC and the 
UMWA helped draft and lobbied for--signed last week by Gov. Fletcher.
    Common sense safety provisions stemming from specific KY mining 
accidents.
    STILLHOUSE MINING--8/3/05--Harlan County--Russell Cole and Brandon 
Wilder killed during retreat mining operations (removing pillars 
holding up the mine roof); investigation showed none of miners trained 
in pillar removal plan.
    HB 207 requires 48-hour notice to state enforcement agency before 
retreat mining operations begin/resume; state must ensure miners 
trained on pillar plan--should require inspector to observe retreat 
mining operations.
    H & D MINING--12/30/05--Harlan County--Bud Morris bled to death 
when legs severed after being run over by a ram car overloaded with 
coal; mine emergency technician did not treat him underground or 
outside.
    HB 207 requires two METs on each coal-producing shift, one of whom 
must be underground at all times.
    KENTUCKY DARBY--5/20/06--Harlan County--Jimmy Lee and Amon Brock 
killed in methane explosion at improperly constructed seal; Roy 
Middleton, Bill Petra & Paris Thomas died of carbon monoxide poisoning.
    HB 207 requires operator to provide methane detectors to all outby 
miners and to any group of two or more miners working together on the 
section; typically, only the foreman has CH4 detector; will give miners 
means to protect themselves if foreman not making his gas checks.
    Law should have required mine operator to provide CH4 detector for 
every miner underground--opposed by coal industry lobbyists.
    Law should have required mine operator to certify that mine seals 
built in accordance with seal construction plan--provision deleted 
entirely when bitterly opposed by industry.
    HENDRICKSON EQUIPMENT--7/18/06--Knott County--Jason Mosley, a high 
wall drill operator, killed when portion of high wall collapsed on his 
cab.
    HB 207 requires pre-shift examinations for hazardous conditions at 
surface mines (not required in federal law).
    HB 207 requires recorded pre-operational checks of all equipment 
(exceeds requirements of federal law).
    HB 207 gives the state enforcement agency subpoena power to 
investigate allegations of unsafe working conditions even if no 
accident or injury has occurred (in a glaring weakness of the FMSH Act 
of 1977, MSHA does not even have subpoena power to investigate a mine 
disaster or any accident unless it convenes a public hearing; 
therefore, witnesses are asked to attend interviews, then are told they 
can refuse to answer any question & can terminate the interview at any 
time).
    HB 207 mandates 6 inspections per year of all underground coal 
mines, 2 of which must include electrical inspections; last year at 
this time, KY only mandated 2 underground inspections per year and no 
electrical inspections; was increased to 3 in the 2006 session of the 
General Assembly.
Two Final Points
    Most important mine safety provision that Congress could enact is 
requiring six inspections per year of all underground coal mines; if 
you do nothing else, require bi-monthly inspections of the mines; would 
substantially reduce the number of fatal and serious non-fatal 
accidents; stuck on four inspections since 1977 & that is not working 
(47 coal mine deaths last year, 16 in Kentucky).
    With all due respect to Bruce Watzman and other high-paid industry 
lobbyists, disregard their decades-old mantra that most accidents are 
caused by the carelessness of coal miners and that what we therefore 
need is behavior modification programs for coal miners; what we need is 
behavior modification for mine operators sparked by increased mine 
inspections and strict enforcement of the Mine Act, not the Bush 
Administration's fairy-tale emphasis on ``compliance assistance'' 
(i.e., asking operators, whom the Administration refers to as its 
``stakeholders'', to please comply with the law).
    Will submit more detailed comments in writing.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Watzman?

 STATEMENT OF BRUCE WATZMAN, VICE PRESIDENT FOR SAFETY, HEALTH 
        AND HUMAN RESOURCES, NATIONAL MINING ASSOCIATION

    Mr. Watzman. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to discuss with you what we have 
done since the tragic events last year and since passage of the 
MINER Act which NMA supported.
    But, first, let me express again to Ms. Lee and Ms. Hammer 
the condolences of the entire mining industry for their loss 
and for the other families who have lost loved ones in the 
mines.
    What I would like to discuss today is the progress we have 
made, but also the work we have left to do so that none of us 
has to endure this again. As you know, in January 2006, we 
established the Mine Safety Technology and Training Commission, 
an independent body to study new technologies, procedures and 
training techniques that can further enhance safety in our 
nations underground coal mines.
    The commission unanimously adopted 75 recommendations that 
are both near-term and far-reaching in scope. Many of these 
were endorsed by the Congress and passed in MINER Act. The 
recommendations will require us to look at mining differently 
and to train miners differently. Attached to my written 
statement is a status report on our review and implementation 
of the recommendations.
    NMA supported passage of the MINER Act. The requirements 
recognize that good safety practices continually evolve based 
upon experience and technologic development and that every 
underground mine presents a unique environment. Since passage 
of the act, the industry has moved aggressively to identify 
technology that will enable us to meet the mandates of the act 
in as short a timeframe as possible.
    While more work needs to be done to fully comply with the 
act's mandates, the industry has, as reflected in the chart 
attached to my statement and shown on the screens, made 
significant progress. Seventy-eight thousand new self-contained 
self-rescuers have been placed into service in the mines, and 
100,000 additional will be placed into service in the coming 
months. Miners have and will continue to receive quarterly 
training on the donning and use SCSRs.
    With the recent approval of expectation training units, all 
miners will begin to receive training with units that imitate 
the resistance and heat generation of SCSRs. Mines have 
installed lifelines in both their primary and secondary 
escapeways, and emergency tethers have been provided so miners 
can link together during their escape from the mine.
    Underground coal mines have implemented systems to track 
miners while underground. They have installed redundant 
communications systems, and new systems to provide post-
accident communication continue to be tested. And 36 new mine 
rescue teams have been added or are in the planning stages, 
even before MSHA initiate rule-making required by the act, and 
this number will surely go up.
    Even before passage of the act, we began working with MSHA 
and NIOSH on a mine emergency communication partnership. Some 
of these technologies hold great progress. However, they are 
some years away from readiness for mine deployment. 
Communication and safety experts agree that underground coal 
mines present unique challenges to signal propagation. This is 
only the beginning, just as the MINER Act is not the end, but 
rather one means of reaching our desired goal to protect our 
nation's miners.
    To that end, we have been compelled to challenge two MSHA 
actions that are outgrowths of the MINER Act because of our 
legitimate concerns about the safety consequences that are 
raised by these regulations.
    But we have also taken several voluntary actions. We 
initiated a review of existing mine rescue procedures and 
developed the generic mine rescue handbook to help those 
forming teams and developing mine rescue protocols. We are also 
developing a protocol for communication with the media during a 
crisis. The protocol will provide a framework for effective 
communication and cooperation with MSHA.
    Finally, Mr. Chairman, at no time in our recent history has 
the expertise residing in the mining program at NIOSH been more 
vital to improving safety. While NIOSH continues to develop and 
implement important advances in mine safety and health, 
progress has been slow due to an erosion of research funds, and 
the situation is now critical.
    We look forward to working with the members of this 
committee and others to ensure that adequate resources required 
to meet the goals of the MINER Act are available so that every 
miner can return home safely to their families each and every 
day.
    Thank you for this time. I would be happy to answer any 
questions.
    [The statement of Mr. Watzman follows:]

   Prepared Statement of Bruce Watzman, Vice President of Safety and 
                  Health, National Mining Association

    Good morning. My name is Bruce Watzman, and I am the vice president 
of safety, health and human resources for the National Mining 
Association (NMA).
    NMA and its member companies appreciate the opportunity to discuss 
with the committee what the industry has done since the tragic events 
last year to protect the health and safety of America's mine workers.
    Last year's events brought all members of the mining community 
together behind a single purpose--to ensure that every miner returns 
home safely to their loved ones each and every day. It is this single 
purpose that has guided the actions of NMA in establishing the Mine 
Safety Technology and Training Commission, supporting passage of the 
MINER Act, promoting industry awareness of the law's new requirements, 
and striving to find and deploy the new technologies that will improve 
the protection of underground coal miners.
    With that common purpose in mind, I will discuss with you today the 
findings of the Mine Safety Technology and Training Commission, and 
what the industry is doing to implement its recommendations; steps the 
industry has taken thus far to meet the expectations of the MINER Act; 
and our views on enhancing mine safety research capabilities.
Mine Safety Technology and Training Commission
    In January 2006, NMA established the Mine Safety Technology and 
Training Commission, an independent body, to immediately undertake a 
study of new technologies, procedures and training techniques that can 
further enhance safety in the nation's underground coal mines. The 
commission drew upon the knowledge and experience of mine safety and 
health professionals from academia, government, industry and the United 
Mine Workers of America to develop a pro-active blueprint for achieving 
zero fatalities and zero serious injuries in U.S. underground coal 
mines. The product of the commission's deliberations is a peer-reviewed 
report released in December 2006. The report has been recognized 
outside the industry as a blueprint to achieve the goal of zero 
fatalities and accidents. Indeed, your Committee's Interim Staff 
Report, issued on February 27, 2007, recognized the importance of the 
commission report to achieve this objective.
    The commission unanimously adopted 75 recommendations that are both 
near-term and far-reaching in scope. Many of the recommendations 
endorse actions taken by Congress in passing the MINER Act. The 
commission's recommendations include the areas of communications 
technology, emergency preparedness, response and rescue procedures, 
training, and escape and protection strategies. The central theme of 
the commission's recommendations is a call for a new paradigm for 
ensuring mine safety--one that focuses on a systematic and 
comprehensive risk assessment-based approach toward prevention that 
serves as the foundation from which all safety efforts will flow. This 
new paradigm will require us to look at mining differently and to train 
miners differently.
    The industry is currently implementing a number of the commission's 
near-term recommendations and is developing a blueprint for action on 
the more far-reaching items. For example, we are discussing with NIOSH 
the development of risk-based management tools and templates to assist 
the industry in its implementation of the central recommendation of the 
commission. The use of risk-analysis risk-management, while not a 
common practice throughout the industry, is familiar to many of the 
larger companies. Our goal is to create operational tools that will 
help every company identify and address significant hazards before they 
create situations that threaten life or property. Attached is a status 
review of the commission's 75 recommendations, including the steps 
necessary to implement those recommendations that are longer-term in 
nature.
    We share the commission's view that adoption ``* * * of a 
comprehensive, risk assessment-based approach toward prevention should 
significantly increase the odds of survival for miners in emergency 
situations, [and] also provide a guideline for pursuing zero accidents 
from all sources.'' We are mindful, however, that this is a significant 
undertaking. As Professor Jim Joy, Minerals Industry Health and Safety 
Center, University of Queensland, has noted in describing the 
Australian mining industry's experience with implementation of a risk-
based approach, [It] ``is immense and fraught with stumbling blocks.'' 
Nonetheless, we are committed to the task.
MINER Act
    NMA worked toward the passage of the MINER Act. We continue to 
believe that its core requirements are sound. The requirements, as 
implemented through Emergency Response Plans, recognize the need for a 
forward-looking risk assessment, that good safety practices continually 
evolve based upon experience and technological development, and that 
every underground coal mine presents a unique environment and what may 
work in one may not be effective or desirable in another. As the Act's 
legislative history succinctly states:
    The goals of optimizing safety and survivability must be 
unchanging, but the manner for doing so must be practical and sensible. 
S. Rep. No. 109-365 p. 3.
    We believe that this passage not only aptly captures the intent of 
the law, but also serves as a useful reminder to the industry and 
regulators that there is often more than one way to achieve our 
singular purpose to improve workplace safety.
    In the months following the enactment of the MINER Act, we 
endeavored to promote industry awareness and understanding of the law's 
new requirements. Toward that end, NMA, in conjunction with its state 
association affiliates and in cooperation with federal and state mine 
safety agencies, conducted six MINER Act Workshops throughout the 
country. These workshops were designed to assist the industry in 
preparing their Emergency Response Plans, obtain information on the 
latest technological developments for communications and tracking 
systems, and assess mine rescue protocols.
    Even before the enactment of the MINER Act, NMA and its members 
engaged NIOSH and MSHA in a mine emergency communications partnership. 
The purpose of the partnership is to evaluate current practices and 
technologies, design performance criteria and protocols for testing, 
and identify mines where the technologies can be tested. Our members 
have volunteered their mines for testing tracking and communications 
systems. Some of these technologies hold great promise; however, they 
are, in our estimation, some years away from readiness for mine 
application. Communications and safety experts agree that underground 
coal mines present unique challenges to radio and wire signal 
propagation. What works in one mine may not perform in another. As we 
seek to find and deploy the best systems, we will continue in the 
meantime to improve conventional systems to provide more reliable means 
for tracking and communicating with miners underground.
    Since passage of the MINER Act the industry has moved aggressively 
to identify technology that will enable us to meet the mandates of the 
Act in as short a timeframe as possible. While more work needs to be 
done to fully comply with the Act's mandates the industry has, as 
reflected below and in the chart that accompanies this statement, made 
significant progress. To date:
    <bullet> 78,000 new self-contained self-rescuers have been placed 
into service in the last 12 months and more than 100,000 will be added 
in the coming months.
    <bullet> All 55,000 underground coal miners have and will continue 
to receive quarterly training on the donning and use of SCSR's.
    <bullet> With the recent approval of expectation training units, 
all miners will begin to receive annual training with units that 
imitate the resistance and heat generation of actual models.
    <bullet> Mines have installed lifelines in both their primary and 
secondary escapeways and emergency tethers have been provided to permit 
escaping miners to link together.
    <bullet> Underground coal mines have implemented systems to track 
miners while underground; underground coal mines have installed 
redundant communication systems, and new systems to provide post-
accident communication continue to be tested.
    <bullet> 36 new mine rescue teams have been added or are in the 
planning stages, even before MSHA initiates the rulemaking required by 
the Act.
    These steps and others taken beyond the requirements of the MINER 
Act have resulted in a safety investment of more than $160 million for 
NMA member companies alone.
    These numbers simply reflect one quantifiable measurement of the 
industry's commitment to the MINER Act. And it is only the beginning, 
just as the MINER Act itself is not the end, but rather one means for 
reaching our desired goal to protect our nation's miners.
    Beyond the actions taken by the industry to comply with federal and 
state rules we have undertaken several voluntary initiatives that we 
would like to bring to your attention.
    NMA, with the Mine Safety and Health Administration (MSHA) and the 
National Institute of Occupational Safety and Health (NIOSH), initiated 
a review of existing mine rescue procedures to determine if existing 
practices and protocols remain operative given the structural changes 
that have occurred across the industry. This effort resulted in the 
development of a generic mine rescue handbook that can serve as a guide 
for those forming mine rescue teams and developing mine rescue 
protocols, as well as a review tool for those with established 
procedures in place. This document has been distributed throughout the 
mining industry to be used as a pre-event planning template that will 
expedite the delivery of mine rescue services in an efficient manner, 
should they be required. It is also readily available to the industry 
and public on NMA's website at www.nma.org.
    Working with the industry's communication specialists, NMA is 
developing a protocol for communications with the media during a mining 
crisis. The protocol recognizes the important role of the media in 
keeping communities informed about the facts surrounding a mining 
accident or fatality and the obligation of mine operators to contribute 
to that understanding. The protocol will provide a framework for 
effective communications and cooperation with MSHA, as envisioned by 
the MINER Act.
    Another challenge we face is the often conflicting regulatory 
requirements imposed by MSHA and state governments. We do not have the 
luxury of time to develop one system that complies with MSHA 
requirements, another for one state and possibly a third or fourth for 
additional states.
    Unfortunately, the underground mining marketplace is not attractive 
to many technology providers. In the interest of miner safety, it is 
imperative that we embrace policies that encourage the broadest 
possible application of technology across all underground coal regions.
Mine Safety Research
    At no time in our recent history has the expertise residing at the 
mining program in NIOSH been more vital to improving mine safety. The 
elimination of the Bureau of Mines in 1995 was a blow to the 
longstanding and renowned government leadership in mine safety and 
health research. The permanent establishment through the MINER Act of 
the Office of Mine Safety and Health in NIOSH will begin to restore 
this important function to its former prominence. However, without 
adequate resources the Office of Mine Safety and Health's leadership in 
this area will suffer, and the MINER Act's expectation for the 
acceleration in the pace of research and progress will be frustrated.
    While NIOSH continues to develop and implement important 
advancements in mine safety and health, progress has slowed due to the 
erosion of research funds, and the situation is becoming critical. 
Because NIOSH's budget for mine safety and health has remained 
relatively flat in recent years, its purchasing power continues to 
decline with the increasing cost of labor, materials and other research 
costs.
    As we consider how to advance the development and introduction of 
new technology, we urge you to again strengthen this vital government 
function and ensure funding for NIOSH is commensurate with the role 
Congress intended under the MINER Act to, ``enhance the development of 
new miner safety technology and technological applications and to 
expedite the commercial availability and implementation of such 
technology in mining environments.''
    Today the industry faces important challenges. More complicated 
geological conditions, advancements in technology and a new generation 
of miners require the introduction of new and innovative techniques. 
Our ability to further advance coal mine safety will require that 
government and industry continue to harness their collective resources 
to identify new technologies and practices that eliminate accidents, 
illnesses and injuries in the workplace. We look forward to working 
with you to ensure that the resources required to achieve this goal are 
available so that every miner can return home safely each and every 
day.
    Thank you, and I would be happy to answer any questions.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Dean?

STATEMENT OF JIM DEAN, DIRECTOR OF EXTENSION AND OUTREACH, WEST 
    VIRGINIA UNIVERSITY COLLEGE OF ENGINEERING AND MINERAL 
                           RESOURCES

    Mr. Dean. Good morning, Mr. Chairman, members of the 
committee. Thank you for the invitation to participate in 
today's hearing and for your ongoing attention to the important 
topic of protecting the health and safety of America's mine 
workers.
    I am pleased to appear before you today to report on some 
of the progress that has been made in my native state of West 
Virginia and what I believe are some of the remaining 
challenges to the progress of implementing miner protections 
that were outlined last year.
    I currently chair of the West Virginia Mine Safety 
Technology Task Force. This group is comprised of equal 
representatives of labor and industry. The purpose of the task 
force was to determine the commercial availability and 
operational capabilities of SCSRs, emergency chambers, wireless 
communication and tracking devices, and also consider issues 
related to the implementation, compliance and enforcement of 
the emergency rules defining Senate Bill 247 in West Virginia.
    I have attached to my remarks the report from the task 
force as well as the finalized rules that were recently 
approved by the legislature this year. These documents, in my 
opinion, provide the blueprint for enhancing an individual 
miner's ability to survive an explosion, based on a thorough 
review of existing technology, a study of past explosions and 
also coupled with the past practical mining experience by its 
members.
    During the various task force meetings with vendors, it 
became apparent that the technology to accomplish what everyone 
wanted either did not exist or needed modification to address 
important factors. The approach taken was to define standards 
that were critical in a post-accident situation based on 
existing technology and focus on a systems approach rather than 
focusing on a singular device.
    One example of these important factors was a 95-degree 
Fahrenheit apparent temperature requirement set for emergency 
chambers in West Virginia. This variable takes into account the 
effect of humidity. This particular value is the point at which 
a person begins to be exposed to the danger of having a heat 
stroke. It makes no sense for a surviving miner to enter a 
life-saving device and then suffer a heat stroke.
    These standards were publicized in rule form on June the 
9th, 2006. Since then, manufacturers of emergency chambers have 
made significant changes to their chamber design and 
construction based on suggestions from the task force as well 
as their own in-house review. After a two-tiered review 
process, a total of five chamber manufacturers were approved by 
the state. Some mine operators have already ordered these units 
prior to their planned April 15 due date for their chamber 
plans.
    What remains unknown is whether the chambers approved for 
use in West Virginia will meet MSHA's requirements when they 
are promulgated.
    Based on the first summary report of SCSR inspections 
issued in October of 2006 in West Virginia, which is attached, 
there are a total of 10,291 SCSRs reported. State personnel 
estimate of total of 24,000 to 25,000 units being reported at 
the close of 2006.
    In West Virginia, over $1 million of state funds have been 
spent on the West Virginia office of miners health, safety and 
training's mine rescue team equipment in the past year, with 
over another million to be spent in the coming months as 
reported by the director.
    The board of Coal Mine Health and Safety last year 
promulgated emergency rules, which are also attached, creating 
two new state mine rescue teams and additional improvements in 
equipment.
    Plans for the deployment of tracking and communication 
systems are due in West Virginia by July 31 of this year. MSHA 
has verbally indicated in that they do not intend to accept any 
system yet. We are moving forward in West Virginia and hope 
that a year or so from now, MSHA does not reject the systems 
that will soon be deployed in our state.
    This past legislative session in West Virginia, with 
operation from industry, the United Mine Workers of America and 
governments, attention turned towards accident prevention in 
the form of Senate Bill 68, which is awaiting the governor's 
signature, which is also attached.
    In summary, this legislation addresses five major areas: a 
new administrative sanction that gives the director of mines 
the authority to close an entire mine if the conditions are 
such that would warrant that; greater review of the use of belt 
air with the ultimate resolution of this issue tied to the 
outcome of the recommendations of the National Technical Study 
Panel convened under the U.S. DOL pursuant to the MINER Act; a 
section addressing seals; continuing education for mine 
foremen; and also continuing the task force.
    In summary, I believe that in order for the miner 
protections designed and being implemented by the state of West 
Virginia to proceed as quickly as possible, there must be 
cohesiveness and commonality in large part with federal 
requirements being implemented after these significant state 
requirements. This might be achieved through MSHA, excepting 
requirements that have already been implemented and a thorough 
review of the rationale with which these state requirements 
were determined.
    Mr. Chairman, this concludes my prepared remarks. Thank you 
for the opportunity to be here today.
    [The statement of Mr. Dean follows:]

Prepared Statement of Jim Dean, Director, Extension and Outreach, West 
    Virginia University College of Engineering and Mineral Resources

    Good Morning. Mr. Chairman, Members of the Committee: Thank you for 
the invitation to participate in today's hearing and for your ongoing 
attention to the important topic of ``Protecting the Health and Safety 
of America's Mine Workers''.
    I am pleased to appear before you today to report on some of the 
progress that has been made in my native state of West Virginia and 
what I believe are some of the remaining challenges to the progress of 
implementing miner protections that were outlined last year.
    Initially, allow me to offer a little bit of background on myself. 
I have been involved since 1994 in miner training with the West 
Virginia University's Mining Extension Service. In mid--February 2006, 
I was asked by Governor Joe Manchin of West Virginia to become the 
Acting Director of the West Virginia Office of Miners Health Safety and 
Training. I accepted this position as a way to try and improve miners' 
safety by working to construct meaningful reform to miners' safety and 
health after the passage of West Virginia Senate Bill 247 in 2006 which 
required a number of measures intended to improve post incident miners 
safety and served until September 21, 2006. I am currently the chairman 
of the West Virginia Mine Safety Technology Task Force which was formed 
in late February of 2006.
    Most of the requirements set forth on the state level through SB 
247 are currently being implemented consistent with state compliance 
schedules. For instance, plans for emergency shelters are due April 
15th and plans for emergency communications and miner tracking devices 
are due July 31st of this year. Although more effective, through-the-
earth communication systems are still in the design stage with limited 
depth penetration being demonstrated, West Virginia has elected to move 
forward with existing technologies and components designed to provide 
enhanced communications during an emergency event.
    Communications and safety experts agree that underground coal mines 
present unique challenges to radio and wire signal propagation. Local 
geology, mining conditions, and mine layout and design collectively 
serve to hinder the development of a universal system suitable for all 
mining operations.
    The Mine Safety Technology Task Force is comprised of three 
representatives selected by the United Mine Workers of America, three 
representatives selected by the West Virginia Coal Association, a 
technical advisor and chaired by the Director (I am currently serving 
as his designee). The purpose of the Mine Safety Technology Task Force 
was to determine the commercial availability, functional and 
operational capabilities of self contained self rescuers (SCSRs), 
emergency chambers/shelters, wireless communication devices and 
tracking devices. The Task Force also considered issues related to 
implementation, compliance and enforcement of the emergency rules 
further defining West Virginia Senate Bill 247.
    In my opinion, this group was able to lay the groundwork for 
significant, workable improvements in placing SCSR caches, emergency 
chambers, mine lifelines, wireless communication and tracking devices. 
The resulting report from the Mine Safety Technology Task Force and the 
finalized rules, recently approved by the West Virginia Legislature, 
are attached as Attachment 1 and Attachment 2 respectively. These 
documents, in my opinion, provide the blueprint for enhancing an 
individual miner's ability to survive after an explosion based on a 
thorough review of existing technology and study of past explosions 
coupled with years of practical mining experience by its members. It 
also contains a great deal of information on the various mine safety 
technologies, their limitations and use.
    During the various Task Force meetings with technology vendors, it 
became apparent that the technology to accomplish what everyone wanted 
either did not exist, or needed modification to address important 
factors. The approach taken in West Virginia was to define standards 
that were critical for the survival of a miner in a post accident 
situation based on the review of existing technology and focusing on a 
systems approach rather than a singular device. One example of this was 
the 95 degree Fahrenheit apparent temperature requirement set for 
emergency chambers.
    The apparent temperature takes into account the effect of humidity. 
The 95 degree value of apparent temperature is the point at which the 
human body begins to be exposed to the danger of having a heat stroke. 
It made no sense for a surviving miner to enter a potential life saving 
device and then only suffer a heat stroke. Similar standards for 
construction of emergency chambers were also developed and included in 
the Task Force report and publicized in rule form on June 9, 2006.
    Since that time, various existing manufacturers of emergency 
chambers have made significant modifications to their chamber design 
and construction based on suggestions from the Task Force, engineering 
studies, simulations, and in some cases physical testing. These 
manufacturers' products went through a review by a licensed 
professional engineer from West Virginia and then went through a 
separate review by Miners' Health Safety and Training personnel in 
addition to two other engineering professors from West Virginia 
University. This second review process was observed by MSHA and NIOSH 
personnel.
    Earlier this month, a total of five chamber manufacturers products 
with varying capacity models were approved by the State (one subject to 
confirmation of MSHA approval of a battery powered scrubbing system or 
substitution of a non-electrical system). Some mine operators have 
already ordered these units prior to the planned April 15th due date 
for submittal of their chamber plans. Similarly, plans to comply with 
the ``breathable air'' requirements of Section Two of the ``MINER 
Act'', which could include shelters/chambers, were filed with the Mine 
Safety and Health Administration (MSHA) on March 12th. In my opinion, 
this 10 month turn around time for technology development is 
exceptional. What remains unknown is whether the chambers approved for 
use in West Virginia will meet MSHA's requirements when they are 
promulgated later this year or early next year. In order for the miner 
protections designed and being implemented by the State of West 
Virginia, to proceed as quickly as possible there must be cohesiveness 
and commonality in large part with the federal requirements being 
implemented after significant state requirements.
    The State of West Virginia is estimating that there will be 
approximately 322 chambers needed in the state of West Virginia. The 
Director has informed me that he has been told by the shelter 
manufacturers that they are estimating that the chambers required for 
West Virginia will be delivered within a year. I believe based on 
information reviewed by the Mine Safety Technology Task Force, that the 
chamber market will quickly become segregated into two or three 
manufacturers, based on factors such as ease of being moved, height 
requirements, simplicity of use, and other design factors. There may be 
delays due to the availability of internal components such as 
regulators, air cylinders, etc. This in combination with what will 
happen based upon MSHA's requirements or those in other states that 
require chambers or ``safe rooms'' will affect commercial availability 
as demand increases.
    Estimates for start up time for chamber manufacturers have varied 
from a range of 6 to 10 weeks to 10 to 20 weeks to build the first few 
chambers. Production estimates have also varied considerably from a 
range of 1 to 2 units per week to 10 to 20 units per week due to plans 
for outsourcing construction of the unit. Several of the chamber 
manufacturers are estimating delivery times of 6 to 8 weeks for 
internal components mentioned previously.
    The West Virginia Mine Safety Technology Task Force is planning to 
meet with representatives from both MSHA and NIOSH to explain its 
rationale in developing the requirements enacted last year and also try 
and see what new regulations are being looked at by the entities to 
develop strategies for implementation in West Virginia and determine 
technology issues that we should be addressing that they are not. A 
sub-group of the Task Force is meeting with NIOSH this Friday.
    Last year, the state of West Virginia issued a requirement for all 
mine operators to report the results of their 90-day SCSR inspections. 
The first reporting period ended July 31 with reports due no later than 
August 15, 2006. The resulting report is attached as Attachment 3. Of 
note, the report indicates that a total of 10,291 SCSRs were reported 
in this first cycle. Analysis for the second reporting period is near 
completion, but WV Office of Miners Health Safety and Training 
personnel estimate (data is still be entered) a total of 24-25,000 
units being reported or a conservative doubling in number.
    In West Virginia over a million dollars of State funds have been 
spent on West Virginia Office of Miners Health Safety and Training's 
mine rescue team equipment in the past year, with over another million 
to be spent in the coming months as reported by the Director. The Board 
of Coal Mine Safety and Health (comprised of an equal number of labor 
and industry members, chaired by the Director) last year promulgated 
emergency rules (see Attachment 4) creating two new ``state'' mine 
rescue teams, for a total of four and two separate rescue stations--one 
for the northern coal fields and one for the southern regions and 
requiring various equipment deemed necessary. These new teams are 
designed to enhance the state's ability to respond to mine rescue 
activities if that need would ever arise.
    Mine rescue deadlines in the ``MINER Act'' are rapidly approaching. 
It is estimated that as many as 35 new company sponsored mine rescue 
teams will be created with additional teams required for smaller 
operations and more may be required based on travel time. As you know, 
these provisions are extensive and may have far-reaching effects on 
mine rescue coverage being provided by state teams such as Kentucky. 
The MINER Act was intended to enhance the current system but 
unfortunately it may do just the opposite in the case of Kentucky. It 
is my hope that MSHA's anticipated proposed regulations will be 
flexible enough to recognize the successful delivery systems of mine 
rescue.
    Plans for deployment of communication and tracking systems are due 
in West Virginia by July 31st of this year. MSHA has verbally indicated 
that they do not intend to accept any system yet. While we know that 
what we all envisioned, i.e. the ability to remotely pinpoint the 
location of any miner anywhere in the mine is not available, what is 
available is better than what is currently deployed. We are moving 
forward in West Virginia and hope that a year or so from now MSHA does 
not reject the systems that will soon be deployed in our state at a 
projected cost of approximately one quarter of a billion dollars.
    This past legislative session in WV, with cooperation from the 
industry, labor, and government, attention turned toward accident 
prevention and the need to ensure that the tragic accidents experienced 
last year do not occur in the future. Senate Bill 68 has completed 
legislative action and is awaiting the Governor's signature (see 
Attachment 5).
    Once again, I am pleased to report on the exceptional level of 
cooperation among the state, the UMWA and coal operators whose 
collective efforts resulted in a bill that will further enhance mine 
safety in West Virginia. This legislation addresses five (5) major 
areas:
    1) A new administrative sanction that gives the Director of Mines 
the authority to close a mine if the conditions are such that would 
warrant such action. An imminent danger violation kicks-in the 
``Pattern'' and potential closure of a mine. The current change 
requires a mine to have a history of repeated S&S violations caused by 
unwarrantable failure which demonstrates a disregard for miner health 
or safety;
    2) The section on belt air allows existing mines to continue to use 
belt air provided the director inspects the mine's ventilation system 
and ventilation equipment and finds the mine meeting the requirements 
of 30CFR 75.350 (b). New mines will have to petition the director to 
use belt air to ventilate working sections and the ultimate resolution 
of this issue is tied to the outcome of the recommendations of the 
national technical study panel convened under the US DOL pursuant to 
the MINER Act;
    3) The section addressing seals requires ``protocols'' for the 
inspection and examination of all seals and sealed areas to be 
developed by the Board of Coal Mine Health & Safety. It also requires 
remediation of all Omega seals and establishes a daily exam if not 
replaced. Certified engineers are required to sign off on new seal 
design if they meet the ``criteria established by the director'' and 
also requires the results of seal examinations to be recorded in a book 
prescribed by the director;
    4) SB 68 also requires continuing education for ``underground'' 
mine foreman fire bosses. These provisions include: (a) 8 hrs of 
continuing education hours; (b) the content of the continuing education 
program to include a review of all changes in state mining laws and 
mine safety regulations and other subjects as determined by the Board 
of Miner Training, Education and Certification; (c) empowering the 
Board of Miner Training, Education and Certification to approve 
alternative training programs designed by coal mine operators; (d) 
providing for indefinite suspension until such individual completes a 
refresher program; (e) requiring OMHST to make continuing education 
programs available in regions of the state based on demand for 
individuals possessing mine foreman-fire boss certifications who are 
not serving in a mine foreman-fire boss capacity; and (f) providing a 
procedure for out of state mine foreman-fire boss or an individual with 
a suspended certificate to gain active status by completing a 
retraining program developed by the Board; and
    5) The Mine Safety and Technology Task Force has been codified in 
state law. The nine member Task Force is charged with exploring new 
mine safety technologies and related equipment and making 
recommendations on their use in coal mines.
    In summary, I believe that in order for the miner protections 
designed and being implemented by the State of West Virginia to proceed 
as quickly as possible there must be cohesiveness and commonality in 
large part with the federal requirements being implemented after 
significant state requirements. This might be achieved through MSHA 
accepting requirements that have already been implemented and a through 
review of the rationale at which state requirements were determined.
    Mr. Chairman, this concludes my prepared remarks. Thank you for the 
opportunity to be here today. I'd be happy to answer any questions you 
have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Knisell?

               STATEMENT OF CHUCK KNISELL, MINER

    Mr. Knisell. Hello, Mr. Chairman, members of the committee. 
My name is Chuck Knisell. I am a fourth-generation miner from 
Westover, West Virginia. I presently work at Foundation Coal 
Company in southwestern Pennsylvania, and I am a member of 
United Mine Workers of America, Local 2300.
    I appreciate this opportunity to appear before the 
committee as you are discussing what needs to be done to make 
America's mines safer. I especially appreciate that you are 
interested in hearing directly from a working coal miner 
because I think that even though there has been renewed 
awareness about mine safety over the past year, members of 
Congress have been hearing a lot from industry and government 
agencies like Mine Safety and Health Administration, MSHA, but 
not enough from the miners themselves.
    Everyone has heard the saying, ``History repeats itself.'' 
Through the years, that has held true in the coal industry. 
Time after time, someone has to die or be seriously injured 
before the public's attention is captured about the safety 
conditions in America's coal mines and before laws are written 
to address and adjust those conditions.
    In school, we teach history to students of all ages so that 
we may prevent it from repeating itself, history. As we sit 
here today, I believe it is time we take a lesson from our 
blood-covered mining books and show to all that we can stop 
this deadly cycle in this nation's mines.
    Accidents can be prevented. This is the fact that all of us 
know that work in the mines and understand. Mother Nature, the 
conditions in the mine, the geology of the coal seam and many 
other factors can be difficult to control at times. Every mine 
is different, just like a fingerprint.
    But just because mines are different does not mean that the 
same laws cannot apply to every mine. They can, whether you are 
looking at a small operation of maybe 30 men and women or a 
large operation of a thousand. Some people say that we have to 
treat smaller operations differently than large ones due to the 
fact that the money they make and this and that and that and 
this, but the fact is the small mines get overlooked and are 
allowed to do whatever they need to do in order to keep 
operating and make money.
    But the effect is that people are being killed in those 
smaller operations year after year. The message that sends to 
the miner is that as the price fluctuates of coal, so does the 
price of miners' lives. The more production, the more death.
    At times of higher prices, companies tend to want to 
produce as much as they possibly can, putting production ahead 
of safety. This is especially true in smaller mines and mines 
where there is no union to make them focus on safety. They 
spend less on safety so that they could put more money in their 
pockets. Coal miners have seen this over and over again, 
generation after generation.
    This is where MSHA is supposed to come in. The agency is 
supposed to put a handle on these companies to enforce safety 
laws and regulations and look out for the miner, not the coal 
companies. MSHA really is supposed to be the police department 
of the mining industry. If they were doing their job, then it 
is reasonable to ask why did the miners at Sago die and all the 
rest of the miners that died in the past year.
    Mr. Chairman, from one of the places I worked before, I got 
my present job with Sago. I knew some of the men who were lost 
there. I worked with them, and I understand the conditions that 
were at that mine. In my opinion, MSHA and the mine operator, 
the International Coal Group, betrayed those men.
    In my opinion, if ICG had put safety in front of production 
at Sago and addressed the problems they had at this mine, which 
they had many, and if MSHA had been a strict enforcer of the 
law, the men we lost there would still be alive today.
    Congress took a big step in the right direction last year 
by passing the new MINER Act. We need to continue that because 
there is a lot more for us to do to protect the miners, like 
myself. For one thing, it must be understood that as each year 
passes, technology advances and the mine safety laws and 
regulations must advance along with it.
    Communication technology has advanced, but we still do not 
have reliable communications in the mines in the event of a 
disaster. Technology for tracking miners underground has been 
around for a long time, and it is still used in other 
countries, but MSHA has never required it and the operators 
still never use it in the United States.
    Miners should not have to wait for more of us to be killed 
or injured before the government and to demand these companies 
do whatever it takes to keep us safe.
    Finally, I want to talk about one of the major differences 
in safety in our coal mines, and that is union representation. 
My first 3 years working in the mines were spent at non-union 
mines in West Virginia, including Sago. The other 3 have been 
at my present mine, Cumberland in Pennsylvania, which is a 
union mine. The difference is between night and day.
    At non-union mines, you have no voice on safety. It is 
basically do it or leave. I have heard all the talk from non-
union operators about how much they care about safety, but let 
me tell you as a working coal miner that is just a lot of talk, 
and it really does not mean anything. They really do not care.
    The miners just do not have a voice about their working 
conditions in the non-union mines. I have been there. I know. I 
have seen it. I have worked through it.
    Chairman Miller. It is getting late, so I am going to ask 
you if you can wrap up your testimony.
    Mr. Knisell. Okay. I will do that. I am sorry.
    Chairman Miller. Thank you. Thank you.
    Mr. Knisell. Let us see. What do I want to do? How about I 
just thank you? Thank you. Thank you for hearing me and letting 
me run over 2 minutes. Thank you.
    [The statement of Mr. Knisell follows:]

               Prepared Statement of Chuck Knisell, Miner

    Mr. Chairman, members of the Committee, my name is Chuck Knisell. 
I'm a fourth-generation coal miner from Westover, West Virginia. I've 
been working in the coal mining industry for six years. I currently 
work at Foundation Coal Company's Cumberland mine in southwestern 
Pennsylvania, and am a member of the United Mine Workers of America 
Local Union 2300.
    I appreciate this opportunity to appear before the committee as you 
are discussing what needs to be done to make America's mines safer 
places to work. I especially appreciate that you are interested in 
hearing directly from a working coal miner, because I think that even 
though there has been renewed awareness about mine safety over the last 
year, members of Congress have been hearing a lot from the industry and 
the government agencies like the Mine Safety and Health Administration 
(MSHA), but not enough from the miners themselves.
    Everyone has heard the saying that ``history repeats itself.'' 
Through the years, that has held true in the coal industry. Time after 
time, someone has had to die or be seriously injured before the 
public's attention is captured about the safety conditions in America's 
coal mines, and before laws are written to address and adjust those 
conditions.
    In school, we teach history to students of all ages so that we may 
prevent it from repeating itself. As we sit here today, I believe it is 
time we take a lesson from our blood-covered mining history books and 
show to all that we can act to stop the deadly cycle in our nation's 
mines.
    Accidents can be prevented. This is a fact that all of us who work 
in the mines know and understand. Mother Nature--the conditions in a 
mine, the geology of the coal seam, and many other factors--can be 
difficult to control at times. Every mine is different, just like a 
fingerprint. But just because mines are different, it does not mean 
that the same laws cannot be applied to every mine. They can, whether 
you're talking about a small operation of 30 employees or a big one of 
a thousand employees.
    Some people say that we've got to treat smaller operations 
differently from large ones. The small mines get overlooked, or are 
allowed to do whatever they want to do in order to keep operating and 
make money. But the effect is that people are being killed in those 
smaller operations year after year.
    The message that sends to the coal miner is that as the price of 
coal fluctuates, so does the price of miners' lives. At times of high 
prices, companies tend to want to produce as much as they can, putting 
production ahead of safety. This is especially true in smaller mines 
and mines where there is no union to make them focus on safety. They 
spend less on safety so they can put more in their pockets. Coal miners 
have seen this over and over again, generation after generation.
    This is where MSHA is supposed to come in. The agency is supposed 
to put a hand on these companies to enforce safety laws and regulations 
and look out for the miner. MSHA really is supposed to be the police 
department of the mining industry. If they were doing their job, then 
it's reasonable to ask: why did the miners at Sago die?
    Mr. Chairman, one of the places I worked before I got my present 
job was at Sago. I knew some of the men who were lost there. I worked 
with them, and I understand the conditions that were in place at that 
mine. In my opinion, MSHA and the mine's operator, the International 
Coal Group, betrayed those men. If ICG had put safety in front of 
production at Sago and addressed the problems they had in that mine, 
and if MSHA had been a strict enforcer of the law, the men we lost 
there would still be alive today.
    Congress took a big step in the right direction last year by 
passing the new MINER Act. We need to continue that, because there is 
still a lot more to do to protect miners. For one thing, it must be 
understood that as each year passes, technology advances, and the mine 
safety laws and regulations must advance along with it.
    Communications technology has advanced, but we still don't have 
reliable communications in the mines in the event of a disaster. 
Technology for tracking miners underground has been around for a long 
time and is used in other countries, but MSHA has never required it in 
the United States. Miners shouldn't have to wait for more of us to be 
killed or injured for our government to demand of companies that they 
do whatever it takes to keep us safe.
    Finally, I want to talk about one of the major differences in 
safety in our coal mines, and that's union representation. My first 
three years working in the mines were spent at non-union mines in West 
Virginia, including Sago. The other three have been at my present mine, 
the Cumberland mine in Pennsylvania, which is a union mine. The 
difference is like night and day.
    At the non-union mines, you have no voice on safety. It's 
basically, ``do it, or leave.'' I've heard all the talk from the non-
union operators about how much they care about safety, but let me tell 
you as a working coal miner, that's just a lot of talk that doesn't 
mean anything in reality. The miners just don't have a voice about 
their working conditions in non-union mines. I've been there, I know. 
I've seen it, and I've worked with it.
    When someone is working in such a fragile, unstable environment 
hundreds or thousands of feet below the surface of the earth, that 
miner should have a voice when it comes to health and safety, and it 
should be a voice that must be listened to. I have a family that I want 
to come home to at the end of the day. I have a right to expect that my 
workplace will be as safe and healthy as it can possibly be, and that I 
can have a say in how to make it that way.
    With a union presence, a miner has that voice. The company has to 
respect the safety rights we have written into our contract. We also 
know that a union mine is a productive mine. Statistics bear that out. 
The company I work for is a good example. Foundation has union mines 
and non-union mines, but the two most productive underground mines the 
company has are UMWA mines. They are where our company makes money. 
Management knows that, and we know that. Why they fight the union 
organizing at its other mines is beyond me.
    Again, I appreciate the opportunity to appear before the committee 
today. You have a difficult task ahead of you as you work to improve 
and strengthen our mine safety and health laws. All I ask, as a working 
miner, is that you continue to hold to the declaration Congress made in 
the preamble of the 1977 Mine Act, that the ``first priority of all in 
the coal or other mining industry must be the health and safety of its 
most precious resource--the miner.''
    We miners believe Congress meant those words when they were written 
30 years ago. What we want to know today is, do you still mean them, 
and what will our government do to make sure they will never be 
forgotten?
    Thank you, and I will be happy to answer any questions I can.
                                 ______
                                 
    Chairman Miller. Ms. Hamner?
    Your written statement will be included in the record in 
its entirety.
    Mr. Dean. Okay.

   STATEMENT OF DEBBIE HAMNER, WIFE OF DECEASED MINER GEORGE 
                       ``JUNIOR'' HAMNER

    Ms. Hamner. I also want to thank you for inviting me here 
to speak at this hearing today. I am Debbie Hammer, and this is 
a picture of my husband, George ``Junior'' Hammer, who died in 
the Sago mine disaster.
    Junior had been a coal miner for 28 years, we had been 
married for 32 years, and we have one daughter, Sarah Bailey.
    Do you want to come on down? Okay.
    Chairman Miller. Thank you, Sarah, for being here.
    Ms. Hamner. I attended Congressman Miller's forum on 
miners' health and safety last year in February after the 
deaths of 47 miners last year in America. I am here today to 
stress to you that our work is not done.
    New and better laws are wonderful, but it is very important 
that Congress oversees MSHA to ensure the improvements that you 
intended with the MINER Act are being accomplished. Despite 
your good intentions, I have to wonder if very little has 
actually changed. I fear that the miners would fare no better 
today in explosion than my husband and his coworkers did on 
January 2, 2006.
    The MINER Act required extra air supplies be available. 
This seems so simple, yet 1 year later, many miners still only 
have 1 hour. MSHA allows coal operators to be in compliance if 
additional SCSRs have been ordered.
    The MINER Act also required operators to submit emergency 
response plan. Yet, 1 year later, many operators are not in 
compliance.
    I believe Sago was preventable. If I knew then what I know 
today, I would have begged my husband not to work at Sago. It 
is my understanding that in 1969 and again in 1977, Congress 
mandated explosion-proof seals, yet MSHA approved the use of 
omega blocks at Sago. Of course, they failed in the explosion.
    When I had the opportunity to inspect one of these blocks, 
I kicked the side. The side crumbled. How can they be 
explosion-proof? I ask you to permanently ban the use of omega 
blocks.
    MSHA also approved secondary mining, also known as bottom 
mining, at Sago, even though they said conditions were not 
favorable. This created heights in many areas that were more 
than 18 feet. Methane accumulated behind the seals in a greater 
volume than it would have without the bottom mining. Bottom 
mining is rare, and I am asking Congress to ban it. My husband 
wrote in his last note to me and my daughter, ``The section is 
full of smoke and fumes, so we cannot escape.''
    MSHA approved a ventilation plan at Sago that did not push 
the air away from the seals. Therefore, when our miners tried 
to exit through the intake as escapeway, they could not. Miners 
must have ventilation systems that ensure their best protection 
in case they need to escape.
    Our miners were forced to barricade at the face. My husband 
also wrote in his note to me, ``We do not hear any attempts at 
drilling or rescue.'' They took turns pounding on the roof 
bolts. MSHA trains the miners that if they barricade to do 
this.
    But guess what? MSHA was not on the surface listening. They 
did not even have the equipment available to listen. I am 
asking if MSHA is not going to be there to listen, do not train 
that they will be. Our miners depended on them. They were let 
down.
    Our Sago miners should have been able to walk out. I urge 
you to see that current communication technology is installed 
in all the mines, to require tracking devices that can locate 
miners underground at all times, and require safety chambers in 
all of our mines.
    Congress must ensure funding for mine inspections and mine 
inspectors. MSHA must quit reducing fines and must do a better 
job of collecting fines. MSHA must have the ability to shut 
down mines not in compliance.
    My last request to you is please quit allowing coal 
industry executives to hold high positions within MSHA. We need 
your continued oversight to ensure look human life never has to 
take a back seat to corporate profits.
    Thank you for your hard work on miners health and safety 
and your continued hard work.
    Congressman Miller, if I might, I would like to introduce 
two ladies that are here with us today.
    Chairman Miller. Please.
    Ms. Hamner. This is one Wanda Blevins and Betty Riggs. Both 
these ladies lost their husbands in the Jim Walters mine 
explosion in September of 2001.
    Chairman Miller. Thank you. Thank you very much for joining 
us here this morning and being here.
    Ms. Hamner. Thank you.
    [The statement of Ms. Hamner follows:]

  Prepared Statement of Deborah Hamner, Wife of Deceased Miner George 
                           ``Junior'' Hamner

    Good morning. Thank you for inviting me to speak at this hearing 
today.
    I am Deborah Hamner. My husband, George ``Junior'' Hamner died in 
the Sago Mine Disaster. He had been a coal miner for about 28 years. 
Junior was 54 years old. We had been married for 32 years, and have a 
daughter, Sara Bailey. Junior and I have a farm where he kept cattle. 
He loved the outdoors.
    I attended Congressman Miller's forum on miners' health and safety 
last year in February.
    After the death of 47 miners last year in America, I am here today 
to stress to you that our work is not done. It is very important that 
Congress oversees MSHA to ensure the improvements you intended with the 
``Miner Act of 2006'' are being accomplished.
    Despite Congress' good intentions, I have to wonder if little has 
actually changed. I fear that miners would fare no better today in an 
explosion than my husband and his coworkers did on January 2, 2006.
    The ``Miner Act'' required extra air supplies be available. This 
seems so simple. Yet one year later, many miners still only have one 
hour. MSHA allows coal companies to be in compliance if additional 
SCSRs have been ordered.
    The ``Miner Act'' also required operators to submit emergency 
response plans. Yet one year later many operators are not in 
compliance.
    I believe Sago was preventable. If I knew then what I know today, I 
would have begged my husband not to work at Sago. It is my 
understanding that in 1969 and again in 1977 Congress mandated 
``explosion proof seals,'' yet MSHA approved the use of Omega Blocks at 
Sago. They failed in the explosion. When I had the opportunity to kick 
one of these blocks, the side crumbled. How can they be explosion 
proof? I ask you to permanently ban the use of Omega Blocks.
    MSHA approved bottom mining at Sago. This created heights in many 
areas that were more than 18 feet. Methane accumulated behind the seals 
in a greater volume than it would have without the bottom mining. 
Bottom mining is rare and I am asking Congress to ban it.
    My husband wrote in his last note to me, ``the section is full of 
smoke and fumes so we can't escape.'' MSHA approved a ventilation plan 
at Sago that did not course the air away from the seals. Therefore, 
when our miners tried to exit through the intake escapeway, they could 
not. Miners must have ventilation systems that ensure their best 
protection in case they need to escape.
    Our Sago miners should have been able to walk out. I urge you to:
    <bullet> See that current communication technology is installed in 
all mines;
    <bullet> Require tracking devices that can locate miners 
underground at all times; and
    <bullet> Require safety chambers in all mines.
    Congress must ensure funding for mine inspectors and mine 
inspections. MSHA must quit reducing fines and must do a better job of 
collecting fines. MSHA must have the ability to shut down mines not in 
compliance.
    Our last request to you is this: please quit allowing coal industry 
executives to hold high positions within MSHA.
    We need your continued oversight to ensure human life never has to 
take a back seat to corporate profits.
    Thank you for your hard work on miners' health and safety and your 
continued hard work.
                                 ______
                                 
    Chairman Miller. Cecil?

 STATEMENT OF CECIL ROBERTS, PRESIDENT, UNITED MINE WORKERS OF 
                            AMERICA

    Mr. Roberts. Thank you very much, Mr. Chairman, not only 
for this hearing today but for your continued fight on behalf 
of working-class people, particularly last year when you aired 
such a strong voice for the protection of miners.
    And I also want to thank the entire committee for the MINER 
Act last year. It is true we supported that because it was a 
good first step in the direction of protecting the nation's 
coal miners.
    I was going to mention Mrs. Riggs and Mrs. Blevins myself. 
I have known them very well since 2001, and this is David 
Blevins in front of me. He has become my friend, even though I 
did not know him when he was alive. Junior Hamner has become my 
friend, and we have made both of these men honorary members of 
the United Mine Workers in their death.
    I have had the opportunity to work also with Mrs. Riggs, 
and she has been a strong supporter of mine health and safety.
    I want to thank the coal miners who are here today. They 
traveled from West Virginia and they traveled from Pennsylvania 
because they, too, are interested in protecting themselves and 
seeing that they can come home every day to their loved ones.
    I am reminded of what John L. Lewis, a great president of 
Mine Workers, once said in about 1952 before a similar hearing. 
After a horrific explosion in Illinois that killed over 100 
miners, they asked each participant to introduce themselves. He 
did not say he was the president of the Mine Workers. He just 
said, ``My name is John Lewis, and I represent those miners who 
are still alive.''
    So today, as all of us gather here, whether we are members 
of Congress or members of the union or families grieving and 
fighting for better laws or coal miners who made their way here 
today, that is our charge. How can we protect the nation's coal 
miners?
    Many have said that we have been highly critical of this 
industry and highly critical of MSHA, and that is very true, 
but I want to say on the record there are many fine men and 
women at MSHA who work every day fighting to protect coal 
miners and their lives and make things better and safer. There 
are many industry representatives and many coal companies that 
do the right thing.
    What we are speaking to is that we make things better for 
everybody, and that should be the charge of Congress, and that 
should be the charge of the union. That should be everyone's 
main concern.
    I would hope and I would pray that no one in this room 
thinks it is all right for any coal miner, whether they are 
working in a small mine in eastern Kentucky or at the Sago mine 
in northern West Virginia, or any other miner to go to work 
today and not know if they have the full protection and support 
of their government, to come home safely to their families.
    In the United States of America, it should be something you 
could expect to do. You should not fear that you cannot go to 
work, make a day's earnings for your family and come home 
without your family thinking that maybe you will not come home. 
We join with all the families today in this hearing.
    But let me just say to you, Mr. Chairman, members of the 
committee, I invite you, all of you, to look at what Congress 
did in 1969, and I would remind this panel that Congress 
determined in 1969 that this industry was incapable of policing 
itself. Congress has made that determination. You do not have 
to make it. It has been made many years for you.
    Unfortunately, it took a long time for Congress to come to 
grips with that. Why did they come to grips with that? Well, 
the nation watched the mine explode in northern West Virginia 
in 1968 that killed 78 coal miners, and the nation was appalled 
when they are sitting in their living rooms in California or 
New York City or Chicago or in the coal fields of West 
Virginia, they were appalled and said, ``This Congress has to 
do something. Our government has to do more to protect the 
nation's coal miners.''
    They passed the 1969 Coal Mine Health and Safety Act, and 
then in 1977, they passed another act that strengthened the 
1969 act, and I will submit to you that you cannot look at what 
is going on in this industry today without coming to this 
conclusion: The intent of Congress that was written into the 
law has not been the law at the coal mines itself.
    You say, ``Well, what you talking about?'' I would submit 
to you that Congress said that you cannot ventilate the face 
with belt air. We do that every day in this nation's coal 
mines. How do we do that and who gave them the authority? MSHA 
took from Congress what they had written in the law and changed 
it. So, today, we ventilate the face with belt air.
    If you look at the law, it says that you have to build 
seals that are explosion-proof. Today, you could go and kick in 
the seals. Most of the seals in the United States are made out 
of omega blocks, and they are not explosion-proof.
    So I would submit to Congress you have your own little 
agency that over the years has decided they do not yet to do 
what you told them to do no. You need oversight of this agency 
in the worst way.
    And I am not speaking to the many fine men or women who go 
out in these mines every day and the professionals who have 
been there for many, many years. I am talking about the people 
who make the policies that these coal miners, like Chuck 
Knisell and others, have to be governed by day in and day out, 
petitions for modifications that change the intent of Congress.
    In 1969, Congress knew and directed the government agency 
in charge of mine health and safety then to come up with 
systems to put chambers in the coal mines. Now I submit to this 
body today, it has been a little while since 1969, and here we 
are today saying, ``Gee, this is a good idea. What if MSHA can 
really get this done for us?'' You must put time restraints and 
bring them in here periodically to say, ``What kind of progress 
are you making here?''
    If we can do these things in West Virginia and we can do 
these things in Illinois, we have to require these in every 
underground coal mine in the United States of America, Mr. 
Chairman. That is not an expensive venture. That is not an 
outrageous demand.
    I submitted in our report at Sago that these men should be 
alive today regardless of the ignition source that caused that 
explosion, and I believed that then, and I believe that today, 
and we have attached that to our report.
    We would be glad to answer any question from any member of 
Congress anytime or anyplace or, for that matter, anyone from 
MSHA with respect to the positions that we have taken.
    Thank you, Mr. Chairman.
    [The statement of Mr. Roberts follows:]

Prepared Statement of Cecil Roberts, President, United Mine Workers of 
                                America

    On behalf of the United Mine Workers of America (UMWA or Union), I 
would like to thank Chairman Miller (D-CA) for calling this hearing 
before the Education and Labor Committee to continue the discussion 
about coal mine health and safety. I would especially like to thank 
Congressman Miller for his steadfast and continuing support of the 
Nation's miners. Your efforts along with those of the entire West 
Virginia delegation and others have been instrumental in advancing and 
protecting miners' health and safety. The MINER Act passed last year, 
was the first new mine health and safety bill to be enacted by Congress 
in nearly 30 years. The Union believes that legislation is a good first 
step, but more must be done if we are to eliminate the conditions that 
led to the deaths of 47 coal miners last year.
    The disasters of 2006 focused the attention of the Nation on the 
mining industry. Unfortunately, as it has been in the past, it took 
several mining disasters and the loss of many lives before the Nation 
understood the dangers miners face daily. The tragic events of 2006, 
which played out in newspapers and television nationwide, finally 
forced Congress to take action. This reality is too often the case. 
Almost without exception health and safety protections miners need are 
ignored until a mine explosion or fire claims their lives and creates a 
public outcry for change. The 1969 Coal Act was a response to an 
explosion in Farmington, West Virginia on November 20, 1968, that took 
the lives of 78 miners, 19 who still remain entombed in that mine.
    While the Coal Act was an improvement for miners, subsequent 
hearings in Congress showed that hundreds of miners continued to be 
killed each year in the Nation's coal mines. This reality forced 
Congress to pass the Federal Mine Safety and Health Act of 1977 (Mine 
Act). This legislation enhanced protections for coal miners and created 
the Mine Safety and Health Administration (MSHA) to promulgate and 
enforce mining laws nationwide.
    Since the Coal Act was passed, fatalities in coal mining have 
decreased dramatically: while over 300 miners died in 1968, the year 
before the Coal Act was enacted, since 1985 fewer than 100 miners have 
perished in any single year. These numbers continued to decline until 
last year when 47 miners died on the job; the highest single year death 
toll since 1991. While increased mechanization has meant fewer miners 
are engaged in coal mining, the fatality rate has also dropped 
significantly. This is commendable; but we can--and must--do much 
better.
    Mining is inherently dangerous and remains the second-most 
dangerous industry in this country. This nation possesses the knowledge 
and ability to substantially improve miners' health and safety, and to 
reduce the fatality rate.
    Since its inception some mine operators have resisted the authority 
of MSHA to regulate the industry. In some instances they have been 
successful in turning back the clock to the days before passage of the 
Mine Act. Many of the mandates enacted by Congress in that legislation 
have been weakened or eliminated. The use of belt-air to ventilate 
working places where miners are extracting coal was strictly prohibited 
by Congress, but has been approved by MSHA and is now a common practice 
in the industry. The requirement for explosion-proof or bulkhead seals 
to separate working areas of the mine from worked out or abandoned 
areas is no longer a reality. The industry, through MSHA, has 
manipulated and subverted the system Congress created to protect 
miners. The law has been circumvented by MSHA by permitting the use of 
alternative materials for the building of seals, as was the case at 
Sago mine, where they catastrophically failed.
    Unfortunately, what happened at Sago, Alma, and Darby, three 
accidents that alone claimed the lives of 19 miners in 2006, should not 
have come as a surprise to anyone. Indeed, the underground coal 
industry has experienced tragedies, as well as near tragedies, on a 
recurring basis. On September 23, 2001--two short weeks after 9-11--at 
the Jim Walters Resources #5 mine in Alabama there was a terrible 
series of events that echoed the Twin Towers' experience inasmuch as 
numerous rescuers also perished during a heroic rescue effort. At the 
Jim Walters mine, 12 of the 13 miners lost their lives in a second 
explosion while trying to rescue a miner who had been immobilized by an 
explosion that happened nearly an hour earlier. Communication problems 
contributed to the deaths of the 12 rescuers; the rescuers were given 
insufficient and faulty information about the underground conditions, 
and unselfishly attempted the rescue without knowing the hazards they 
faced.
    Then in July 2002, 9 miners were trapped by a water inundation at 
the Quecreek mine in Pennsylvania, after 9 others were able to escape. 
The trapped miners were rescued 4 days later; again communication 
inadequacies frustrated their rescue.
    After the Jim Walters tragedy, and again after the Quecreek near-
disaster, the need for better underground communications was crystal 
clear. Despite the clear lessons to be learned from these events, MSHA 
made no changes to require better communications or technology to 
locate trapped miners.
    In 2006, the coal industry suffered a series of multi-fatal 
tragedies. A total of 47 miners lost their lives last year, including 
12 at the Sago mine and 2 at the Alma mine both in January and both in 
West Virginia, then 5 more perished at Kentucky's Darby mine in May, 
and 28 others died one or two at a time throughout the nation. 
Typically miners die one or two at a time from roof falls, equipment 
failures, and other accidents.
    Thousands of others are still disabled and dying from black lung 
disease.
    There are also countless near-misses that occur on a regular basis. 
In just the last few years, MSHA has recorded hundreds of mine fires, 
ignitions, explosions and inundations that far too-easily could have 
developed into significant disasters and fatalities; many other 
incidents likely went unreported.
    With better regulations, more regular and consistent enforcement, 
and with support from the highest echelons of the Agency, many of these 
accidents could have been prevented. Senseless deaths and injuries must 
stop. Mining will probably always be a dangerous job. But we can do a 
lot more than we are doing today to make it safer. Miners should not 
have to get sick, or to risk their lives just by going to work.
    The sustained efforts by industry and government to erode the Mine 
Act has been devastating to miners. Many of the events of 2006 are 
rooted in regulations, policies, petitions for modification and 
practices MSHA has instituted at the behest of mine operators. Many of 
these played a role in the mining deaths of 2006. Once again, miners 
were forced to wait until many of their fellow workers were killed on 
the job before the public and Congress were outraged enough to take 
long overdue action to better protect them.
    The United Mine Workers of America has been representing coal 
miners for over 117 years. We have seen the effects of lax enforcement 
of mining laws by regulatory agencies and the harm that befalls miners 
when mine operators view regulations with indifference. These factors 
played a role in the September 23, 2001 explosions at the Jim Walter #5 
Mine (JWR #5) that claimed the lives of 13 miners. The Union completed 
an investigation into the JWR #5 disaster and issued a comprehensive 
report, which I have included with my testimony. The Union is convinced 
that had the recommendations contained in that report been promulgated 
by MSHA, the disasters of 2006 would not have taken such a toll in 
human life.
    As you may know, the Union recently released its findings regarding 
the Sago mine disaster. Since the release of our report, which is 
attached to this testimony, there has been much written about the 
ignition source of that explosion, and while it is important to make 
that determination as we believe we have, that must not be the focus of 
this tragedy. Based on our findings, no matter what the source, there 
can be no doubt that every one of the 13 miners trapped by the 
explosion should have survived. However, given the events that led up 
to this disaster and the decisions made prior to and immediately after 
it occurred by federal regulators and mine management; 12 of those 
miners died. This is the unfortunate result of MSHA ignoring the 
mandates of Congress outlined in the 1969 Coal Act and the 1977 Mine 
Act and bowing to the wishes of the coal industry. Therefore, while the 
Union understands the need to enhance miners' protections with new 
legislation and regulations, we must also correct the errors of the 
past and force mine operators and the Agency to strictly adhere to the 
previous orders of Congress. The UMWA believes that many of the 
protections Congress mandated have been taken away or watered down over 
the years and only Congressional action will force the necessary 
corrections to be instituted.
    The UMWA concluded that conditions at the Sago mine leading up to 
the disaster were the direct result of actions taken by MSHA 
immediately preceding the explosion as well as years of regulations, 
policies, petitions for modification and practices that weakened 
miners' protections by the Agency. The Union's report identifies these 
bad decisions by MSHA and the International Coal Group (ICG) created at 
Sago mine including:
    Use of alternative seal material;
    Flawed ventilation plan;
    Inadequate oxygen;
    Problems with mine rescue teams;
    Need for more coal mine inspectors;
    Need for tracking devices;
    Need for better communications systems;
    Ineffective training;
    Poor mining plans;
    Lack of seismic equipment;
    Delayed response to initial explosion; and
    Lack of safety chambers or safe havens.
    The Union's report of the Sago disaster demonstrates the failures 
that occurred on many levels by both industry and the government 
permitting this tragic accident to take the lives of 12 miners on 
January 2, 2006. There is no single event that created these 
conditions. The explosion and loss of life was the culmination of many 
bad decisions by the mine operator and regulators. To view this 
otherwise distorts the reality of the situation and restricts our 
ability to correct these mistakes and oversights to ensure no miner or 
miners' family will face a similar tragedy.
    MSHA knows how to do better. The Agency itself has performed 
countless internal reviews and self-analyses; the federal government's 
watchdog agency, the GAO, has given it direction, and the UMWA has 
communicated both formally and informally about how MSHA can and must 
do better.
    Several years ago, the GAO focused on shortcomings in MSHA's 
performance with regard to the underground coal industry. The GAO 
issued its report in September 2003, two years after the Jim Walters 
tragedy. In its report the GAO noted that MSHA headquarters was not 
performing adequately in several key areas. Specifically, the GAO found 
MSHA failed to ensure violations cited to mine operators were corrected 
in a timely fashion. In fact, the GAO found that of all the citations 
issued by the Agency, including those written as ``significant and 
substantial,'' despite inspector-imposed deadlines by which problems 
were to be abated, 48% of the time the Agency failed to follow-up in a 
timely fashion to see if the operator fixed the hazards.
    The GAO also found that MSHA collected information about accidents 
and investigations, but then failed to use the information effectively 
to prevent future accidents. It further found that MSHA failed to 
ensure that the ventilation and roof control plans are reviewed every 
six months, even though the Mine Act and applicable regulations, as 
well as MSHA's long-standing policies, require that these reviews occur 
on a semi-annual basis.
    After MSHA completed its investigation into the Jim Walters 
disaster, the Agency also performed an Internal Review of MSHA's 
actions before the explosions to ``improve our inspection process to 
better protect our nation's miners.'' The review compared what MSHA 
actually did with what the Mine Act requires it to do. A number of 
problems were identified as deficiencies ``at both the district and 
headquarters level'', deficiencies ``relevant to inspection procedures, 
level of enforcement, plan reviews, the [Alternative Case Resolution 
Initiative] and accountability programs, supervision and management, 
and headquarters oversight.'' The GAO is presently engaged in another 
review of MSHA's performance and we look forward to learning what it 
will find.
    I would also recommend that Congress review the MSHA Internal 
Review of its own actions regarding the Pyro explosion of 1989. Many of 
the deficiencies noted in the 2001 GAO report, the JWR #5 report and 
the UMWA Sago report sadly parallel in this Internal review completed 
some 15 years ago.
    Just last month, I had the privilege of testifying before the U.S. 
Senate Appropriations Subcommittee on Labor, Health and Human Services, 
Education and Related Agencies in an effort to explain to that 
subcommittee what improvements miners have seen since the passage of 
the MINER Act. Unfortunately, I had to report to that Subcommittee 
then, and to this Committee today, that very little has actually 
changed for rank-and-file miners since January of last year. The 
reality is that if Sago, Alma or Darby happened today the results would 
very likely be the same. The men who should have escaped those 
tragedies over a year ago still could not do so today because little 
progress has been made.
    The reasons for this can be traced to several sources including 
past decisions by MSHA that lessened the protections afforded miners by 
the 1969 Coal Act and the 1977 Mine Act. As I stated before, MSHA has 
not moved aggressively to implement all the provisions of the MINER 
Act. MSHA is seeking to delay requiring certain improvements be 
implemented until the final dates Congress established rather than 
moving aggressively forward on these important issues. There appears to 
be no urgency on the part of MSHA to push for new regulations any 
sooner. There is also resistence on the part of some segments of the 
industry to the implementation of new protections for miners. In fact, 
the National Mining Association (NMA) sued MSHA over the method by 
which it is requiring operators to provide additional oxygen in coal 
mines. These problems must be corrected if we are to comply with the 
mandates of Congress and afford miners greater protections.
    The MINER Act includes several important provisions aimed at 
helping miners after a mine emergency develops. It is most appropriate 
for you to consider whether the improvements Congress intended to 
accomplish through that legislation are being realized. The Union 
supports MSHA's efforts to require substantially more oxygen for every 
miner. The emergency mine evacuation rule also contains a number of 
important improvements. Having said that, my testimony will focus 
attention on areas that MSHA needs to focus its attention to fully 
implement the MINER Act.
    Some of the inadequacies in implementing the MINER Act may be 
linked to insufficient resources. However, others can be tracked to 
decisions made by the Agency. In 2001, then Assistant Secretary for 
Mine Safety and Health, David Lauriski told members of the National 
Mining Association that MSHA would, ``collaborate more with mine 
operators on regulatory initiatives'' and become ``less confrontational 
with mine operators, in an effort to provide companies with better 
compliance assistance.'' At a meeting with mine operators in Hindman, 
Kentucky, he bragged about his diminutive regulatory agenda. He noted, 
``if you've seen it you noticed its quite a bit shorter than some past 
agendas.'' These policy statements were accompanied by a withdrawal of 
many proposed regulations by MSHA and a noticeable shift to compliance 
assistance. These compliance assistance programs diverted precious 
resources away from enforcement. If history has taught us one thing, it 
should have taught us that the industry cannot police itself. MSHA must 
shift its focus from compliance assistance to stronger enforcement. 
Perhaps most tragically, in many cases, MSHA has ignored the mandates 
of Congress by adopting regulations and policies that place miners at 
greater risk.
Mine Inspectors/Mine Inspections
    The Agency is experiencing great difficulty in fulfilling the 
mandatory inspections required under the Mine Act. The Union is 
convinced that the hiring and training of more MSHA inspectors must be 
a top and continuing priority. The Agency must have a full complement 
of properly trained personnel if it is to perform its primary job of 
enforcing the Mine Act. The ranks of the inspectors have been 
diminished over the years and we can expect further reductions as more 
of MSHA's long-time inspectors leave the profession as they reach 
retirement age. These needs can only be filled by hiring qualified 
individuals from all segments of the industry, including rank and file 
miners. These new inspectors must also be outfitted with state of the 
art equipment for personal protection and to perform their mandated 
inspection duties. Sufficient monies must be allocated to ensure this 
equipment is readily available to these inspectors.
    As the number of inspectors have decreased, MSHA's field office 
specialists, including ventilation specialists and its electrical and 
roof control support staff, have been forced to carry out routine mine 
inspections. These specialists must be returned to their areas of 
expertise. The only way to accomplish this is to hire an adequate 
number of inspectors which will permit the specialists to focus on the 
job they were trained to do. In addition, the Agency must move 
immediately to train a sufficient number of inspectors to perform these 
technical tasks in the future.
    We certainly appreciate Senator Byrd's efforts last year to secure 
to secure $25.6 million dollars to hire an additional 170 mine 
inspectors. Congress still must ensure that funding levels at the Mine 
Academy in Beckley, WV remain sufficient to meet future training needs 
for mine inspectors. This facility is used to train mine inspectors and 
also offers comprehensive training for miners and other health and 
safety experts.
Seals
    In 1977 Congress mandated that ``explosion proof seals or 
bulkheads'' be used to isolate abandoned or worked out areas of the 
mine from active workings. However, in the years since, MSHA has 
promulgated regulations regarding seals that are much less protective 
than what Congress mandated. The current regulation simply requires 
that seals withstand static pressure of 20 pounds per square inch (psi) 
in order to be approved for installation in the mine. The standard was 
further eroded when MSHA approved the use of alternative seal material 
including Omega Block type seals, that were used at Sago. These Omega 
Block seals catastrophically failed as a result of the explosion and 
contributed to the deaths of all twelve miners.
    The UMWA urges MSHA to promulgate a regulation that would require 
the construction of seals that meet the mandates of Congress and the 
recommendations in NIOSH's draft report on mine seals.
    Further, the Union recognizes that increasing seal requirements is 
not sufficiently protective of miners. MSHA must promulgate regulations 
that force mine operators to monitor the atmospheric conditions that 
exist in sealed areas of the mine. This monitoring must be done in 
enough locations behind the seals to effectively demonstrate the 
conditions that exist in that area at all times. The regulation must 
also require immediate action be taken by the mine operator when these 
sealed areas pose a threat to the health and safety of the miners.
Regulations
    As I stated previously, under David Lauriski 17 rules and 
regulations that would have provided health and safety protections to 
miners were withdrawn. The UMWA believes that MSHA should adopt an 
aggressive regulatory agenda to address important issues in addition to 
those contained in the MINER Act, including:
    1. Improved Atmospheric Monitoring Systems
    2. Develop a Nationwide Emergency Communication System
    3. Revise MSHA's Approval and Certification Process for Equipment 
Approval
    4. Occupational Exposure to Coal Mine Dust (lowering exposure 
limits)
    5. Collection of Civil Penalties (mandatory mine closures for non-
payment)
    6. Air Quality Chemical Substances and Respiratory Protection 
Standards (update personal exposure limits)
    7. Surface Haulage (truck, haul road, train and loadout safety)
    8. Respirable Crystalline Silica Standard (reducing quartz 
standard)
    9. Requirements for Approval of Flame Resistant Conveyor Belts
    10. Confined Spaces (tight quartered work areas)
    11. Training and Retraining of Miners (revision of Part 48)
    12. Surge and Storage Piles (dozer/feeder safety surface)
    13. Escapeways and Refuges
    14. Accident Investigation Hearing Procedures (make them public)
    15. Verification of Surface Coal Mine Dust Control Plans
    16. Continuous Monitoring of Respirable Coal Mine Dust in 
Underground Coal Mines
    17. Modify Conferencing Process (Appeals of Citations)
    18. Underground Coal Mining, Self-Contained Self-Rescuer Service 
Life Approval and Training.
Recording Fatal Accidents
    Several weeks ago MSHA issued new guidelines for determining what 
constitutes a mine related fatality. The ``Fatal Injury Guideline 
Matrix'' narrows the scope of what the Agency will define as a fatal 
accident, chargeable to the mine operator. This will allow the Agency 
to report numbers that are artificially low and possibly skew the 
actual health and safety record of the mine and the industry. In 
addition, fatals not listed as mine-related will not get the same 
scrutiny as a chargeable accident. Without the formal investigation 
process, lessons learned will not be available to prevent similar 
events in the future.
    The Union also disagrees with the Committee established by the 
Agency to review deaths where chargeability is in question. The 
Committee is made up of upper-level MSHA employees and not open to 
other agencies, organizations or the public. This type of structure 
does not lend itself to a fair, unbiased review of fatal accidents.
Implementation of the MINER Act
    In the MINER Act, Congress mandated timelines for its 
implementation. In some cases, MSHA has failed to meet these deadlines. 
The Union urges Congress to allocate adequate funding to MSHA so it can 
fully implement this Act within the time frames set by Congress. In 
those instances where a more expedited implementation time is possible, 
as has been demonstrated in some mining states like West Virginia and 
Illinois where rules for emergency shelters, emergency communications 
and tracking devices, mandating SCSR inspections and belt-air issues 
have been adopted, the Union urges Congress to require MSHA to do so. 
Miners cannot fully benefit from the protections mandated by Congress 
unless there is an urgency on the part of MSHA to move forward 
aggressively with new regulations.
Emergency Mine Evacuation Rule
    The Emergency Mine Evacuation Rule, which is separate from the 
MINER Act but ties into the self-contained self-rescuers (SCSRs) 
requirements, was finalized and made effective December 8, 2006. 
However, miners working underground today do not have all the 
protections that Rule addresses. MSHA deems the operator to be in 
compliance with the Rule if it has placed an order for additional 
SCSRs. Although the Rule requires increased availability and storage of 
SCSRs, there is a backlog of orders for these life-sustaining units. 
While the Union is extremely frustrated that more than a year after the 
Sago and Alma disasters, many miners only have one additional hour of 
oxygen, in light of this backlog, the Union supports MSHA's approach to 
make the additional oxygen units equally available to all miners. In 
reality, it will still take a number of years before miners receive the 
protections mandated by Congress. Miners cannot wait for another mine 
disaster to occur to drive new technology, therefore, the Union 
strongly urges the development and approval of the next generation 
SCSR. These devices must be positive pressure units with full face 
masks and dockable oxygen canisters so that once they are donned it is 
not necessary to remove them until the miner reaches safety.
    The Rule also requires ``expectations'' training on SCSRs. This 
would allow miners to experience the actual effects of donning a SCSR 
and attempting an escape. The practice units would allow miners to 
experience the breathing restriction and heating that SCSRs create, 
without risking their safety. While MSHA claims these practice units 
are not available for purchase, they are in fact available. The reason 
these devices are not being used by miners today is not availability, 
it is cost. Many mine operators simply do not want to spend the money 
to buy them. This is unacceptable and while we commend MSHA for 
promulgating a rule that is intended to be ``technology-driven,'' it 
must now enforce that rule.
    Moreover, the finality of this emergency response and evacuation 
rule is somewhat uncertain because of the lawsuit filed by the NMA. 
Such legal maneuvers will only serve to delay the protections Congress 
mandated last year.
    Congress understood the importance of requiring that mine operators 
have comprehensive emergency response plans at all their operations. 
The MINER Act permitted operators a 60 day period to prepare these 
plans and submit them to the Agency for review and approval. However, 
many of the mine emergency response plans that operators submitted were 
grossly inadequate, and not worthy of approval. We are now over six 
months beyond the deadline established by Congress. While we commend 
MSHA for not approving these faulty plans, we do believe it must be 
more aggressive and apply more pressure on the operators to get these 
plans completed. Unless MSHA takes decisive action and resolves all the 
remaining issues, miners will not get the mine emergency response 
improvements that Congress intended.
    Further, the mine emergency response plans are to be reviewed and 
re-approved by MSHA every six months. We are already six months beyond 
the original plan due date. If those first plans are not yet approved 
and fully implemented, how can we expect MSHA to handle these semi-
annual reviews? Perhaps MSHA needs more manpower to handle this task, 
but whatever the answer, until every operation has an approved plan in 
place, miners are not getting the protections Congress intended.
Communication and Tracking
    Very little has changed in the last year concerning the ability to 
communicate with and locate trapped miners. While we have learned more 
about this technology and understand that much is available, very few 
operators have taken advantage of it. Communication systems and 
tracking devices are areas that MSHA must pursue more aggressively. 
Current communication and tracking technology, including one-way text 
messaging and two-way wireless systems, some of which are available 
now, must be immediately installed in all mines. Any system that can 
increase the ability for miners to escape a mine emergency, even if it 
is limited in scope is better than what miners currently have, and must 
be utilized. The federal government, through NIOSH and MSHA, must fund 
and direct continued studies and research to develop the next 
generation of tracking and communication devices. As this newer 
technology becomes available, mine operators must be required to 
upgrade existing systems at all its operations.
Mine Rescue Teams
    We are also troubled by MSHA's failure to undertake action to 
facilitate the creation and training of additional mine rescue teams. 
Congress in the MINER Act clearly outlined its intent regarding the 
need for additional mine rescue teams. In addition, the language 
clearly defines how this is to be applied at both large and small 
mines. While Congress allowed MSHA 18 months in which to prepare, 
finalize, and give effect to rules that increase and enhance mine 
rescue team requirements, so far MSHA has not addressed this need. The 
need is real, and it is immediate. In the not-too-distant future MSHA 
will need additional funding to certify that mine rescue teams are 
qualified, as contemplated by the MINER Act.
    Over the past 20 years MSHA and some operators have weakened the 
intent of the current regulations regarding mine rescue protections. 
The existing mine rescue team structure is spread too thin. It takes a 
lot of time and much practice for any mine rescue team to function 
well. The UMWA has training facilities and is willing to provide mine 
rescue training and first responder training if we receive the 
necessary funding. Miners cannot afford to wait any longer for the 
training of new teams to begin.
Civil Penalties
    The Union has completed an initial review of MSHA's Criteria and 
Procedures for Proposed Assessment of Civil Penalties: Final Rule, 
which it issued last week. While the Agency appears to have 
strengthened its approach toward operators who violate the law, 
especially those who are habitual offenders, a comprehensive assessment 
of the new regulation can only be made after implementation. The Union 
must see if this rule will be vigorously enforced and if the Agency 
intends to use the civil penalty regulation to ensure better 
compliance. Enforcement will be key to its success.
    In any event, the Agency must do a better job of tracking and 
collecting fines once they are imposed. It should also escalate the 
pressure on mine operators who become delinquent or refuse to pay a 
final penalty. Finally, to the extent MSHA claims it does not have the 
authority to suspend mining operations for non-payment of fines, 
Congress should pass legislation to correct that problem.
MSHA Hotline
    The Union has complained for some time that the current hotline 
system miners use to report hazardous conditions is ineffective. 
Recently, a member of the UMWA called the 800 number listed on MSHA's 
website to report a problem at the mine where he worked and was 
frustrated by problems he encountered. The individual who answered the 
call, a contract employee, did not have any knowledge of mining, making 
it extremely difficult for the miner to convey the message. Further, 
the individual at the call center was not remotely familiar with MSHA's 
District structure and was therefore uncertain which office should 
receive the complaint.
    The Union has stressed on many occasions that the MSHA hotline 
should be staffed 24 hours a day, 7 days a week by MSHA personnel with 
an understanding of the mining industry and the Agency. The Union has 
recommended that the Agency establish a Mine Emergency Response Office 
(MERO) to immediately handle problems that occur at mining operations. 
The current practice of contracting this work out to call centers 
lessens miners' health and safety.
Belt-Air
    In keeping with the mandates of Congress in the 1969 Coal Act, and 
the 1977 Mine Act, which strictly prohibits the use of belt-air to 
ventilate working places, the Union has historically been opposed to 
the use of belt-air to ventilate these areas. The 2006 Alma disaster is 
a reminder that there is no safe way to ventilate working sections 
using belt-air. This mine fire was intensified by air from the belt 
entry, and the contaminated air was dumped onto miners working inby. In 
addition MSHA must require that conveyor belts used in the mining 
industry be made of non-flammable material. Extensive research was done 
since the early 1980's by the government and mining community, but this 
was another one of the rules withdrawn by Mr. Lauriski.
    In the MINER Act, Congress directed that there be created a 
Technical Study Panel to provide independent scientific and engineering 
review and recommendations with respect to belt air and belt materials; 
the Study Panel is then to issue a report to the Secretaries of Labor 
and Health and Human Services, as well as the Senate Committee on 
Health, Education, Labor, and Pensions, and the House Committee on 
Education and Labor. While this Technical Study Panel has been 
constituted and had its first meetings earlier this year, we harbor 
serious reservations about its administration. Congress was silent as 
to its administration, but MSHA staff is providing the support 
personnel. If its first meetings are any indication, MSHA seems more 
invested in defending the belt air decisions it has already made, than 
simply servicing the Study Panel. Congress assigned this Study Panel to 
offer an ``independent'' review and recommendations, and we hope it can 
overcome MSHA's bias in favor of belt air.
Funding for Additional Programs and Health and Safety Protections
    The Union would urge Congress to adequately fund other agencies and 
programs that advance the Health and Safety of the nation's miners. 
These include:
    Pittsburgh Research Center
    Spokane Research Center
    Lake Lynn Facility
    Appalachian Laboratory for Occupational Health and Safety in 
Morgantown, WV
    Approval and Certification Center
    Personal Dust Monitors (PDM)
    Colorado School of Mines
Conclusion
    One year ago, I testified before the Senate Committee on Health, 
Education, Labor and Pensions to discuss and review the performance of 
MSHA and the overall state of mine health and safety. That testimony 
followed the first two disasters of 2006 at the Sago and Alma mines. At 
that time, I described many of the shortcomings in miners' health and 
safety.
    I am sorry to report that MSHA's efforts over the past year would 
do little to change matters today if a mine were to experience an 
explosion like the one at Sago, or a fire like the one at Alma; indeed 
the underground miners would likely fair no better than those who 
perished over one year ago. Thanks to the MINER Act, I can presume that 
any incident would be reported within the initial 15 minutes. However, 
there is no reason to expect that a sufficient number of mine rescue 
teams would respond quickly. This is because the last year has seen 
virtually no progress in either expanding the number or improving the 
proximity of qualified mine rescue teams.
    MSHA still allows mine operators to ventilate working sections with 
belt-air, and non-flammable belts are still not required. Today there 
are no requirements that operators provide systems that would enable 
miners to communicate with the surface or vice versa. There is nothing 
in place that requires an operator to be able to locate trapped miners, 
and very few could do so. Safety chambers are not required, nor are 
safe havens prescribed. Most operators do not have a complete approved 
emergency response plan as required by the MINER Act. Many miners 
caught in a disaster would likely have one additional hour of oxygen as 
opposed to early 2006, but please remember that it took more than 40 
hours for the first mine rescue teams to reach the miners at Sago.
    We are most appreciative that Congress has worked towards 
increasing MSHA's budget so more mine inspectors can inspect mines to 
ensure compliance with the Mine Act. We implore MSHA to demonstrate a 
similar commitment to enforcing the Mine Act and to improving miners' 
health and safety so that our industry will never again experience 
another mine disaster like Sago or Alma. Technology is progressing on a 
daily basis and the UMWA urges MSHA to require mine operators to employ 
improvements as they become available.
    Miners should no longer have to wait for a tragedy to strike before 
regulatory agencies and mine operators act responsibly. The blood of 
miners and the tears of widows and orphans are too high a price for 
adequate health and safety protections for all miners. The disregard 
for workers' protections demonstrated by the mining industry and the 
indifference of the Agency Congress created to protect them can no 
longer be tolerated. It is time that they are forced to take a 
proactive approach to protecting miners.
    Congress understood prior to 1969 when it passed the Coal Act that 
the coal industry could not be trusted to police itself, because miners 
lives would never be considered the top priority by some mine 
operators. In 1977 Congress reviewed the conditions of miners again and 
determined it must create a federal agency to enforce the law it had 
mandated. However, the tragic events of 2006 demonstrated that the Mine 
Safety and Health Administration has not fulfilled those mandates in 
many respects. It is time for the Agency to reestablish itself as the 
advocate for the coal miner. The UMWA believes that only Congressional 
action will ensure that happens. We cannot wait another 30 years to 
improve the lives of miners and their families. With the leadership of 
Congress and the assistance of the UMWA we are certain we will not have 
to.
    It has been said that every health and safety law has been written 
with the blood of miners. When it wrote the Mine Act, Congress, in its 
infinite wisdom stated that this Nation's most precious resource is the 
``miner.'' This held true then and must hold true today and into the 
future.
    Thank you.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    And thank you to all of you for your testimony and your 
contributions here.
    I think one of the positive things for me out of these 
tragic accidents and the loss of the lives of these miners was 
the opportunity to meet the families and to meet so many 
members of your community, and in the short time that I spent 
in Kentucky talking to families and relatives and the members 
of the community, it was an experience that I will never 
forget.
    So many people from the community said that they wanted to 
make every effort to see that out of the loss of these lives 
and lives lost before that the federal government would listen 
and take action, and it was a compelling experience, certainly 
on my part.
    I want to thank you, Melissa, you and Debbie and others who 
have spent so much of your time, almost immediately after the 
loss of your husbands, and other members of your family who 
have taken their time to really push the state legislatures and 
the Congress to address this issue in the fashion in which it 
should have been addressed before.
    I want to just publicly thank you so much for all your time 
and your energy and the work that you have put into the effort, 
and we will keep that faith and to thank your friends and the 
members of your community who have supported you in this 
effort.
    I thank you for that.
    Mr. Knisell in his testimony--Mr. Dean, I am going to ask 
you a question here--says, ``The Congress took a big step in 
the right direction last year in passing the new MINER Act,'' 
and I do not think there is any disagreement about that. ``We 
need to continue that because there is still a lot more to do 
to protect miners. For one thing, it must be understood that as 
each year passes, technology advances and mine safety laws and 
regulations must advance along with them.''
    I think what we have seen, and what Cecil was pointing out, 
is that, in many instances, the technology has advanced and we 
simply have not responded to it. West Virginia seems to have 
taken this issue by the horns here are and decided it is going 
to move with all speed to take those technologies that have in 
fact been available--some need to be modified; some need to be 
advanced--to start to put them in place.
    I would just like to know what kind of process that you 
went through. Then you have expressed several times your 
concerns of whether you are going to now be second guessed by 
MSHA and maybe what you have put in place will not be allowed.
    Mr. Dean. Yes, sir. If I could, I mean, this technology 
task force again was comprised of three members recommended by 
President Roberts with the United Mine Workers of America, 
three members representing industry from within West Virginia.
    During that time I chaired that particular task force, our 
process was that whatever recommendations this task force made, 
which, again, I have submitted for your information, had to be 
unanimous, and this process went through.
    There was a report generated as well as recommendations to 
the director at that time at the state level--I was the acting 
director--and essentially based on industry and labor 
recommendations, we implemented the rules in the state of West 
Virginia that provided definition around Senate Bill 247, which 
the legislature passed last year.
    That review process, I think, was done in a total of about 
36 working days. I mean, these individuals worked very hard and 
reviewed a lot of written information, met with different 
technology vendors and, in my opinion, really laid that 
blueprint forward. Some of that has been changed already by 
MSHA, some of the rationale, and I think it is very important 
to go back and take a look at that rationale on SCSRs, 
chambers.
    Again, right now, there are folks that are moving forward 
in West Virginia with these chambers. I think some of the 
recommendations made improvements in their products for our 
miners, and we hope to move forward. I think there is some 
concern that, you know, they may not be approved when MSHA does 
whatever rule-making they are going to at whatever time.
    Chairman Miller. Thank you.
    If I might, Cecil, quickly, we passed the MINER Act. I 
think there is a sense that more needs to be done, and I just 
wondered if you--we will have a second round of questioning--
had any suggestions of where some of these gaps might be 
addressed by the Congress.
    Mr. Roberts. We, Mr. Chairman, made 18 specific 
recommendations in our written submission to the panel. I think 
if I was making some recommendations, I think if you go back 
and look at the intent of Congress, it required the agency to 
do certain things, but somehow those things never get done. 
In----
    Chairman Miller. Yes, but, I mean, according to Mr. Dean 
here, the fact is it can be done. I mean, this is----
    Mr. Roberts. There is no question.
    Chairman Miller [continuing]. What drives us all crazy.
    Mr. Roberts. It has already been done, and it has been done 
in Illinois, it has been done in West Virginia. It has been 
done, as my friend Mr. Oppegard pointed out, to a certain 
extent in the state of Kentucky. But it just seems to me like 
things are supposed to happen at MSHA as directed by Congress 
and they either come out looking entirely different from my 
perspective with respect to the intent of Congress where they 
just do not happen.
    The governmental agency was directed, Mr. Chairman, in 1969 
by Congress to come up with a plan for the implementation of 
safety chambers in the nation's coal mines, and here we are 
today talking about MSHA coming up with a plan for the 
implementation of safety chambers in the mines. That is 38 
years, and that has not happened.
    Chairman Miller. Well, we essentially were told that same 
information even after these accidents. I mean, that is why I 
am intrigued with the idea that West Virginia sort of made an 
executive decision or legislative decision and executive 
decision that they were going to move forward on those 
chambers, and yet, even after these accidents, we were told 
that this was beyond the ability and even though they were used 
in other parts of the world that this was complicated and the 
rest of that.
    It may be, but, apparently, it is doable, and this may be 
the first generation of chambers, and we may have improvements 
down the road, but, at some point, you owe it to the miners to 
get on with it, and that is my concern here. I think it is a 
point that Mr. Knisell makes. This has to be a system of 
continuous improvement and, hopefully, increasing the margins 
of safety for these workers and their families.
    Mr. Roberts. I think that gets to my point, Mr. Chairman. I 
think there needs to be specific deadlines placed on MSHA to do 
these certain things by Congress, and I think there has to be 
oversight by Congress to see that those things are accomplished 
because, without that, it just does not happen.
    Chairman Miller. Thank you.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    I appreciate the witnesses being here in today. I 
appreciate your testimony. This has been very enlightening. I 
was not around here in 1969. I have been around a little longer 
than 1969.
    Mr. Roberts, the point that you make is one of the big 
frustrations that I feel here in Congress. We hear testimonies 
like this. I serve on two committees, this committee and the 
Armed Services Committee, and we pass laws. Then the regulators 
write regulations trying to interpret what they think we meant 
when we passed the laws, and then we expect that they will be 
implemented.
    I know I have seen many instances where it just does not 
happen. I get very, very frustrated by that. I mean, in the 
Armed Services Committee at one point, we gave direction to the 
Navy to do a certain thing, and a year later, they came back 
and basically said, ``No, we are not going to do it.''
    I do not know what you do. You have given a good 
recommendation. I think time lines would be a good thing to 
look at. I think oversight, checking some of these things that 
we have mandated that are not happening, I think that is a very 
good thing.
    It sounds like some states are moving ahead and some are 
not, but it looks to me like we probably need to go further in 
the law, but we also need to demand that the laws that were 
passed in the past are complied with, and I think that the 
chairman's passion on this issue will make sure that we move on 
those areas.
    Mr. Watzman, our testimony touches on the idea of risk 
analysis, risk assessment and protocols to managing mines. Now 
I understand that Australia currently uses this system. Can you 
explain how this could be implemented in our country, and is 
this a system that we should be pursuing?
    Mr. Watzman. Thank you, Congressman.
    Yes, you are correct. The Australian system is heavily 
weighed on risk assessment. What they would tell you is that 
this has been an evolutionary process. It does not happen 
overnight. It takes a cultural change, both on the part of the 
regulatory agencies as well as the industry itself.
    We have met with the Australians through the good services 
of the National Institute of Occupational Safety and Health. We 
have participated with their experts in them conducting risk 
assessments at volunteer mines.
    What we are focusing on with NIOSH at this point is 
developing templates and materials that can be shared 
throughout the industry, to large and small operators alike, so 
that they can begin the process of undertaking major hazard 
risk assessment.
    In many mines, in many companies, risk assessment is part 
of the normal process already, whether it is job safety 
analysis or something along those lines, but the old saying is 
you must walk before you run, and what we are focusing our 
attention on first and foremost is providing the tools so that 
companies can undertake a major hazard risk assessment which, 
if events do not turn out the way one would like, could be 
catastrophic in nature.
    So we are pursuing that. It is not going to happen 
overnight. It is going to be a time-consuming process, but it 
is one that we are dedicated to fulfill.
    Mr. McKeon. Well, it is pretty obvious it is not going to 
happen overnight. I mean, learning to walk before we can run, 
it sounds like we are still crawling in many instances, and 
from 1969 until now, we have not implemented a lot of these 
things?
    I agree the technology is moving forward. The comment was 
made that some companies are doing very well and some just are 
not. It seems to me that this crosses all kinds of industry. 
You know, we have had other hearings.
    You know, we have had hearings about unions, and some 
companies are doing just fine, and then some, no matter what 
law is passed, they are going to be kind of like Congress. You 
know, some of us follow the ethics and some do not, you know. 
Constantly, we are trying to catch the bad apples.
    But my view of government is oversight should not be 
``gotcha.'' You know, we should not be going out saying, ``Oh, 
boy, you know, we can catch you.''
    The purpose should be, in what we are working on today, 
miner safety, okay. Government and the oversight should be 
working with the miners, with their representatives, with those 
who are putting up with the problems to make it safer.
    Where we have companies that are working on it, fine. I 
know we should pass them on the back. Those that are not, when 
we catch them doing things wrong, it should be handled, and if 
that does not work, they should be shut down. I mean, you know, 
there just should not be acceptance of rules that were passed, 
laws that were passed and 1969 not being put into force.
    I mean, I am really frustrated with this, and I will be 
happy to work with the chairman to move forward on this issue. 
I do not have any tolerance for people that put people's lives 
in jeopardy and know that they are doing it and do not follow 
the law.
    Chairman Miller. Thank you.
    Mr. Kildee?
    Mr. Kildee. Thank you very much, Mr. Chairman. Thanks for 
this very important hearing here today.
    My family and my city of Flint, Michigan, owe a great deal 
to UMW, particularly to John L. Lewis, who formed the CIO. My 
dad joined the CIO back in 1936, and it changed the quality of 
life in the Kildee household and the quality of life in 
Michigan. So we are very grateful for UMW.
    Mr. Roberts, you mentioned a number of other safety and 
health problems that need attention that are languishing 
downtown. Do we need to set legislative deadlines for downtown, 
and how do we penalize those people who let these things 
languish and are not carrying out that which Congress has 
mandated?
    This is a very frustrating thing in government. We have to 
have someone in charge maybe like with at least the zeal of 
Frances Perkins who really believes in these things.
    Mr. Roberts. I agree, and thank you very much for those 
kind comments. I also agree that the CIO was a very good thing, 
and there is a lot of history at the Mine Workers in Michigan, 
particularly in the auto industry.
    It seems to me one of the things that has come out of the 
past couple of years--it started in 2001--is that we were 
promised--and there are family members here who can tell you--
by the secretary of labor that this was not going to happen 
again, and then 5 years later, it happens again and then it 
happened again and again and again last year.
    I do not think that is a coincidence that these things 
happen. I think if you go back to 2001, there were 17 rules 
that were pending at MSHA, and they were all withdrawn in 2001 
by Mr. Lauriski when he became the undersecretary of labor.
    I think one of the things that has happened here with 
Congress paying as much attention to mine health and safety as 
you have over the past year is it, I think you have the 
attention, quite frankly, of a number of these people in these 
agencies who now know that the intent of Congress is to protect 
the coal miners in this nation, and they are concerned about 
you bringing them up here and sitting them where I am and 
asking them what is going on and what are you doing to protect 
the nation's coal miners.
    So I guess I would go back to the point, whether it is the 
secretary of labor, whether it is the undersecretary of labor 
for MSHA or some individual that is in charge of a particular 
area of the country, that those people, if they are not doing 
their jobs, probably need to understand that Congress is 
watching, and they are going to be brought up here and have a 
seat where I am, and you will ask them why they are not doing 
the things that you intended.
    I believe that is the power of Congress to do that, and I 
think you have their attention.
    Mr. Kildee. Well, this side now for the first time in 12 
years does have the subpoena power, and that is enormous power. 
When we pass a law, we certainly should expect the executive 
branch to carry it out. When we feel that we are getting 
evidence from all of you today that there has not been that 
enthusiasm for carrying out all these laws that they should be 
brought before us.
    Then what do we do? I mean, some of them just wait out 
their time and then leave. But we need some type of enforcement 
mechanism, almost self-enforcement mechanism, because some will 
just sit on these things forever.
    Mr. Knisell, if you had to pick those who you feel would 
protect you the most, would it be the federal government, the 
state government, United mine workers or the coal mine 
operators? [Laughter.]
    Who would protect workers the most? It is probably an easy 
question.
    Mr. Knisell. United Mine Workers of America.
    Mr. Kildee. You know, that is interesting because my dad 
would agree with him. Until the UAW came along, there were all 
types of sweetheart arrangements and neglect of law. So we have 
to have that gone. The federal government should have strong 
laws supporting labor. Collective bargaining is very, very 
important.
    Mr. Knisell. Absolutely.
    Mr. Kildee. The Wagner Act was one of the greatest things 
that this country has ever passed, and there are those who 
would like to say there is no place for unions now. I think 
unions must grow, and this committee has passed out a bill 
recently to help unions grow. That is going to be very, very 
important.
    So I think you have to look at where you can find your 
help. You would hope all four of those groups, right--the 
federal government, the state government, the mine operators 
and the union--would be on your side, but Congress has to make 
sure that everyone does what they are supposed to do.
    I appreciate your answer.
    Thank you very much.
    Mr. Knisell. You are welcome.
    Chairman Miller. Mr. Kuhl?
    Mr. Kuhl. I will pass.
    Chairman Miller. Okay. Mr. Yarmuth?
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I think it is very interesting that it has taken the 
chairman from California, the ranking member from California, 
to bring a spotlight on this issue in Congress.
    Coming from a state--first of all, let me welcome my three 
fellow Kentuckians; I appreciate all of your testimony and 
welcome you--that is obviously directly affected by these 
issues, but coming from an area of that state which has no coal 
operations, it has always interested me that part of the 
culture of this issue is that coal mining is usually done in an 
area where it is the dominant industry, and in some cases, the 
only industry and the only source of economic opportunity for 
anyone, so that whenever there is a problem with those 
industries, it almost by definition has to be addressed by 
those outside of that area because there is too much economic 
pressure inherent in the business.
    If we saw similar threats or dangers in an industry that 
was conducted in an urban area, we would not have to wait 38 
years for dramatic action because there would be constant media 
attention and constant pressure from citizens.
    In this particular case, the only time we get media 
attention is when there is a disaster. Fortunately or 
unfortunately, we are talking about six people here, 10 people 
there, 20 people there. It is easy for a country of 300 million 
to kind of write that off as the cost of doing business.
    Unfortunately, we see today the lives that are directly 
impacted, and it is far more than the cost of doing business. I 
think this election in part was a resolution of the industry.
    Do we in this country ignore human life, do we ignore 
damage to the environment solely because of jobs and money? I 
think some of the voters this year said, ``We value lies and 
the environment more than we do necessarily profits and 
business.''
    That is why I think this hearing is so important.
    Obviously, we have a situation in which my state 
potentially benefits a great deal by the pressures to have 
energy independence and reliance on coal and new coal 
technologies. I address this specifically to Mr. Howard and Ms. 
Lee.
    In terms of your regions, do you think that your regions 
can ever say, ``We are going to put safety first''--and I am 
not talking about you individually because I know you have--
``the environment second before the potential economic 
benefit?''
    Mr. Howard. Are you asking if the coal miner or the coal 
company----
    Mr. Yarmuth. I am talking about your parts of the country. 
Can we ever break through that culture which says that we have 
to put people first, we have to put the environment first 
before we put profits first?
    Mr. Howard. I think you should put people and the 
environment first, but I do not believe the coal operator will 
let you do that.
    Mr. Yarmuth. What about the culture, though? What about the 
society, the region?
    Mr. Howard. Well, coal is the money there for everybody to 
live off of. So, you know, you are going to tell a population 
that you are going to take their income away?
    Mr. Yarmuth. I guess my question maybe, if I can reframe 
it, is: Do you think it is possible that we can ever get the 
same concerns for people and the environment among the leaders 
of your region, your area of the state, whether it is local 
government, whether it is local chambers of commerce?
    Ms. Lee. No, no. There are too many----
    Mr. Yarmuth. Is that part of the problem we see?
    Ms. Lee. There are too many coal operators who hold office 
in Harlan County or who benefit from coal mining. There are too 
many bed partners, is what I like to call them, for the fact 
being one hand washes the other. ``Well, will overlook this.''
    These were six men. These were 16 miners in the state of 
Kentucky--16 miners in one state--in 1 year. Why do they have 
to be looked over?
    I have had a lot of criticism and I have had a lot of 
compliments at the same time from miners.
    I have moved from the state of Kentucky. I was receiving 
threats by telephone to my children. My 14-year-old son wears a 
dark green hoody sweatshirt to catch the bus in the morning, 
and at 7 a.m., the phone rings, there is mumbo-jumbo in the 
background, a man's voice says, ``You need to shut your mouth. 
You need to not talk about what you know anything about. Do you 
know how easy it would be for a coal truck to run off the road 
and hit your son?'' Click.
    There are too many people who are afraid.
    I have miners who would come to my home and beep, and I 
would come out, and they would say, ``You keep it up. You keep 
talking because what you are doing protects us. We cannot speak 
for ourselves because we fear being reprimanded.''
    I cannot speak just for the county. I have been told that I 
say that too much. I should not speak for the people. But I do 
know that I have a 23-year-old brother who is an underground 
miner in western Kentucky. He called me. He had been 
underground four months and had not bothered anyone to tell me 
because they know my feelings on this issue, and he said--I am 
his oldest sister--``Do you know that they have recently put 
locators on our belts? Do you know why, sis? Because you are 
pushing for safety measures.''
    Things that were overlooked beforehand are now being made 
aware of. My brother and his coworkers are safer. If it is just 
one human being, if it is just one female--I hate to be called 
a widow. I despise the word ``Widow''--but so be it. That is 
what I am, and I am an outspoken widow who will not shut up. I 
want to keep men safe.
    In the county, yes, I believe that you have progress and 
safety. You can have this together, but it also takes people 
standing up and taking responsibility for their choices--when 
you purchase a material that is not even up to code and use it 
on omega seals, when you are not taking in the correct 
education, when you bring a miner in and you tell him to go to 
an area and build a seal and he has not been educated on how to 
do this properly and he has left there.
    I mean, you can tell my 4-year-old to sit on the floor and 
build a castle out of his blocks. It may not be the castle you 
want, but that is what he did because that is all he knows how 
to do. So is it right to go over and tell him, ``You did this 
wrong.'' Well, it should have been my place to teach him how to 
do that. So it should be with the coal operators. They need to 
be made accountable for what they do in the mines.
    So be it in Harlan County. We do have a lot of coal 
officials who--coal operators, coal miners, coal officials, 
coal owners--do hold high-ranking status in the county, and 
because of that, some things are overlooked. I think that the 
eyes need to be made to open up and look and pay attention.
    Mr. Yarmuth. Thank you very much.
    Mr. Chairman, I think this is another example of why this 
is such an important thing that the federal government stay 
involved in this issue and be very, very diligent and also 
provide the oversight that Mr. Roberts also encouraged us to 
do.
    Thank you.
    Chairman Miller. Thank you.
    Mr. Kuhl?
    Mr. Kuhl. Thank you, Mr. Chairman. I appreciate the 
opportunity to participate in the hearing.
    Mr. Watzman, I just want to follow up on your testimony a 
little bit. You mentioned the Grayson report a couple of times 
in your report. I am curious as to whether or not you can just 
lend a little more information to the panel here about who sat 
on this panel and what areas they represented and the kinds of 
ways in which they came to the conclusions that they reached. I 
would just like that background information, if you could for 
me, sir.
    Mr. Watzman. The commission was an independent body. No one 
from the National Mining Association staff nor management 
served on the commission. We reached out to Dr. Larry Grayson 
at the University of Rolla, Missouri, who is well known in the 
mining industry from academia, having been a miner, served in 
government capacities, to chair it. He selected the members.
    It was a cross-section across the industry of coal company 
representatives. Mr. Roberts served on the commission. Academia 
searched on the commission. Dr. Jeff Kohler from the National 
Institute of Occupational Safety and Health served on the 
commission.
    And then there were members on it who brought a special 
expertise to the commission who had no affiliation whatsoever 
with the mining industry, one who had spent I believe it was 
something like 30 years or more in the communications industry, 
and then a professor from the University of Connecticut who was 
brought in following the shuttle disaster by NASA to be part of 
the review process there and look at system safety issues.
    So it was a cross-section both representing the industry 
and bringing mining knowledge and those outside the industry 
who could bring a fresh perspective to the deliberations.
    As I said earlier, there were 75 recommendations from the 
commission, and all of them were adopted unanimously.
    Mr. Kuhl. How did they reach those recommendations? What 
process did they go through?
    Mr. Watzman. They set up subcommittees of the commission 
members. They were all tasked with certain subcommittees. One 
looked at training, one looked at communication, and among 
those committee members, they studied the issues and developed 
recommendations that they then brought back to the full 
commission.
    Mr. Kuhl. Okay. So then they had a general discussion about 
each one of these and then came up with a vote?
    Mr. Watzman. It was not a voting process. It was more a 
unanimous consensus process where they would discuss the issue 
and reach consensus.
    Mr. Kuhl. Okay. Good. Thank you.
    Mr. Dean, just a couple of questions for you. Obviously, 
the West Virginia task force has been very active with rescue 
chambers, and it sounds as though that your initial research 
found that there were a variety of shortcomings in the chambers 
themselves and that that was up kind of to the industry to 
resolve that.
    I guess what I am really looking at is, from those 
recommendations, how do you get from the technology that exists 
to actual practical application in the mines themselves?
    Mr. Dean. Well, again, in that process and defining those 
standards, those standards first came out on June the 9th, 
2006, and were publicized at that point. They were also shared 
by mailing those to the chamber manufacturers that we had 
talked with as a task force that had various ideas. From that 
point, I mean, these people then went out and made various 
engineering construction standards changes to meet our 
standards.
    There was thermodynamic analysis. There was finite element 
analysis to make sure that they met the various standards that 
we set. Those standards were again set by looking back at 
various Bureau of Mines reports on construction of chambers in 
shelters, and since that time, I mean, last year, that is about 
a 10-month turnaround time for technology development. I mean, 
I think these chamber manufacturers need to be commended as 
well as the other members of the task force, I mean, by being 
actively involved.
    People would bring in demos of their products and ask for 
suggestions, and this task force, again made up of industry and 
labor representatives, made suggestions. The manufacturers took 
those to heart, went out and actually made those changes.
    Mr. Kuhl. Is there any off-the-shelf technology that you 
can just adapt instantaneously like that in each one of the 
individual mines?
    Mr. Dean. In chambers?
    Mr. Kuhl. Yes.
    Mr. Dean. There was a rationale approach outlined in that 
report by caring people in industry and representatives of 
labor. These came from coal miners, people that have worked in 
the mines for years, and based on what they saw of existing 
technology, a workable way to make improvements based on 
existing technology with slight modifications, and the result 
of that is beginning to bear fruit. Again, you know, 10 months 
for technology development, I think, is exceptional, and we 
hope again to see those being implemented very soon in the 
mines in West Virginia.
    Mr. Kuhl. Thank you, Mr. Dean.
    Mr. Chairman, I see my time has expired. I yield back.
    Chairman Miller. Thank you.
    I think the point to be made was there was no time line in 
existence prior to these accidents, and in 10 months, you took 
what we would have been led to believe could not happen for 
years and now are at the point where you will have five 
manufacturers and people can make their choices under the 
standards set by the state.
    Mr. Dean. Actually, that deadline of April 15 came from 
this joint group as a recommendation to me and was put into the 
roles that mine operators had until April 15 to do this. There 
was discussion that, well, you know, if the technology is not 
there, then this group, again, industry and labor jointly, go 
to government and say, ``Hey, we set out a deadline of April 
15. We cannot make it,'' and then it could have been extended, 
but in this case, it is there.
    Chairman Miller. Perhaps you could not do it for 30 years.
    Mr. Watzman, if I might ask you, you were talking about the 
commission with Mr. Kuhl. The commission in its conclusion 
states that the commission strongly believes that companies 
which do not pursue the outlined approaches aimed at fulfilling 
the fundamental safety requirements should not be permitted to 
operate underground coal mines. Do you agree with that?
    Mr. Watzman. Yes.
    Chairman Miller. How does that become implemented? Is that 
a matter for the federal government to tell them, or is it a 
matter for the association to tell them?
    Mr. Watzman. I do not think it is a matter for the 
association to tell them. What we are trying to do in the 
association is make available to those who are not part of the 
association and who do not have the resources to undertake new 
initiatives those tools. That is part of the effort we are 
undertaking on the risk assessment project with NIOSH. That was 
the reason that we reviewed the mine rescue protocol.
    Chairman Miller. So the federal government steps in and 
tells people they cannot operate mines, that they are not 
complying with these basic recommendations.
    Mr. Watzman. I think the federal government should enforce 
the laws that are on the books, and if they are insufficient, 
then there should be new ones. That is the power that they 
have.
    Chairman Miller. Okay.
    Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    Ms. Lee, I was very interested in your comments and the 
passion that you delivered them, and I am very sorry about the 
grief that all of you have experienced through this.
    But I do understand what you are talking about in terms of 
a culture, and I worked in a factory in the summers, and I know 
that you just did not talk about it or you would be out, and I 
think that is the culture there.
    I wanted to, first of all, say that I do not think we can 
change that culture by sitting here in Congress and passing 
these laws, and we cannot change it by putting it in on the 
books and asking people to enforce some. We have to change them 
by reaching into your particular culture and speaking to those 
who control the coal mines, those who work there.
    I am going to ask you: Would it be helpful inside your 
communities if we did indeed send representatives and called 
town meetings and made it mandatory for people to understand 
both in management, in the ownership and also the workers that 
these were the rules and these were the people that you went 
and spoke to and that you spoke to your fellow neighbors who 
worked with you and say, ``You must do this. It is no longer 
going to be because you know so-and-so who happens to be a 
public official that you can wink at it and look the other way, 
that you will be held accountable and you will be executed for 
this.''
    Would that help if we actually carried it into the towns, 
and then in addition to that, held monthly or bimonthly 
meetings where anybody could come and speak about the issues 
that you are facing in your particular mines in your community 
that was resisting this kinds of change that you have to have 
inside your culture?
    Ms. Lee. I am not sure if the area would even welcome that. 
There is too much fear. There is too much fear in being 
reprimanded.
    My great-grandfather was in Harlan. My grandfather was in 
the Harlan County USA. They were UMWA. They were strong-
hearted, and the people now in the area, they want to carry on. 
Lots of men want to carry on with what they are doing. Miners 
are proud man, proud people, and they love what they do.
    To want to go in to educate an area with what can be done, 
what should be done is a wonderful thought. I do not think that 
it could be carried through. I do not.
    Ms. Shea-Porter. What do you think would work? I mean, how 
could we provide some kind of a safety shield so that you are 
able to speak about these issues?
    I want to praise you for your courage and all of you here 
really for standing here knowing that it will be told at home 
as well. You are making a difference.
    But what do you think would actually help to change that 
culture there? Is there a, you know, whistleblower kind of----
    Ms. Lee. I am not exactly sure if there would be. You know, 
that is the golden egg. That would be the winning answer. I do 
not believe there is a direct way to make this a cozy, warm, 
neutral spot. This has been going on for so long. This is 
ongoing. As you said, this is a coal mining area. This is all 
they know.
    People have left. I mean, I have uncles who left and went 
to Ohio and into Michigan to work in factories, but to stand 
now and tell people, ``Okay. We are going to do this for you. 
You can come in and speak out your piece,'' a lot of people are 
not going to be brave enough to speak their piece because they 
do fear being reprimanded.
    I am not afraid. I am not afraid. My father and my 
stepfather both are retired coal miners, and both of them have 
said to me, ``You just have to be so careful because what they 
can do to you.'' There is nothing that can be done to me that 
has not already been done. My heart's already been broken.
    I am left to raise my four sons, hence the reason I left 
the state of Kentucky. I want to keep my children safe. I want 
them to have the understanding that, you know, you can do this. 
My oldest son is looking at it. He thinks that studying is 
going to be his outlet for not going into mining.
    It would be lovely if you could have people go in and speak 
to the public, but if they are going to listen will be the 
problem.
    Ms. Shea-Porter. Well, we are grateful to the men to mine 
every day to bring us this source of energy and grateful to 
their families, and I hope that as time goes on and more of 
these issues are aired that people will still more comfortable 
and that will bring people to the point where you can do your 
job and be safe.
    Thank you.
    Chairman Miller. Thank you.
    Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman.
    I want to thank all the witnesses, and especially Ms. Lee 
and Ms. Hamner, you and the other loved ones here today, for 
your efforts here today and your courage in seeking to take 
personal tragedies and to have them be turned into the public 
good through improved safety for all the mine workers out there 
and for their benefit and their families.
    You know, I think, Mr. Roberts, you in your testimony 
talked about, you know, what will come out of this and all 
these efforts, is about learning from the errors, and those 
workers out there that we make sure we do right by them and 
have these tragedies result in some good.
    I want to make sure I understood your testimony in trying 
to get more familiar, as we moved the MINER Act last year and 
then this hearing today, when we talked about some specific act 
issues, one being the belt air issue.
    Is my understanding correct that in the past, the 
congressional action was basically to prohibit it with some 
means of appealing that and getting some exceptions, and the 
exceptions became the norm and, in essence, MSHA basically made 
the exception the rule, even though Congress said that should 
only be a rare exception? Is that correct from what your 
testimony was?
    Mr. Roberts. My reading of what Congress did in 1969 and 
reiterated in 1977 was a prohibition with respect to 
ventilating the working face with belt air. Certainly, others 
might have a different interpretation, but I think if you read 
that, it is hard to come to any other conclusion.
    Let me just make a point about that particular situation. 
Right after Sago, we had the Aracoma Alma disaster where two 
men died. In 2001, one of the rules that was pending that was 
withdrawn by the new administration was a prohibition of using 
flammable belts in the mines.
    Then you also have what was done in 1969, prohibition with 
respect to ventilating the face with belt air. The belt caught 
on fire, and the face was being ventilated because there was a 
stopping out by a cross belt area. So those two men died, in my 
opinion, because of failure to comply with the intent of 
Congress, number one, and the second one is not to implement a 
rule prohibiting flammable belts in the mines.
    Had those two things been done, as one was clearly the 
intent of Congress, the second should have been something done 
by MSHA--there was a rule pending in 2001 that was eliminated--
those two miners would be alive today, and there is no debate 
about that.
    Mr. Platts. As we go forward, United Mine Workers, your 
position is that we should redress both of those issues and ban 
the belt air and no exceptions.
    Mr. Roberts. That would be our position, and that is not a 
new position. I think the industry and MSHA both would tell you 
that we have been very strong on the that. There is strong 
disagreement by some in the industry with our position, and 
there is obviously some strong disagreement by some in MSHA 
with our position, but that is not something we thought about 
after the tragedy at Alma. That has been a consistent position 
by the union.
    Mr. Platts. The second issue about the seals on the 
abandoned mines, my understanding is recently there has been a 
bulletin that requires them to withstand greater pressure. Do 
you think that is going to help achieve the intended protection 
here, or do we need a whole different approach?
    Mr. Roberts. NIOSH has come forward with some 
recommendations with respect to what seals should be 
constructed and the PSI content of those seals, which is 
different from what MSHA has done. MSHA has banned omega blocks 
and other similar materials from being used in the mines. We 
wish they had done that before the Sago situation, obviously.
    Most of those situations are what we would consider to be 
on a positive track, but, unfortunately, they should have been 
done previously. We once again believe that the intent of 
Congress was, in 1969 and 1977, that when you say they have to 
be explosion-proof, it is hard for us to come to grips that you 
can have something that is not explosion-proof and can be 
accidentally destroyed by kicking it, that that protects the 
miners in the manner that Congress intended.
    Mr. Platts. I want to quickly try to squeeze in one more 
question here, Mr. Chairman. I know my time is running short, 
too.
    Mr. Howard and Mr. Knisell, from your experiences--and Ms. 
Lee, you gave some very strong testimony, important testimony 
about the ability of you and your fellow miners to come forward 
when you see wrong and see safety violations--as best you can 
say and as you are comfortable saying, how common do think it 
is where someone reports a safety violation and there are 
repercussions? In other words, they are punished in a minimal 
way or a great way to discourage you or your fellow miners from 
coming forward?
    Mr. Knisell. Well, like she was saying earlier, the threat 
is from the coal companies in different communities. I mean, 
Harlan County, I mean, that has been a part of the mining 
industry for years. You know I worked at Felipe Mine, Felipe 
Development, Spruce One Mine and Sago. Now these three mines 
here were owned by the same companies, okay. If you got in 
trouble with one mine or a foreman did not like you or 
something like that, you went to another mine.
    These guys would just skip from here to here. They would 
take a job bossing. They would take a job as a laborer, doing 
different jobs, this and that and that and this, but they would 
blacklist you if you did not cooperate with their way of 
thinking.
    You did not have a voice. You had no say in your safety 
whatsoever, and, you know, after I actually got out of that 
mine or out of those mines into the mine that I am at right now 
where I have a say in my life----
    Mr. Platts. And you are in a union mine now?
    Mr. Knisell. Yes, sir. Yes, sir.
    Chairman Miller. The gentleman's time has expired.
    Ms. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman.
    I thank everybody for their testimony.
    To the families that have lost someone, it has been said by 
many of my colleagues on both sides of the aisles, we thank you 
for your bravery.
    I will say to you that a tragedy happened in my family a 
number of years ago, and I decided to stand up and fight, and 
that is why I am sitting here, because I did not particularly 
like what the politicians were doing. So I just started 
fighting and came to Congress to try and make a difference in 
people's everyday lives.
    So I thank you for that.
    I guess, Mr. Watzman, what I would like to ask you is that, 
you know, in one area, you know, you talk in your testimony--
and I have read everybody's testimony--that, you know, you want 
to work to make things improved, and yet we hear from Mr. 
Roberts going back to 1969 about how congress has already 
passed laws that we have not really implemented.
    Yet reading some background information also, I see that a 
number of times you have actually sued to try to change some of 
the laws that, you know, the Labor Department has tried to put 
forth. Can you explain that to me?
    I guess the other than that really bothers me, probably 
from being a teenager, I have always heard or read about the 
miners' lives, certainly black lung disease--my background is 
as a nurse--and yet we are still seeing these things happening 
on a daily basis, and none of you have really talked about--and 
what a lot of people forget about--is how many accidents are 
happening every year and how many people are injured every year 
in the miners' lives and how that affects the family.
    Yet representing the coal miner companies, you know, we are 
not seeing from within the industry, unless the government is 
forcing it, the industry taking care of those that are working 
for you. I think that is something that is disgraceful in this 
day and age.
    So I say to the families, you have the voice, you have the 
power and, yes, I was threatened to when I decided to take a 
stand, said a few things and had to change my phone number a 
number of times, and now I just take death threats as whatever. 
It just happened last week, by the way, again.
    So, I mean, these are things that, you know, if you believe 
in what you are fighting for, fight for it.
    We in Congress--it is embarrassing, in my opinion, because 
after the cameras leave--and, hopefully, you know, this 
committee will certainly go forward on trying to make 
everybody's lives a lot better, but it is 3 years, 3 years, 5 
years down the road that you are still going to have to have a 
voice because we all get caught up in things that we are 
fighting for until, all of a sudden, another tragedy happens.
    Then we will all be sitting here again like, ``What 
happened? Why didn't we force the oversight? Why didn't we 
force what needed to be done to save lives?''
    So, with that, I will go back to the original question on 
the number of lawsuits that you have had to try to minimize 
some of those products that the government felt that you should 
be doing.
    Mr. Watzman. Thank you for the question, Ms. McCarthy.
    Let me start out by saying again, as I did in my statement, 
we supported the MINER Act. We believed in it then; we believe 
in it now. We worked hand in hand in hand with Mr. Roberts and 
his organization, members of this body and the members of the 
Senate, and we were proud when it passed.
    As I said in my statement, we have brought two actions 
against the Department of Labor Mine Safety and Health 
Administration because of our legitimate concerns that certain 
aspects of those raised safety consequences that we are 
uncomfortable with.
    Let me be more specific, if I might. MSHA issued a final 
rule in December of last year. Part of that rule dealt with the 
storage of self-contained self-rescuers underground, something 
that we are short of underground. As I said, 78,000 have been 
delivered with a backlog of more than 100,000 that have yet to 
be manufactured.
    What we wanted to do was have the ability to store SCSRs, 
and I have to try to explain this. We have a primary and a 
secondary escapeway. Oftentimes, those are adjacent. We wanted 
to be able to store those in the connectors between the two 
escapeways.
    MSHA came out with final regulations that were so onerous 
that they precluded our ability to store those in those 
connections. So we are left with the alternative of storing the 
self-contained self-rescuers in the very escapeways that might 
be subject to an explosive force or a fire.
    We do not think that is as safe an alternative as storing 
them in those connectors, yet what the government came out with 
was a regulation that precluded us----
    Mrs. McCarthy. Taking my time back for a moment, instead of 
suing, though, did you ever sit down with the regulators and 
try and figure it out, you know, just across each others' desks 
without going to a lawsuit which only delays things?
    Mr. Watzman. We do not have that opportunity. This was done 
through regulation. We filed comments during the regulatory 
process.
    Mrs. McCarthy. Did you come to any members of Congress and 
ask them to go to bat for you?
    Mr. Watzman. No, we did not.
    Mrs. McCarthy. You have a number of members of Congress 
that represent the different areas. They could have gone down 
and, certainly, we could have reached out to those in the power 
and tried to work that out just by a technical change.
    Chairman Miller. The gentlewoman's----
    Mr. Watzman. I appreciate that, and we will look forward to 
that option.
    Chairman Miller [continuing]. Time is expired.
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman.
    And thank you all for coming today.
    I share the disappointment and the frustration by the chair 
and the ranking member, but, you know, I have been sitting here 
today, and it is almost surreal.
    To those of you who have lost somebody, I cannot tell you 
how incredibly sorry I am for your loss. The thing that has to 
frustrate you, I would think, is that you look and see that 
these probably could have been prevented and should not have 
happened and people's lives could have been saved, if MSHA and 
other people did what they were supposed to do from the very 
beginning. I think that is appalling.
    I want to say to you, Mr. Howard, if you would do me a 
favor, the next time that foreman suggests that you go down and 
do something that could put people's lives in jeopardy, I would 
kind of like to have a chat with him at his earliest possible 
convenience and maybe he would like to try doing that.
    You know, this is not the 1900s or the 1920s. I mean, we 
are talking about you are being--I mean, what disturbs me is 
listening to your testimony--told, ``It does not matter if 
Jesus Christ is down there, just get down and do what you are 
told to do or else.'' You know, that is shameful, but it is 
dangerous and it is appalling.
    I cannot find enough words, you know, but I think that type 
of behavior needs to be reported, and there has to be, I would 
think, some type of mechanisms in place for people that would 
put miners in jeopardy knowing that they could be harmed, you 
know, and there has to be repercussions for people like that in 
the industry.
    Let me just say to the president of UMW, you know, thank 
heavens for your union because if you did not have the work on 
the safety issues in your union, I wonder where we would be. We 
would see a lot more people. So I commend you and all the 
miners that are here.
    I guess what I do not understand--and perhaps, Mr. Roberts, 
you could enlighten me here--is since 1969--so we are a 38 
years, if my math is correct here--since Congress has told the 
folks to do things, we sit here today after 38 years, and we 
are still waiting. I mean, why aren't they complying? I mean, I 
know they are not, okay. I am very clear from the testimony. 
What is their malfunction, as my kids would say?
    Mr. Roberts. There are a number of explanations possibly 
for that, and I do not want to be political here at all, but 
administrations change, the leadership eventually changes, you 
get new undersecretaries of labor for MSHA in charge of mine 
health and safety, you get new secretaries of labor, you get a 
rule-making process that is so time consuming, it is 
unbelievable, you get a number of attorneys quite often, and 
you get, as has been pointed out, occasionally litigation and 
lawsuits.
    Once again, I do not mean to paint with a broad brush, but 
there are some in the industry that fight a lot of the rules 
that are implemented and a lot of the regulations that Congress 
and laws that that Congress comes up with. So this has been a 
117-year fight for us.
    It really did not start in 2001 or 1969. If you go back and 
read our history, this is one of the things that prompted the 
union's very existence, is to fight for people to be able to 
walk out of a coal mine alive, and that is how they UMWA was 
born, quite frankly.
    Mr. Hare. I would like to maybe ask the two gentlemen, the 
two miners that are here, from your perspective, the two or 
three things that we could do to best make sure that this does 
not happen again and that when you go to work every day that 
you can come home to your families.
    Mr. Howard. Well, I have been in court before and been sold 
out. I got fired once. I told you about refusing to go with 
that air.
    When I went to the MSHA end filed a 105(c) that was 
supposed to protect me, I got an attorney, and when the 
investigator talked to me, he said, ``if you get rid of that 
attorney, you will win, but if you do not, you will lose.'' 
Well, I would not get rid of my attorney, and I lost. The judge 
said my story was unbelievable, but they believed the company.
    Money rules. A lot of these judges and politicians and 
government officials are bought and paid for. It is simple.
    Mr. Hare. Mr. Knisell? The two or three things from----
    Mr. Knisell. I was just thinking about what he just said.
    Mr. Hare. So was I. It was not good thoughts either, let me 
tell you.
    Mr. Knisell. Can you repeat the question for me?
    Mr. Hare. I just wondered from your perspective--you do 
this work each and every day--the two or three things that you 
would want this Congress to do to make sure you have a fair 
shot of being safe and going home to your family every night.
    Mr. Knisell. Well, for one thing, for someone to actually 
police the police, MSHA. That is the main thing. And like Mr. 
Roberts said, bring them in front of you all and make them 
explain themselves.
    Mr. Hare. We are going to do that.
    Mr. Knisell. I remember going to--I cannot remember where 
it was--maybe it was Buckhannon, maybe it was here--see Mr. 
Byrd. He really lit into him. He is a great man. He is a great 
man, and I am not going to go into Republican-Democrat right 
now, but he is a good man. He has helped us out at, and that is 
what we need. We need someone to make sure that MSHA is doing 
their jobs, and MSHA is to police these coal companies.
    Chairman Miller. The gentleman's time has expired.
    Mr. Hare. Thank you very much, Mr. Chairman.
    Chairman Miller. Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman.
    We have our work cut out for us, and as the chair of the 
Workforce Protection Subcommittee, I pledge to you to work with 
the chairman and put some teeth into this.
    A lot of courage up there today. I thank all of you. I do 
not know how you could be here and be so brave when you have 
lost a loved one, and you miners that are willing to speak up 
and speak out and have been all along, thank you.
    Mr. Roberts, you have been courageous for ever. I think it 
takes a lot of courage for us to sit up here when we have done 
virtually nothing useful until just recently on this. We are 
members of Congress. I have been here 15 years. We have had a 
couple of hearings, and when I was a freshman, we had one that 
was really heated, but it did not go anyplace.
    But, Mr. Watzman, I think you are the most courageous 
person. You are sitting here talking to us, representing an 
industry that until 2006 virtually did not admit that this was 
a problem. Shame on you.
    With these folks up here at the table with you, I think 
that you, you know, deserve bravery medals for being able to 
sit here and talk like this with them.
    I want to know why you have an industry that waits for the 
federal government to tell you how to take care of your 
employees.
    Mr. Watzman. Ms. Woolsey, thank you for the question.
    We do not wait for the federal government, nor does the 
National Mining Association represent every operator in this 
industry. Recall that prior to January 2nd of 2006, the 
industry had just achieved its safest year on record. The state 
of West Virginia had achieved its safest year on record. We are 
not satisfied with the record. We want to be sure that every 
miner returns home safely every day, as I said earlier. But 
we----
    Ms. Woolsey. Well, then, reclaiming my time----
    Mr. Watzman [continuing]. Have just come off the safest 
year.
    Ms. Woolsey. Reclaiming my time, I would like to know why 
in your testimony you were not telling us how your association 
is insisting that your industry carries them out. You talked a 
lot about what we can do in the future. I want to know why the 
laws that are on the books right now are not being enforced by 
your industry.
    Mr. Watzman. Our association does not have the ability to 
police the entire industry. What we try to do is make the tools 
and the resources available for those who do not otherwise have 
them so that they could bring their safety of to the level of 
others.
    Ms. Woolsey. Okay. I am going to reclaim my time, and I 
appreciate that. I appreciate that, and I would like to then 
use the rest of my time asking, Mr. Roberts, will you list some 
of those 18 factors that you think would improve the Mine 
Safety Act.
    Mr. Roberts. Yes, Madam.
    Ms. Woolsey. Give us the association----
    Mr. Roberts. Yes, Madam. Thank you, Congresswoman.
    Most of the recommendations that we have made--and you find 
those on beginning on page 9 of our written testimony--would 
fall in the category of some of the rules that were terminated 
in 2001. I do not know if you would like me to list all those, 
but some of those having to deal with----
    Ms. Woolsey. Talk about the most important ones, if you 
could.
    Mr. Roberts. Well, sometimes it is hard to come up with the 
most important ones, but we have talk in our testimony about 
atmospheric monitoring systems that detects CO and other gases. 
We think there is a dire need--and we testified to this in the 
United States Senate--for a nationwide emergency communications 
system.
    If you look at particularly Sago that occurred in January 
of 2006, right after a holiday, there was a tremendous amount 
of confusion and misunderstanding. I do not believe there is 
too much disagreement between the industry and the union and 
the agencies about that and, quite frankly, trying to gather up 
the mine rescue teams that did not get there.
    That first mine rescue team did not get on the property 
until 4 hours after this disaster. The first mine rescue team 
did not go underground until 10 hours. There was no 
communications available to those miners who were trapped on 
the other side.
    We talked about this extensively, and we talk about that in 
these recommendations. But we knew, A, how to prevent these 
disasters. There are recommendations here that speak to that. 
Two, we need a better way to deal with these disasters when 
they occur. We need more mine rescue teams. We have known that 
for years. It is not something that we just started talking 
about in 2006. This was discussed going back into the mid 1990s 
forward, and we still need this.
    So those are all listed here, there is about 18 of them, 
and it is a little hard to say one is more important than the 
other, but, clearly, we need to prevent these explosions and 
protect these miners from fires.
    One of the things that frustrates us all with respect to 
Sago is there has been too much time spent arguing about what 
the ignition source was. just too much, and not enough time 
examining everything surrounding this. Regardless of the 
ignition source, all 12 of those miners should have walked out 
of there alive.
    Ms. Woolsey. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Miller. Ms. Clarke?
    Ms. Clarke. Thank you very much, Mr. Chairman.
    This is a very disturbing hearing. I sit here and I hear 
from Mr. Roberts about the 117-year struggle to bring this 
industry to where we know it all can be. Implicitly, we all 
know that we have the skill, the ability, the talent. We do not 
have the will.
    Then to hear about the benchmark of 1969, I look at Mr. 
Knisell, and I know that his beard makes him look a little bit 
older than he probably really is. He was a child, if he was 
even born, okay, when the standards were set.
    That he would be coming into this industry giving of 
himself and no one has blazed the way for him to go into an 
industry at standards much greater than his grandparents or 
great-grandparents may have experienced in America is a 
disgrace. It is a disgrace. There is no excuse.
    I was in kindergarten, and I had to come to Congress to 
hear that this is where this industry is today? I am from New 
York, but we know about coal miners. We listened, we read, we 
heard about black lung disease and what has taken place, and we 
care. And we care.
    It just totally upsets me to be here today to see that in 
America we have not gotten our act together to deal with this 
industry the way we know we can do it. We can send people into 
outer space. They can live on Space Station, but we cannot 
secure coal miners in America in the 21st century?
    Mr. Chairman, I feel like I am in a time warp. I cannot 
believe it.
    So I have a couple of questions because I just want to know 
is this procrastination, is it foot dragging. I know there is 
money involved and people freak out around that, but come on. 
What is obstructionism?
    I want to know from Mr. Oppegard, when a large mining 
accident occurs and MSHA is responsible for investigating both 
the accident itself and whether MSHA's own conduct played a 
role in the accident, as the investigation system is currently 
set up, do you think that a fair and honest accident 
investigation can occur, one?
    Then two, Mr. Watzman, you indicate that your organization 
supports the MINER Act and wants to work hand in hand with the 
federal government and the families to improve miner safety. 
You say this even though new safety technologies have been 
commonplace in the mines of foreign competitors. The American 
mines have plodded along with antiquated devices.
    Please explain why your industry's actions have not 
addressed these substantive problems and the problems you have 
with MSHA's final rules.
    Those are the two questions. I am a bit dumbfounded here.
    Mr. Oppegard. Thanks, Representative Clarke.
    MSHA has a serious problem with accident investigations, 
and it has been going on for decades. First of all, they do not 
have subpoena power under the Mine Act, unless they convene a 
public hearing. There has only been one public hearing since 
1977. That was in Louisiana in a nonmetal disaster.
    The system is inherently flawed because, number one, coal 
operators are always allowed to sit in on the interviews of 
witnesses. Under the Mine Act, operators have a duty, a 
responsibility to do their own accident investigation and to 
submit their own report to MSHA. That is usually not required 
by the agency.
    There is no necessity for an operator to sit in on accident 
investigation interviews, and the effect is intimidation of 
witnesses. If Mr. Howard worked at the mine and there was an 
explosion in his mine, he would be asked to testify. The 
operator in his attorney is going to be sitting right across 
the table from him. You are not going to get truthful 
testimony, in most circumstances.
    Meanwhile, the families and their representatives are shut 
out of the process. They are not even told when the interviews 
are being conducted, and they are not allowed to be there. The 
only way to get around that is if you are designated a 
representative of miners by miners in the mine, which happens 
occasionally, but not usually. It is a flawed process, and it 
needs to be changed.
    Mr. Watzman. Thank you, Ms. Clarke, for the question.
    As I was discussing with Ms. McCarthy, we did bring suit 
over two of the issues in the MINER Act. There are many, many 
other issues that are being implemented that the industry did 
not challenge and we are working to comply with.
    I discussed the issue of self-contained self-rescuers and 
how we store them underground. The second issue deals with a 
program information bulletin they have recently issued on 
supplies of breathable air underground for trapped miners.
    Ms. Lee talked about the circumstances that her husband 
experienced and the O2 tank. As a result of the program 
information bulletin, many mine operators are going to be left 
with the choice of storing hundreds of cylinders of oxygen and 
suppressed air underground to meet this requirement.
    That raises in our mind what we think are legitimate safety 
concerns. Not all operators have the luxury of drilling a 
borehole from the surface to provide that air underground. Some 
of those mines are under park land that they cannot get access 
to, some are under national forests that they cannot get access 
to, and some are owned by private landowners who will not give 
them access to the surface. So not all operators have the 
luxury of that. Many, many more will have to store these 
cylinders underground, and that is of great concern to us.
    As it relates to other countries, I can tell you that I 
have attended international conferences where other countries 
look to the United States mining industry as an example of 
doing it right. We look to their technology and try to 
implement it.
    One of the technologies is a tracker system that is used in 
Australian. It has been tested in the United States. There are 
a limited number of mines that are using it in the United 
States because it has problems in our application. That is just 
not our determination. That is the determination by the 
researchers, who have no stake in this issue, at the National 
Institute of Occupational Safety and Health and the technical 
experts within MSHA.
    If there is technology overseas that will advance miner 
safety, we will examine its application in the U.S. We are not 
turning a deaf ear to that.
    Chairman Miller. The gentlewoman's time has expired.
    We have a vote on, so we are going to conclude this 
hearing.
    I want to thank all of my colleagues for attending this 
hearing.
    And I think you can see, from the reaction of the members, 
there is a great deal of alarm here on how the situation has 
been allowed to gather.
    I am trying to remember whether before these accidents we 
ever had in the last decade an oversight hearing on MSHA or on 
this problem, and I think the answer may be that we have not, 
or if we have, it certainly will be in single digits. I think 
it is none.
    You know, one of the commitments that we made during the 
election is that we would have oversight, and I think you can 
see that many of the committees, this committee included, are 
engaged in that vigorous oversight. The Speaker has made it 
clear that that is what she expects from these committees. So 
this will continue to.
    As Ms. Woolsey mentioned and Mr. Hare, we are going to be 
involved in some follow-on hearings to this one.
    I would just like to take a moment because this is a 
troubling situation in my mind. Debbie, maybe you want speak to 
this, but Melissa spoke about the difficulty in the community 
of speaking out and being critical of the situation in the 
mines, and Mr. Howard and Mr. Knisell and others spoke to this 
point, that there is a lot of pressure in these communities.
    You know, I think people in dangerous occupations do not 
like to burden their spouses with concerns that they have, but 
I just wondered if this was ever echoed in your discussions 
with your husbands or when you talk to other spouses.
    Ms. Hamner. Yes. Melissa could have been describing Upshur 
County, West Virginia, instead of Harlan County, Kentucky. Town 
meetings are a wonderful thing, but it is not going to work.
    Just like the Kentucky coal miner told you, do it or else. 
When he had safety concerns, you know, he was faced with being 
fired, and then he talked about being blackballed in that 
community, in that county, and having to move on to another 
one. Well, the same things go on. If someone speaks out against 
safety, then they are blackballed and maybe blackballed, you 
know, in several counties over the state.
    I think Chuck said it best when he said the industry has to 
be policed, and you have good intentions, but they are not 
being carried out.
    You know, at Sago, I feel that bad practices on the part of 
International Coal Group and their approval by MSHA killed by 
husband. First of all, you know, do not stack MSHA with coal 
company executives. Staff it with people that care about 
safety. Give them the power to shut down these coal mines if 
they are not in compliance. [Applause.]
    That is the only thing that will make a difference.
    They took corporate profits ahead of human lives, and that 
is not going to change unless they are faced with being shut 
down. The fines have two stand up to the violations, and MSHA 
needs to quit reducing those fines, and that is what has to 
happen.
    Chairman Miller. Thank you.
    Melissa, do you have anything to add?
    Ms. Lee. No.
    Chairman Miller. Okay. Thank you.
    Thank you very much for your testimony.
    I would like to follow up on this. I think somehow we have 
to buy a margin of assurance for mine workers. I guess, in most 
areas, we call them whistleblowers.
    You know, the auto industry will tell you that you can pull 
the stop cord at anytime on the assembly line if you see a 
defect or you see a danger, a problem, what have you. I do not 
know if that is completely accurate, but that is the picture 
presented by the industry.
    Somehow these miners have to be able to speak out without 
intimidation, without fear or, without fear of retribution or 
job loss or wage loss or shift change and all the things that 
go on, apparently, in this workplace.
    We have to figure out how we buy them that margin of 
protection in the law so that they can protect their 
livelihoods, their safety and that of their fellow workers 
because it is pretty clear from this testimony, from earlier 
testimony, from discussions with people in the community that 
fear and intimidation play a very, very big role in this 
industry, and that is simply unacceptable.
    That was true of many workplaces in many industries in this 
country, but most of them have changed that culture. We keep 
hearing about this change of culture. We just do not see it on 
the ground. You know, we can all talk about how we do not want 
the federal government to step in, but I do not know who else 
is going to protect these workers if the federal government 
does not step in and keep these workers from being intimidated 
and being harassed and, in fact, having retribution taken 
against them for speaking out on behalf of safety.
    Mr. Howard, you have made that point very, very clear, and 
I think others have, too.
    So you have fear and intimidation in the communities, in 
the workplace, in the mine underground, and you have what I 
think may be a hostile corporate takeover of MSHA, and somehow 
we are going to have to break these bonds and get this thing 
right side up in the water because, when the Congress does not 
have oversight for 12 years, I guess you can do anything in the 
agency you want.
    Well, that is just not going to continue in this current 
situation, and so we have a lot of work here to do, but what I 
will not have is I will not have people who want to come 
forward and talk to this committee be intimidated when they go 
home, to be intimidated when they go back to work. That is just 
not acceptable, and that is an obstruction. In my mind, that is 
just an obstruction of the congressional process and 
obstruction of justice.
    So I would hope that somehow we can get the kind of 
testimony and the kind of information that we need, and so very 
often we find out that comes from people who are working in 
these facilities, in these plants, in these mines, on the 
waterfront, on ships, that that comes from people who are there 
every day and experience it.
    So I think this has been a very important hearing. I 
understand now why my colleagues did not want to hear from the 
families during the aftermath of this tragedy. Unfortunately, I 
think had we heard from you, the MINER Act would have been 
stronger and we would have been able to address it.
    I want to thank the governor and, Mr. Dean, you, because 
for all the things that we were told were impossible to do 
somehow are now starting to get done at least in West Virginia 
and to some extent in Kentucky, and I appreciate that 
leadership. You may not get it right, but at least you did not 
sit on your hands as these tragedies unfolded in front of us. 
So thank you very much.
    Members of the audience and others, if you have heard 
something and you want to submit comments to the committee, we 
will certainly welcome them and make them part of the record.
    For witnesses, if you think of something that we 
additionally ought to know as a result of the give-and-take 
here, that, too, also will be made part of the record.
    There will be 14 days for members of the committee to add 
to the record.
    So thank you very much.
    And, with that, the committee stands adjourned.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this important hearing to 
examine how best to protect the health and safety of America's mine 
workers.
    I would like to extend a warm welcome to all of the witnesses. I 
appreciate the time you took to be here today and look forward to your 
testimony.
    Western Pennsylvania has a long, proud history of coal mining. Some 
of the first coal reserves mined in the United States were located in 
the region. Many of my constituents are connected to the coal industry 
either directly as coal miners or through their family members and 
relatives. Not only is coal mining an integral part of the region's 
heritage, but it as also a key component of the local economy. 
Pennsylvania is the fourth largest coal producing state in the country 
with nearly 7,000 employees and over 72 million tons of coal produced 
in 2005.
    Technological innovations and the implementation of safety measures 
have gone a long way toward reducing the number of accidents and deaths 
that occur. In 1968, the year before the Coal Act was enacted, 300 
miners died. Since 1985, there has not been one year with more than 100 
deaths and most years have had significantly less than 100 deaths. 
While this is a dramatic improvement, more can still be done to ensure 
the safety of miners. Recent incidents, such as the accidents at Sago 
Mine in West Virginia and Quecreek Mine in Pennsylvania, remind us that 
coal mining can be a dangerous profession. I look forward to hearing 
more about what the proper role of Congress should be in making certain 
that mines are as safe as possible.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [Additional materials supplied by Mr. Dean follow:]
    [Internet address to report: ``Mine Safety 
Recommendations,'' report to the director of the Office of 
Miners' Health, Safety and Training, by the West Virginia Mine 
Safety Technology Task Force, dated May 29, 2006 follows:]

      http://www.wvminesafety.org/PDFs/MSTTF%20Report%20Final.pdf

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                TITLE 56

                            Legislative Rule

             OFFICE OF MINERS' HEALTH, SAFETY AND TRAINING
                                Series 4

      Emergency Rules Governing Protective Clothing and Equipment

Sec. 56-4-1. General.
    1.1. Scope.--These emergency rules pertain to the implementation of 
provisions of W. Va. Code Chapter 22A Article 2-55, relating to the 
regulation of protective clothing and equipment worn by miners 
underground by the Office of Miners' Health, Safety and Training.
    1.2. Authority.--W. Va. Code Chapter 22A Article 2-55.
    1.3. Filing Date.--February 1, 2006.
    1.4. Effective Date.--February 9, 2006 (first amendment filed 
February 27, 2006 effective February 28, 2006 and second amendment 
filed June 1, 2006 effective July 21, 2006)
Sec. 56-4-2. Preamble.
    2.1. Purpose--The primary goal of Title fifty-six Series four W. 
Va. Code of State Rules is to protect the health and safety of this 
State's coal miners by requiring minimum standards for the protective 
clothing and equipment worn by each underground miner. The purpose of 
these legislative rules is to require coal mine operators to provide 
each underground miner with certain protective equipment and by 
detailing the requirements for such protective equipment. In 
implementing such mandate, it is recognized that different types of 
protective equipment may be developed to satisfy the minimum 
requirements for protective equipment for each mine, depending upon the 
number of employees of the particular mine, the location of the 
particular mine, the physical features of the particular mine, and 
technological advances.
    2.2. Escape is the primary procedure to be used by miners in the 
event of an emergency underground. Self-contained self-rescue devices 
(SCSRs) are intended to isolate miners from hazardous gases and provide 
breathable air while attempting to escape the mine during an emergency. 
In the event that escape-ways are impassable emergency shelters/
chambers provide a source of breathable air for miners unable to escape 
from the mine. Wireless emergency communication and tracking/locating 
devices are intended to assist in exchanging information between 
escaping miners and between them and those on the surface following an 
accident and in locating miners to aid their escape. In addition to the 
purposes stated above, the intended purpose of these rules is to 
establish a regulatory regime enabling the advancement of mine safety 
and health technologies and the proper implementation of these 
technologies in West Virginia's underground mines.
Sec. 56-4-3. Definitions.
    3.1. Unless herein defined, all terms used in this rule shall have 
the same meaning as they are defined in W. Va. Code Chapter 22A 
Articles 1-2 and 2-55 and in W. Va. Code of State Rules Title 36 Series 
3-13.
    3.2. ``Code'' shall mean the Code of West Virginia, 1931, as 
amended.
    3.3. ``Director'' shall herein refer to the Director of the Office 
of Miners' Health, Safety and Training.
    3.4. ``Operator'' means any firm, corporation, partnership, or 
individual operating any coal mine or part thereof, or engaged in the 
construction or maintenance of any facility associated with a coal 
mine, and shall include any independent contractor at a coal mine.
    3.5. ``Independent Contractor'' means any firm, corporation, 
partnership or individual that contracts to perform services or 
construction at a coal mine, excluding mine vendors, office equipment 
suppliers, service or delivery personnel; Provided they or their 
employees do not go underground.
    3.6. ``Self-Contained Self-Rescuer'' (SCSR) means a type of closed-
circuit self-contained breathing apparatus or its equivalent approved 
by the Mine Safety and Health Administration of the United States 
Department of Labor for the purpose of isolating a miner from hazardous 
gases and providing breathable air to aid in an escape.
    3.7. ``SCSR Storage Cache'' means a non-combustible container 
constructed to withstand normal mine conditions, protect a number of 
SCSRs, and allow easy access for inspection of the SCSRs and easy 
access for miners who are escaping.
    3.8. ``Emergency Shelter/Chamber'' means an enclosed space located 
within 1,000 feet of the nearest working face with all sides made from 
man-made materials whose function is to protect the occupants from 
hazardous gases and provide breathable air in the event escape is not 
possible.
    3.9. ``Emergency communications'' means the transmission and 
reception of voice, data and/or information regarding an unexpected 
event requiring immediate action.
    3.10. ``Wireless'' means allowing individual communications by a 
miner through a mine communication and tracking/locating system without 
a physical connection.
    3.11. ``Communication device'' means equipment that is a component 
of an integrated mine communication and tracking/locating system for 
purposes of emergency communication.
    3.12. ``Physical location'' means the position of a miner in 
relation to a tracking device at a known location to enhance escape 
and/or rescue.
    3.13. ``Tracking/location'' means knowing the physical location of 
miners at the moment of an accident and as escape progresses if the 
tracking/location system being used is still functional.
    3.14. ``Tracking/locating device'' means equipment that is a 
component of an integrated mine communication and tracking/locating 
system for the purpose of providing the physical location of a miner 
during an emergency.
    3.15. ``Apparent-Temperature'' means a heat stress indicator that 
considers the effects of temperature and humidity.
Sec. 56-4-4. Mine Safety Technology Task Force.
    4.1. Within seven (7) calendar days of the effective date of these 
rules, the Director shall establish a Mine Safety Technology Task Force 
to provide technical and other assistance related to the implementation 
of the new technological requirements set forth in W. Va. Code Chapter 
22A Article 2-55. The task force shall be comprised of three miners 
from the major employee organization representing coal miners in this 
state and three miners from the major trade association representing 
underground coal operators in this state. All actions of the task force 
shall be by unanimous vote.
    4.2. The task force, working in conjunction with the Director, 
shall study technology and technology usage issues related to the 
implementation, compliance and enforcement of the safety requirements 
covered under W. Va. CSR Title 56 Series 4. Additionally, the task 
force may study related safety measures as requested by the Director. 
In conducting its study, the task force shall, where possible, consult 
with, among others, mine engineering and mine safety experts, 
technology experts and relevant state and federal regulatory personnel.
    4.3. The Director, or his designee, shall preside over all meetings 
of the working group.
    4.4. Prior to adopting or modifying any technological safety 
requirement pursuant to W. Va. CSR Title 56 Series 4 the Director shall 
request recommendations from the task force and shall consider their 
written report on the subject in making any determination.
    4.6. The Director shall convene the Mine Safety Technology Task 
Force not less than once per month.
Sec. 56-4-5. Self-Contained Self-Rescue Devices Provided for Escape 
        from Mines.
    5.1. Each miner underground shall be provided an SCSR in accordance 
with the provisions of W. Va. Code Chapter 22A Article 2-55(f). In 
addition, the operator shall provide storage caches of additional SCSRs 
throughout the mine in accordance with a Storage Cache Plan approved by 
the Director pursuant to W. Va. CSR Title 56 Series 4-6.
    5.2. Each SCSR shall be approved for at least sixty (60) minutes by 
the Mine Safety and Health Administration (MSHA) of the United States 
department of labor: Provided, however, that nothing contained herein 
shall preclude an operator from providing each miner underground an 
SCSR with an MSHA approved rating less than sixty (60) minutes of 
breathable air that is adequate to provide for twice the travel time as 
defined in the chart in W. Va. CSR Title 56 series 4-6 to the nearest 
storage cache, as defined in W. Va. CSR Title 56 Series 4-6, or an 
escape facility.
    5.3. Each operator shall provide training in the proper use of 
SCSRs in simulated emergency situations in all required SCSR training, 
provided, such simulations may be conducted on the surface. Training 
shall be in compliance with all manufacturers requirements and shall 
include but not limited to; the risks of toxic gases, manufacturer's 
required daily inspections, donning and starting the SCSR, limitations 
of the SCSR, ways to maximize duration of the unit, changing between 
SCSRs, communicating without removing the mouthpiece, importance and 
use of goggles, how to know if the device has failed and what to do if 
it does.
    5.4. Pursuant to W. Va. Code Chapter 22A Article 1-23, operators 
and independent contractors shall report to the Director all SCSRs in-
service by manufacturer, model, serial number, mine/contractor ID#, 
service dates, and results of required inspections. This information 
shall be submitted electronically as defined by the Director, updated 
quarterly and will include information on any units removed from 
service along with the reasons.
    5.5. The Director shall compile and analyze the results of this 
information and distribute a report within 30 days by posting the 
report on the MHS&T web page, http://www.wvminesafety.org
    5.6. The Director shall establish a program to periodically 
evaluate the quality of SCSRs in-service in West Virginia mines through 
collection and testing of a statistically significant number of units 
of differing ages and representative of models used in W. Va. mines. 
The results of such evaluations will be published on the MHS&T web page 
http://www.wvminesafety.org
Sec. 56-4-6. Self-Contained Self-Rescue Device Storage Cache Plan.
    6.1. Within thirty (30) calendar days of the effective date of 
these rules, all operators of all mines shall submit an SCSR Storage 
Cache Plan for approval by the Director in accordance with W. Va. Code 
Chapter 22A Article 1-36. The design, development, submission, and 
implementation of the SCSR Storage Cache Plan shall be the 
responsibility of the operator of each mine.
    6.2. Operators shall revise all approved SCSR storage cache plans 
and submit those to the Director no later than 60 days after any 
amendments to these rules become final.
    6.3. Within thirty (30) calendar days after submission of the SCSR 
Storage Cache Plan, the Director shall either approve the plan as 
submitted, or shall reject and return the plan to the operator for 
modification and resubmission, stating in detail the reasons for such 
rejection. If the plan is rejected, the Director shall give the 
operator a reasonable length of time, not to exceed fifteen (15) 
calendar days, to modify and resubmit such plan.
    6.4. In developing the SCSR Storage Cache Plan, the operator shall 
take into consideration the needs for SCSRs in the accidents described 
in W. Va. Code Chapter 22A Article 2-66, the number of employees of the 
particular mine, the location of the particular mine, the physical 
features of the particular mine, and any other aspect of the particular 
mine the operator deems relevant to the development of the Storage 
Cache Plan.
    6.5. Each SCSR Storage Cache shall be housed in a container 
constructed as to protect the SCSRs from normal operational damage, be 
made of a material that is non-combustible, shall be easy to open 
during an emergency escape, shall be noted on the escape-way map, 
required by W. Va. Code Chapter 22A Article 2-1 and included in the 
mine rescue plan pursuant to W. Va. Code Chapter 22A Article 1-35(q).
    6.6. One SCSR storage cache shall be placed at a readily available 
location within five hundred (500) feet of the nearest working face in 
each working section of the mine and each active construction or 
rehabilitation site. Distances greater than five hundred (500) feet not 
to exceed one thousand (1,000) feet, are permitted with approval of the 
Director. However, where miners are provided with personal SCSRs MSHA 
rated for less than sixty (60) minutes, travel to these storage caches 
are not to exceed five (5) minutes as determined by the height/travel 
time table as specified in W. Va. Code of State Rules Title 56 Series 
4-6.9.2.
    6.7. Each of the storage caches specified in Section 6.6 shall 
contain two (2) SCSRs that will provide at least sixty (60) minutes of 
MSHA rated duration per unit for each miner. When each miner carries an 
SCSR that is MSHA rated for less than sixty (60) minutes the storage 
cache shall hold devices equivalent to three (3) sixty (60) minute MSHA 
rated SCSRs for each miner. The total number of SCSRs in a stationary 
storage cache location will be based on the total number of miners 
reasonably likely to be in that area. During crew changes involving a 
mantrip at a working section or an active construction or 
rehabilitation site, a number of mantrip cached sixty (60) minute or 
greater MSHA rated SCSRs equal to the total number of miners reasonably 
likely on the mantrip shall satisfy the total number of SCSRs required 
for such personnel.
    6.8 Operators shall ensure that storage caches required in Section 
6.6 contain an escape kit containing a hammer, a tagline, a supply of 
chemical light sticks, and an escape-way map required by W. Va. Code 
Chapter 22A Article 2-1.
    6.9. Additional storage caches of sixty (60) minute or longer MSHA 
rated SCSRs shall also be placed in readily available locations 
throughout the remainder of the mine as follows:
    6.9.1. Beginning at the storage cache located at the working 
section or active construction or rehabilitation site and beltlines, 
pumping and bleeder areas, and continuing to the surface or nearest 
escape facility leading to the surface pursuant to W. Va. Code Chapter 
22A Article 2-60, the operator shall station additional storage caches 
of sixty (60) minute or longer MSHA rated SCSRs containing a number of 
additional SCSRs equal to or exceeding one each for the total number of 
miners reasonably likely to be in that area at calculated intervals 
that a miner may traverse in no more than thirty (30) minutes traveling 
at a normal pace, taking into consideration the height of the coal seam 
and utilizing the travel times as specified in W. Va. CSR Title 56 
Series 4-6-9.2. If an SCSR has an MSHA approved duration greater than 
sixty (60) minutes the intervals between storage caches shall be 
calculated at the distance traveled in one-half the approved duration.
    6.9.2. Said intervals shall be calculated in accordance with the 
following:
    HeightTravel/ MinuteHeightTravel/ Minute28 inches70 feet56 
inches180 feet32 inches90 feet60 inches220 feet36 inches100 feet64 
inches270 feet40 inches120 feet68 inches280 feet44 inches135 feet72 
inches290 feet48 inches150 feet76 inches295 feet52 inches160 feet80 
inches300 feet
    6.10. The Storage Cache Plan shall include the following:
    6.10.1. The size and physical features of the mine;
    6.10.2. The maximum number of miners underground during each 
working shift;
    6.10.3. The proposed location of the various storage caches and the 
emergency shelter/chamber in relation to miners underground; and
    6.10.4.a. A schedule of compliance, which shall include:
    6.10.4.a.1. A narrative description of how the operator will 
achieve compliance with Sec. 56-4-6.
    6.10.4.a.2. A schedule of measures, including an enforceable 
sequence of actions with milestones, leading to compliance; and
    6.10.4.a.3. A statement indicating when the implementation of the 
proposed plan will be complete.
    6.11. Each operator shall submit as attachments to its SCSR Storage 
Cache Plan the following:
    6.11.1. A statement that the analysis and evaluation required by 
Section 6.3 of these rules has been completed;
    6.11.2. A statement indicating the training dates for the use of 
the SCSRs; and
    6.11.3. The name of the person or persons representing the 
operator, including his or her title, position, mailing address and 
telephone number, who can be contacted by the Director for all matters 
relating to the Storage Cache Plan and the weekly inspections of each 
storage cache.
    6.12. Within thirty (30) calendar days of the Director's approval 
of the plan, the operator shall submit to the Director a copy of any 
contract, purchase order, or other proof of purchase of such number of 
additional SCSRs consistent with the operator's schedule of compliance.
    6.13. After the Director has approved an operator's SCSR Storage 
Cache Plan, the operator shall submit revisions to the plan at any time 
that changes in the operational conditions result in substantive 
modifications. In addition, at any time after the Director has approved 
an operator's Storage Cache Plan, the operator may submit proposed 
modifications or revisions to its plan along with the reasons therefore 
to the Director.
    6.13.1. Within thirty (30) calendar days after receipt by the 
Director of any proposed revisions or modifications to the Storage 
Cache Plan, the Director shall either approve or reject the revisions, 
stating in detail the reasons for such rejection.
    6.13.2. The Director may require modifications to a Storage Cache 
Plan at any time following the investigation of a fatal accident or 
serious injury, as defined by W. Va. CSR Title 36 Section 19-3.2, if 
such modifications are warranted by the findings of the investigation.
    6.14. If the Director, in his sole discretion, determines that an 
operator has failed to provide an SCSR Storage Cache Plan or progress 
report, has provided an inadequate SCSR Storage Cache Plan or progress 
report, has failed to comply with its approved SCSR Storage Cache Plan 
or compliance schedule, or has failed to provide a copy of any 
contract, purchase order or other proof of purchase required under this 
section, in an effort to delay, avoid or circumvent compliance with W. 
Va. Code Chapter 22A Article 2-55 or these rules, the Director shall 
issue a cessation order to the operator for the affected mine in 
accordance with W. Va. Code Chapter 22A Article 1-15.
    6.15. As provided at W. Va. Code Chapter 22A Article 2-55(f)(3) any 
person that, without the authorization of the operator or the Director, 
knowingly removes or attempts to remove an SCSR from the mine or mine 
site with the intent to permanently deprive the operator of the device 
or knowingly tampers with or attempts to tamper with such a device 
shall be deemed guilty of a felony and, upon conviction thereof, shall 
be imprisoned in a state correctional facility for not less than one 
year nor more than ten years or fined not less than ten thousand 
dollars nor more than one hundred thousand dollars, or both.
Sec. 56-4-7. Placement of Intrinsically Safe Battery-Powered Lights and 
        Lifeline Cords.
    7.1. Intrinsically safe battery-powered strobe lights approved by 
the Director shall be affixed to each storage cache of SCSRs and shall 
operate continuously or be capable of automatic activation in the event 
of an emergency.
    7.1.1. All intrinsically safe battery-powered strobe lights affixed 
to each storage cache of SCSRs shall be approved by the Director and 
MSHA and maintained in accordance with applicable MSHA requirements.
    7.1.2. Prior to approval of any MSHA certified intrinsically safe 
battery-powered strobe light the Director shall have prepared an 
independent analysis of the added risk incurred from added battery 
powered devices throughout the mine in the event of a catastrophic 
explosion.
    7.1.3. The Director if determining that intrinsically safe battery-
powered strobe light present an acceptable risk, shall review those 
rated intrinsically safe by MSHA and may approve them for use in West 
Virginia mines. A list of approved intrinsically safe battery-powered 
strobe lights shall be maintained on the MHS&T web site.
    7.2. A reflective sign with the words ``SELF-RESCUER'' or ``SELF-
RESCUERS'' shall be conspicuously posted at each such storage cache and 
reflective direction signs shall be posted leading to each storage 
cache.
    7.3. Lifeline cords installed in primary escape-ways shall be 
attached to each storage cache container and extend from the last 
permanent stopping to the surface or nearest escape facility, excluding 
belt and track entries, and must:
    7.3.1. Be made of flame-resistant material;
    7.3.2. Be marked with reflective material every twenty-five (25) 
feet;
    7.3.3. Be located in such a manner for miners to use effectively to 
escape; and
    7.3.4. Have directional indicators signifying the route of escape 
placed at intervals not exceeding one hundred (100) feet.
    7.3.5.
    In lieu of installed lifelines in track or belt entries, markers 
such as floor mats with arrows, fish plate reflectors, red/green lasers 
shall be installed at distances not to exceed 1,000 feet or line of 
sight, or other equivalent devices may be used if approved by the 
Director.
    7.4. The operator shall conduct weekly inspections of each storage 
cache of additional SCSRs, the affixed strobe light, and each lifeline 
cord or other similar device to ensure that each has not been tampered 
with and will function properly in the event of an emergency.
    7.4. As provided in W. Va. Code Title 22A Article 2-55(f)(3) any 
person that, without the authorization of the operator or the Director, 
knowingly removes or attempts to remove an intrinsically safe battery-
powered lights or lifeline cord approved by the Director from the mine 
or mine site with the intent to permanently deprive the operator of the 
device or knowingly tampers with or attempts to tamper with such a 
device shall be deemed guilty of a felony and, upon conviction thereof, 
shall be imprisoned in a state correctional facility for not less than 
one year nor more than ten years or fined not less than ten thousand 
dollars nor more than one hundred thousand dollars, or both.
Sec. 56-4-8. Emergency Shelters/Chambers.
    8.1. An emergency shelter/chamber shall be maintained within one 
thousand (1,000) feet of the nearest working face in each working 
section. Such emergency shelter/chamber shall be approved by the 
Director and shall be constructed and maintained in a manner prescribed 
by the Director.
    8.1.1. The Director may approve, as an alternative to a shelter/
chamber, an additional surface opening located no more than 1,000 feet 
from the nearest working face and accurately located on escape-way maps 
as required in W. Va. Code Chapter 22A Article 2-1.
    8.2. The Director shall acquire, no later than July 1, 2006, the 
necessary technical/engineering support needed to evaluate the 
performance of emergency shelter/chamber components/systems, and to 
review the effectiveness of emergency shelter/chamber plans.
    8.3. The Director shall, no later than July 10, 2006, issue an open 
opportunity for emergency shelter/chamber providers to submit products 
for approval. The Director shall maintain a current list of pending and 
approved emergency shelter/chambers on the West Virginia MHS&T web site 
http://www.wvminesafety.org
    8.3.1. Providers of emergency shelter/chamber seeking approval 
shall submit documentation prescribed by the Director that shall 
include a certification by an independent West Virginia licensed 
professional engineer that the proposed product meets the requirements 
set forth in Section 8, a description of the process used in making 
that determination and a certification in the following form: ``I, the 
undersigned, herby certify that this product, to the best of my 
knowledge and belief, meets or exceeds all requirements set forth in W. 
Va. CSR Title 56 Series 4-8.''
    8.4. Any emergency shelter/chamber approved by the Director shall:
    8.4.1. Provide a minimum of 48 hours life support (air, water, 
emergency medical supplies, and food) for the maximum number of miners 
reasonably expected on the working section;
    8.4.2. Be capable of surviving an initial event with a peak 
overpressure of 15 psi for 3 seconds and a flash fire as defined by 
National Fire Protection Association standard NFPA-2113 of 300 degrees 
Fahrenheit for 3 seconds;
    8.4.3. Be constructed such that it will be protected under normal 
handling and pre-event mine conditions;
    8.4.4. Provide for rapidly establishing and maintaining an internal 
shelter atmosphere of oxygen above 19.5%, carbon dioxide below 0.5%, 
carbon monoxide below 50 ppm, and an apparent-temperature of 95 degrees 
Fahrenheit;
    8.4.5. Provide the ability to monitor carbon monoxide and oxygen 
inside and outside the shelter/chamber;
    8.4.6. Provide a means for entry and exit that maintains the 
integrity of the internal atmosphere;
    8.4.7. Provide a means for MSHA certified intrinsically safe power 
if power required;
    8.4.8. Provide a minimum eight quarts of water per miner;
    8.4.9. Provide a minimum of 4,000 calories of food per miner;
    8.4.10. Provide a means for disposal of human waste to the outside 
of the shelter/chamber;
    8.4.11. Provide a first aid kit as defined at W. Va. Code Chapter 
22A Article 2-59(3)(b) independent of the section first aid kit 
required by W. Va. Code Chapter 22A Article 2-59(3) and 2-60(f);
    8.4.12. Have provisions for inspection of the shelter/chamber and 
contents;
    8.4.13. Contain manufacturer recommended repair materials;
    8.4.14. Provide a battery-powered occupant-activated strobe light 
of a model approved by the Director that is visible from the outside 
indicating occupancy;
    8.4.15. Provide provisions for communications to the surface; and
    8.4.16. Provide proof of current approval for all items and 
materials subject to MSHA approval.
    8.5. No later than April 15, 2007 all underground mine operators 
shall submit an emergency shelter/chamber plan for approval by the 
Director in accordance with W. Va. Code Chapter 22A Article 1-36. The 
design, development, submission, and implementation of the shelter/
chamber plan shall be the responsibility of the operator of each mine.
    8.6. Within thirty (30) calendar days after submission of the 
emergency shelter/chamber plan, the Director shall either approve the 
emergency shelter/chamber plan or shall reject and return the plan to 
the operator for modification and resubmission, stating in detail the 
reason for such rejection. If the plan is rejected, the Director shall 
give the operator a reasonable length of time, not to exceed fifteen 
(15) calendar days, to modify and resubmit such plan.
    8.7. Within 15 days of approval of the emergency shelter/chamber 
plan by the Director, the underground mine operator shall submit as an 
addendum to its emergency shelter/chamber plan a copy of any contract, 
or purchase order, or other proof of purchase of any equipment required 
to complete the emergency shelter/chamber and for installation and 
ongoing maintenance
    8.8. The operator shall submit certified progress reports no less 
frequently than every sixty (60) calendar days until full compliance is 
achieved.
    8.9. After the Director has approved an operator's emergency 
shelter/chamber plan, the operator shall submit revisions to the 
emergency shelter/chamber plan at any time that changes in operational 
conditions result in substantive modification. In addition, at any time 
after approval, the operator may submit proposed modifications or 
revisions to its plan along with reasons therefore to the Director. 
Within thirty (30) days after receipt by the Director of any proposed 
revisions or modifications to the emergency shelter/chamber plan, the 
Director shall either approve or reject the revisions, stating in 
detail the reasons for such rejection.
    8.10. In developing the emergency shelter/chamber plan and any 
revisions, the operator shall take into consideration the physical 
features of the particular mine, emergency plans, advances in emergency 
shelter/chamber technologies and any other aspect of the particular 
mine the operator deems relevant to the development of the emergency 
shelter/chamber plan.
    8.11. A copy of the approved emergency shelter/chamber plan shall 
be provided to the mine rescue teams providing coverage for the mine 
and included in the mine rescue program required by W. Va. Code Chapter 
22A Article 1-35(q). Copies of the most recent version shall be 
available at the mine for emergency responders. As changes are made to 
the approved emergency shelter/chamber plan, updated versions shall be 
submitted to the above parties.
    8.12. The proposed emergency shelter/chamber plan shall:
    8.12.1. Describe the structure and operations of the emergency 
shelter/chamber, the surveyed location of the shelter and any necessary 
survey monuments for locating emergency drilling operations to the 
shelter/chamber and the shelter/chamber's role in emergency response;
    8.12.2. Ensure that proper emergency shelter/chamber use is 
included in initial mine hazard training in such a manner that it is in 
compliance with all manufacturer's requirements and is provided yearly 
in addition to annual refresher training. All training shall be 
recorded and made available upon request;
    8.12.3. Ensure weekly inspections of emergency shelters/chambers 
and contents shall be conducted by a certified mine foreman and/or mine 
examiner and recorded in weekly ventilation examination book;
    8.12.4. Ensure that weekly safety meetings review the current 
location of applicable emergency shelters/chambers and results of the 
latest inspection;
    8.12.5. Ensure that all opening to emergency shelters/chambers 
shall be equipped with easily removable tamper-proof tags such that a 
visual indication of unauthorized access to the emergency shelter/
chamber can be detected; and
    8.12.6. Ensure that the mine's communication center shall monitor 
any communication systems associated with the emergency shelter/chamber 
at all times that the mine is occupied.
    8.13. If the Director, in his sole discretion, determines that an 
operator has failed to provide an emergency shelter/chamber plan or 
progress report, has provided an inadequate emergency shelter/chamber 
plan or progress report, has failed to comply with its approved 
emergency shelter/chamber plan or compliance schedule, or has failed to 
provide a copy of any contract, purchase order or other proof of 
purchase required under this section, in an effort to delay, avoid or 
circumvent compliance with W. Va. Code Chapter 22A Article 2-55 or 
these rules, the Director shall issue a cessation order to the operator 
for the affected mine.
    8.14. If there are no emergency shelters/chambers approved by May 
29, 2007, operators shall install in lieu of an emergency shelter/
chamber, within one thousand (1,000) feet of the nearest working face 
in each working section, storage caches of SCSRs sufficient to provide 
each miner reasonably expected to be at the working section with no 
less than sixteen (16) additional SCSRs rated by MSHA each for a 
duration of sixty (60) minutes or greater, or an equivalent amount of 
breathable air and barricading materials described at W. Va. Code 
Chapter 22A Article 2-58(n).
    8.15. The Director may require modifications to an emergency 
shelter/chamber approval or an emergency shelter/chamber plan at any 
time following the investigation of a fatal accident or serious injury, 
as defined by W. Va. CSR Title 36 Series 19-3.2, if such modifications 
are warranted by the findings of the investigation.
    8.16. As provided in W. Va. Code Title 22A Articles 2-55(f)(3), 2-
55(g)(2), and 2-55(h)(2)any person that, without the authorization of 
the operator or the Director, knowingly removes or attempts to remove 
emergency shelter/chamber or its contents approved by the Director from 
the mine or mine site with the intent to permanently deprive the 
operator of the device or knowingly tampers with or attempts to tamper 
with such a device shall be deemed guilty of a felony and, upon 
conviction thereof, shall be imprisoned in a state correctional 
facility for not less than one year nor more than ten years or fined 
not less than ten thousand dollars nor more than one hundred thousand 
dollars, or both.
Sec. 56-4-9. Wireless Emergency Communication and Tracking/Locating 
        systems.
    9.1. The Director shall require, in each underground mine, an 
integrated communication and tracking/locating system maintained 
consistent with W. Va. CSR Title 36 Series 5-3.2 and a component of 
which shall be a communication center monitored at all times during 
which one or more miners are underground. A wireless emergency 
communication and tracking/locating device approved by the Director 
shall be worn by each miner underground and shall be provided by the 
operator.
    9.2. As soon as practicable, the Director shall notify all 
operators of the wireless emergency communication and tracking/locating 
devices approved by the Director for use by each miner underground 
pursuant to W. Va. Code Chapter 22A Article 2-55.
    9.3. The Director shall acquire, no later than July 1, 2006, the 
necessary technical/engineering support to evaluate the performance of 
individual communication/tracking devices and review the effectiveness 
of proposed communication/tracking plans.
    9.4. The Director shall, no later than July 10, 2006, issue an open 
opportunity for emergency communication and tracking/locating providers 
to submit products for approval.
    9.5. The Director shall require providers seeking approval submit 
documentation certified by a licensed West Virginia professional 
engineer that the product has been tested for functionality in West 
Virginia underground mines, that the product has been or is in the 
process of being approved as intrinsically safe by MSHA and other 
criteria as the Director determines, a description of the process used 
in making that determination and a certification in the following form: 
``I, the undersigned, herby certify that this product, to the best of 
my knowledge and belief, meets or exceeds all requirements set forth in 
W. Va. CSR Title 56 Series 4-9'', that the product has been tested for 
functionality in West Virginia underground mines, that the product has 
been or is in the process of being approved as intrinsically safe by 
MSHA and other criteria as the Director determines.
    9.6. No later than July 31, 2007 all underground mine operators 
shall submit a communication/tracking plan for approval by the Director 
in accordance with W. Va. Code Chapter 22A Article 1-36. The design, 
development, submission, and implementation of the communication/
tracking plan shall be the responsibility of the operator of each mine.
    9.7. Within thirty (30) calendar days after submission of the 
communication/tracking plan, the Director shall either approve the 
communication/tracking plan, or shall reject and return the plan to the 
operator for modification and resubmission, stating in detail the 
reason for such rejection. If the plan is rejected, the Director shall 
give the operator a reasonable length of time, not to exceed fifteen 
(15) calendar days, to modify and resubmit such plan.
    9.8. Within 15 days of approval by the Director, the underground 
mine operator shall submit as an addendum to its plan, a copy of any 
contract, or purchase order, or other proof of purchase of any 
equipment required to complete the communication/tracking system and 
for installation and ongoing maintenance.
    9.9. The operator shall submit certified progress reports no less 
frequently than every sixty (60) calendar days until full compliance is 
achieved.
    9.10. If the Director, in his sole discretion, determines that an 
operator has failed to provide an communication/tracking plan or 
progress report, has provided an inadequate communication/tracking plan 
or progress report, has failed to comply with its approved 
communication/tracking plan or compliance schedule, or has failed to 
provide a copy of any contract, purchase order or other proof of 
purchase required under this section, in an effort to delay, avoid or 
circumvent compliance with W. Va. Code Chapter 22A Article 2-55 or 
these rules, the Director shall issue a cessation order to the operator 
for the affected mine under W. Va. Code Chapter 22A Article 1-15.
    9.11. In developing the communication/tracking plan and any 
revisions, the operator shall take into consideration the needs for 
emergency communications and tracking/locating resulting form accidents 
as described at W. Va. Code Chapter 22A Article 2-66(a), physical 
features of the particular mine, emergency plans, existing 
communication infrastructure, communications required under W. Va. Code 
Chapter 22A Article 1-35(k)and 2-42 and W. Va. CSR Title 36 Series 2-2 
and 5-2, advances in communication/tracking technologies and any other 
aspect of the particular mine the operator deems relevant to the 
development of the communication/tracking plan.
    9.12. The proposed communication/tracking plan shall describe the 
structure and operations of the separate or integrated communication/
tracking system(s) and its role in emergency response specific to the 
mine shall be detailed and submitted to the Director and, once 
approved, to the mine rescue teams providing coverage with an updated 
mine rescue program pursuant to W. Va. Code Chapter 22A Article 1-
35(q). Copies of the most recent version shall be available at the mine 
for emergency responders. As changes are made to the system, updated 
versions shall be submitted to the above.
    9.13. The proposed communication/tracking system shall include the 
ability for:
    9.13.1. A communication center monitored at all times during which 
one or more miners are underground.
    9.13.1.1. This center shall be staffed by miners holding a valid 
underground miners certificate, and trained and knowledgeable of the 
installed communications/ tracking systems, monitoring and warning 
devices, travel ways, and mine layout.
    9.13.1.2. Individuals not possessing a valid underground miner's 
certificate but working full-time as a communication center operator on 
or before May 25, 2006 shall be allowed to continue as communications 
center operators at that mine provided they will have successfully 
completed no later than December 31, 2006 a certified 80 hour 
underground miners apprentice training program, as defined in W. Va. 
CSR Title 48 Series 2-2.7(a), renewed annually pursuant to W. Va. CSR 
Title 48 Series 2-2.8(a) and documentation is available for inspection 
consistent with W. Va. CSR Title 36 Series 24-5;
    9.13.2. Knowing the location of all miners immediately prior to an 
event by tracking/locating device in the escape-ways, normal work 
assignments, or notification of the communication center;
    9.13.3. Knowing the location of miners in the escape-ways after an 
event providing the tracking system is still functional;
    9.13.4. Check-in and check-out with the communication center by 
miners prior to entrance and exit from bleeders and remote or seldom 
used areas of the mine (all times shall be logged);
    9.13.5. Allowing two way communications coverage in at least two 
separate air courses and at least one of which shall be an intake;
    9.13.6. Maintaining communication/tracking after loss of outside 
power and maintain function both inby and outby of the accident event 
site with suitable supply of equipment for rapid reconnection;
    9.13.7. Maintain a surface supply of communication/ tracking 
devices for use by emergency rescue personnel;
    9.13.8. Allow for communication to surface at all required 
emergency shelters/chambers;
    9.13.9. All miners and likely emergency responders shall be trained 
in the use, limitations and inter-operability of all components of the 
communication and tracking/locating system. This shall be incorporated 
into ongoing required training. All training shall be recorded and made 
available upon request;
    9.14. The operator shall provide a schedule of compliance for the 
communication/tracking plan, which shall include:
    9.14.1. A narrative description of how the operator will achieve 
compliance with above requirements;
    9.14.2. A schedule of measures, including an enforceable sequence 
of actions with milestones, leading to compliance; and
    9.14.3. A statement indicating when the implementation of the 
proposed plan will be complete.
    9.15. The operator shall provide as attachments to its 
communication/tracking plan:
    9.15.1. A statement of the analysis and evaluation required in 
developing its plan;
    9.15.2. A statement indicating the initial training dates for 
implementation of the communication/ tracking system and how the 
communication/tracking system will be incorporated in other required 
training;
    9.15.3. A statement regarding how the communications/tracking 
system will be tested and maintained; and
    9.15.4. The name of the person or persons representing the 
operator, including his or her title, mailing address, email address 
and telephone number, who can be contacted by the Director for all 
matters relating to the communication/tracking plan and weekly testing 
of the system.
    9.16. After the Director has approved an operator's communication/
tracking plan, the operator shall submit revisions to the 
communications plan at any time that changes in operational conditions 
result in a substantive modification in the communication/tracking 
system. In addition, at any time after approval, the operator may 
submit proposed modifications or revisions to its plan along with 
reasons therefore to the Director. Within thirty (30) days after 
receipt by the Director of any proposed revisions or modifications to 
the communications/tracking plan, the Director shall either approve or 
reject the revisions, stating in detail the reasons for such rejection.
    9.17. The Director may require modifications to a communication/
tracking plan at any time following the investigation of a fatal 
accident or serious injury, as defined by W. Va. CSR Title 36 Series 
19-3.2, if such modifications are warranted by the findings of the 
investigation.
    9.18. As provided in W. Va. Code Chapter 22A Articles 2-55(g)(2) 
and 2-55 (h)(2) any person that, without the authorization of the 
operator or the Director, knowingly removes or attempts to remove any 
component of an communication/tracking system approved by the Director 
from the mine or mine site with the intent to permanently deprive the 
operator of the component or knowingly tampers with or attempts to 
tamper with such a system or its components shall be deemed guilty of a 
felony and, upon conviction thereof, shall be imprisoned in the a state 
correctional facility for not less than one year nor more than ten 
years or fined not less than ten thousand dollars nor more than one 
hundred thousand dollars, or both.
                                 ______
                                 

                                ENROLLED
                          Committee Substitute

                                  for
                               H. B. 2670

      (By Delegates Brown, Miley, Burdiss, Talbott and Overington)
            [Passed March 10, 2007; in effect from passage.]

    AN ACT to amend and reenact article 10, chapter 64 of the Code of 
West Virginia, 1931, as amended, all relating generally to the 
promulgation of administrative rules by the Department of Commerce and 
the procedures relating thereto; legislative mandate or authorization 
for the promulgation of certain legislative rules by various executive 
or administrative agencies of the state; authorizing certain of the 
agencies to promulgate certain legislative rules in the form that the 
rules were filed in the State Register; authorizing certain of the 
agencies to promulgate certain legislative rules with various 
modifications presented to and recommended by the Legislative Rule-
Making Review Committee; authorizing certain of the agencies to 
promulgate certain legislative rules as amended by the Legislature; 
authorizing certain of the agencies to promulgate certain legislative 
rules with various modifications presented to and recommended by the 
Legislative Rule-Making Review Committee and as amended by the 
Legislature; authorizing the Office of Miners Health, Safety and 
Training to promulgate a legislative rule relating to protective 
clothing and equipment; authorizing the Office of Miners Health, Safety 
and Training to promulgate a legislative rule relating to standards for 
certification of coal mine electricians; authorizing the Bureau of 
Employment Programs to promulgate a legislative rule relating to 
requiring agencies to revoke or not grant issue or renew approval 
documents with employing units on the Bureau's default list; 
authorizing the Division of Forestry to promulgate a legislative rule 
relating to ginseng; authorizing the Division of Natural Resources to 
promulgate a legislative rule relating to commercial whitewater 
outfitters; authorizing the Division of Natural Resources to promulgate 
a legislative rule relating to special boating rules; authorizing the 
Division of Natural Resources to promulgate a legislative rule relating 
to deer hunting; authorizing the Division of Natural Resources to 
promulgate a legislative rule relating to wildlife disease management; 
and authorizing the Division of Natural Resources to promulgate a 
legislative rule relating to public use of campgrounds and recreation 
areas in West Virginia state wildlife management areas under the 
Division of Natural Resources.
    Be it enacted by the Legislature of West Virginia:
    That article 10, chapter 64 of the Code of West Virginia, 1931, as 
amended, be amended and reenacted to read as follows:
Article 10. Authorization for Department of Commerce to Promulgate 
        Legislative Rules.
            Sec. 64-10-1. Office of Miners Health Safety and Training.
    (a) The legislative rule filed in the State Register on the twenty-
seventh day of April, two thousand six, authorized under the authority 
of section six, article two, chapter twenty-two-a, section thirty-
eight, article two, chapter twenty-two-a and section fifty-five, 
article two, chapter twenty-two-a of this code, modified by the Office 
of Miners Health Safety and Training to meet the objections of the 
Legislative Rule-Making Review Committee and refiled in the State 
Register on the eighteenth day of January, two thousand seven, relating 
to the Office of Miners Health Safety and Training (protective clothing 
and equipment, 56 CSR 4), is authorized with the following amendments:
    On page one, subsection 1.1., by striking out the words ``these 
emergency rules'' and inserting in lieu thereof the words ``this 
rule'';
    On page one, subsection 2.1., by striking out the word ``State's'' 
and inserting in lieu thereof the word ``state's'';
    On page one, subsection 2.1., line four, by striking out the words 
``these legislative rules'' and inserting in lieu thereof the words 
``this rule'';
    On page two, subsection 2.2., by striking out the words ``these 
rules'' and inserting in lieu thereof the words ``this rule'';
    On page two, subsection 3.1., by striking out the words ``as they 
are defined'' and inserting in lieu thereof the word ``used'';
    On page two, subsection 3.2., by striking out the words ``shall 
mean'' and inserting in lieu thereof the word ``means'';
    On page two, subsection 3.3., by striking out the words ``shall 
herein refer'' and inserting in lieu thereof the word ``means'';
    On page three, subsection 4.1., by striking out the words ``these 
rules'' and inserting in lieu thereof the words ``this rule'';
    On page four, subsection 5.2., by striking out ``department of 
labor'' and inserting in lieu thereof ``Department of Labor'';
    On page four, subsection 5.2., after the word ``Provided,'' by 
striking out ``However,'';
    On page four, subsection 5.3., line three, after the word 
``training'' by striking out the comma and the word ``provided'' and 
inserting in lieu thereof a colon and the words ``Provided, That'' and 
by striking out the word ``manufacturers'' and inserting in lieu 
thereof the word ``manufacturers''';
    On page four, subsection 5.3., after the words ``limited to'' by 
changing the semi-colon to a colon;
    On page five, subsection 6.1., by striking out the words ``these 
rules'' and inserting in lieu thereof the words ``this rule'';
    On page five, subsection 6.2., by striking out the words ``these 
rules'' and inserting in lieu thereof the words ``this rule'';
    On page eight, subparagraph 6.10.4.a.1., by striking out Sec. 56- 
4-6'' and inserting in lieu thereof ``56 CSR 4-6'';
    On page nine, subsection 6.14., by striking out the words ``these 
rules'' and inserting in lieu thereof the words ``this rule'';
    On page nine, by striking out subsection 6.15. in its entirety;
    On pages ten and eleven, by striking out subsection 7.4. in its 
entirety;
    On page eleven, by redesignating subdivision 8.1.1. as subsection 
8.2. and redesignating the remaining subsections accordingly;
    On page eleven, by redesignating subdivision 8.3.1. as subsection 
8.5. and redesignating the remaining subsections accordingly;
    On page fifteen, subsection 8.13., by striking out the words 
``these rules'' and inserting in lieu thereof the words ``this rule'';
    On pages fifteen and sixteen, by striking out subsection 8.15. in 
its entirety;
    On page seventeen, subsection 9.10., by striking out the words 
``these rules'' and inserting in lieu thereof the words ``this rule'';
    And,
    On page twenty, by striking out subsection 9.18. in its entirety.
    (b) The legislative rule filed in the State Register on the twenty-
eighth day of July, two thousand six, authorized under the authority of 
sections six and thirty-eight, article one, chapter twenty-two-a of 
this code, modified by the Office of Miners Health Safety and Training 
to meet the objections of the Legislative Rule- Making Review Committee 
and refiled in the State Register on the eighteenth day of January, two 
thousand seven, relating to the Office of Miners Health Safety and 
Training (standards for certification of coal mine electricians, 48 CSR 
7), is authorized, with the following amendments:
    ``On page three, subsection 4.1., by striking out the words 
``Section 8.2.1.'' and inserting in lieu thereof the words ``8.3'';
    On page four, section five, by designating the last two paragraphs 
of the section as subsections 5.2. and 5.3., respectively;
    On page four, section six, by designating the second paragraph of 
the section as subsection 6.2. and by redesignating the following 
subsection accordingly;
    On page five, section six, by designating the last paragraph of the 
section as subsection 6.4.;
    On page five, subsection 8.1., by striking out the words ``Section 
8.2.1.'' and inserting in lieu thereof the words ``Section 8.3'';
    On pages five and six, by striking out subdivision 8.2.1. in its 
entirety and inserting in lieu thereof the following:
    ``8.3. Criteria and standards for alternative electrical training 
programs must be adopted by unanimous approval of the Director and the 
Board of Miner Training, Education and Certification. An alternative 
electrical training program will not become effective until approved by 
the Secretary of State as an emergency rule or by the Legislature as an 
amendment to this rule.'' and redesignating the remaining subsection 
accordingly;
    And,
    On page six, section nine, by designating the last paragraph of the 
section as subsection 9.3.''.
            Sec. 64-10-2. Bureau of Employment Programs.
    The legislative rule filed in the State Register on the twenty-
sixth day of July, two thousand six, authorized under the authority of 
section six, article two, chapter twenty-one-a, of this code, modified 
by the Bureau of Employment Programs to meet the objections of the 
Legislative Rule-Making Review Committee and refiled in the State 
Register on the twelfth day of January, two thousand seven, relating to 
the Bureau of Employment Programs (requiring state agencies to revoke 
or not to grant, issue or renew approval documents with employing units 
on the bureau's default list, 96 CSR 1), is authorized.
            Sec. 64-10-3. Division of Forestry.
    The legislative rule filed in the State Register on the twenty-
second day of June, two thousand six, authorized under the authority of 
section three-a, article one-a, chapter nineteen, of this code, 
modified by the Division of Forestry to meet the objections of the 
Legislative Rule-Making Review Committee and refiled in the State 
Register on the twelfth day of January, two thousand seven, relating to 
the Division of Forestry (ginseng, 22 CSR 1), is authorized, with the 
following amendments:
    On page two, section three, by striking out ``3.1.'';
    On page three, by redesignating subdivision 6.1.1. as subsection 
6.2. and by redesignating the remaining subsections accordingly;
    On page four, section seven, by striking out ``7.1.;
    On page four, section eight, by striking out ``8.1.;
    On page five, by redesignating subdivision paragraph 9.2.2.1. as 
subdivision 9.2.2.;
    On page five, section ten, by striking out ``10.1.;
    On page six, section eleven, by striking out ``11.1.;
    And,
    On page six, subsection 13.2., after the words ``Freedom of 
Information Act'' by striking out the remainder of the subsection and 
inserting in lieu thereof the following: ``as having a significant 
commercial value to the extent permitted by W. Va. Code Sec. 29B-1-
4(1).''.
            Sec. 64-10-4. Division of Natural Resources.
    (a) The legislative rule filed in the State Register on the twenty-
eighth day of July, two thousand six, authorized under the authority of 
section twenty-three-a, article two, chapter twenty, of this code, 
relating to the Division of Natural Resources (commercial whitewater 
outfitters, 58 CSR 12), is authorized.
    (b) The legislative rule filed in the State Register on the twenty-
eighth day of July, two thousand six, authorized under the authority of 
section seven, article one, chapter twenty, of this code, relating to 
the Division of Natural Resources (special boating rules, 58 CSR 26), 
is authorized.
    (c) The legislative rule filed in the State Register on the twenty-
eighth day of July, two thousand six, authorized under the authority of 
section seven, article one, chapter twenty, of this code, modified by 
the Division of Natural Resources to meet the objections of the 
Legislative Rule-Making Review Committee and refiled in the State 
Register on the eighteenth day of December, two thousand six, relating 
to the Division of Natural Resources (deer hunting, 58 CSR 50), is 
authorized.
    (d) The legislative rule filed in the State Register on the twenty-
eighth day of July, two thousand six, authorized under the authority of 
section seven, article one, chapter twenty, of this code, modified by 
the Division of Natural Resources to meet the objections of the 
Legislative Rule-Making Review Committee and refiled in the State 
Register on the second day of November, two thousand six, relating to 
the Division of Natural Resources (wildlife disease management, 58 CSR 
69), is authorized, with the amendments:
    On page 2, subsection 2.3, line eight, after the word ``landscape'' 
and the period, by striking the remainder of the subsection and 
inserting in lieu thereof, the following: ``The Director shall, at 
least annually after the establishment of a containment area, review 
and evaluate any and all new information relating to wildlife disease 
epidemiology and surveillance to determine whether any such designation 
of a containment area should be modified or rescinded and shall report 
these findings to the Natural Resources Commission. Prior to the 
establishment of a containment area, the Director shall consult with:
    2.3.a. wildlife biologists within the Wildlife Resources Section 
that are knowledgeable of wildlife diseases;
    2.3.b. a Department of Agriculture veterinarian knowledgeable of 
wildlife diseases;
    2.3.c. conservation officers familiar with local and regional 
landscape features; and
    2.3.d. the Natural Resources Commission.'';
    And,
    One page 3, by striking subsection 4.1 and inserting the following, 
``4.1. It is illegal to feed cervids or other wildlife in a containment 
area as determined by the Director and established for the management, 
control or eradication of chronic wasting disease, bovine tuberculosis, 
avian influenza or other wildlife diseases. Provided, that song and 
insectivorous birds may be fed so long as the person or persons feeding 
the same shall not do so in a manner that causes a congregation of 
cervids or other wildlife or in a manner that said person or persons 
reasonably should have known would cause a congregation of cervids or 
other wildlife Provided further, that captive cervids may be fed inside 
cervid facilities permitted by the Division of Natural Resources.''.
    (e) The legislative rule filed in the State Register on the twenty-
eighth day of July, two thousand six, authorized under the authority of 
section seven, article one, chapter twenty, of this code, modified by 
the Division of Natural Resources to meet the objections of the 
Legislative Rule-Making Review Committee and refiled in the State 
Register on the second day of November, two thousand six, relating to 
the Division of Natural Resources (public use of campgrounds and 
recreation areas in West Virginia state wildlife management areas under 
the Division of Natural Resources, 58 CSR 70), is authorized, with the 
following amendments:
    On page one, subsection 2.2., by striking out the word ``shall'' 
and inserting in lieu thereof the word ``may'';
    On page two, section three, by striking out ``3.1.'';
    On page two, subsection 2.18., by striking out the word ``shall'' 
and inserting in lieu thereof the word ``may'';
    And,
    On page two, by striking out subsection 3.2. in its entirety.
                                 ______

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                TITLE 36

                            Legislative Rule

                  BOARD OF COAL MINE HEALTH AND SAFETY

                               Series 44

 Mine Rescue Requirements for the Office of Miners' Health Safety and 
                                Training

Sec. 36-44-1. General.
    1.1. Scope--This rule governs mine rescue requirements for the 
Office of Miners' Health Safety and Training. This rule in no way 
should be construed as relieving mine operators from their requirement 
to either have their own mine rescue team or contract coverage.
    1.2. Authority.--W. Va. Code 22-6-4.
    1.3. Filing Date.--June 13, 2006.
    1.4. Effective Date.--July 13, 2006.
Sec. 36-44-2. Mine Rescue Requirements for the Office of Miners' Health 
        Safety and Training.
    2.1. The Director shall develop a mine emergency operation plan for 
the mine rescue teams that represent the Office of Miners' Health 
Safety and Training that would include but is not limited to the 
following criteria:
    (a) Establish and maintain 2 mine rescue stations within the 
OMHS&T; one located in the North area of the State and one located in 
the South area of the State, at locations determined by the Director.
    (b) To establish one (1) fully trained mine rescue team per each 
OMHS&T's regional office;
    (c) The members assigned to the mine rescue and recovery work may 
be inspectors, instructors or other qualified employees of the office 
as the director deems necessary. The director shall employ additional 
employees as he deems necessary to fulfill the requirement of this 
section;
    (d) To provide the necessary fully equipped mine rescue vehicles 
for each OMHS&T mine rescue station that would include but is not 
limited to cellphones, satellite telephone, landline telephones 
(teleconferencing), on-site radios and fax/copy machines, computers 
with mine mapping software (CAD) and modems; and any other equipment 
deemed necessary by the Director.
    (e) To purchase new additional mine rescue equipment including but 
is not limited to mask mounted radio connections and permissible radios 
for underground wireless communications; new lifeline/communications 
reels with a ``down hole'' speaker microphone system; new additional 
handheld gas detectors and infra-red and electrochemical gas monitoring 
equipment, gas sampling tubing, satellite telephones and four channels 
of seismic inputs (geophones); and any other equipment as deemed 
necessary by the Director.
    2.2. As used in this section, mine rescue teams shall be considered 
available where teams are capable of presenting themselves at the mine 
site(s) within a reasonable time after notification of an occurrence 
which might require their services. Rescue team members will be 
considered available even though performing regular work duties or 
while in an off-duty capacity.
    (a) In the event of a fire, explosion or recovery operations in or 
about any mine, the director is hereby authorized to assign any mine 
rescue team to said mine to protect and preserve life and property. The 
director may also assign mine rescue and recovery work to inspectors, 
instructors or other qualified employees of the office as he or she 
deems necessary.
    (b) The agency's mine rescue team members shall be considered 
``duly qualified emergency service worker'' as defined in W. Va. Code 
Sec. 15-5-11.
    (c) Each mine rescue team shall consist of five members and one 
alternate, who are fully qualified, trained and equipped for providing 
emergency mine rescue service. Each mine rescue team shall be trained 
by a state certified mine rescue instructor.
    (d) Each member of a mine rescue team must have been employed in an 
underground mine for a minimum of one year. For the purpose of mine 
rescue work only, miners who are employed on the surface but work 
regularly underground meet the experience requirement. The underground 
experience requirement is waived for those members of a mine rescue 
team on the effective date of this statute.
    (e) An applicant for initial agency mine rescue training shall 
pass, on at least an annual basis, a physical examination by a licensed 
physician certifying his or her fitness to perform mine rescue work. A 
record that such examination was taken, together with pertinent data 
relating thereto, shall be kept on file by the director.
    (f) Upon completion of the initial training, all agency 's mine 
rescue team members shall receive at least ninety-six (96) hours of 
refresher training annually.
Sec. 36-44-3. Physical Requirements.
    3.1. (a) Any person making application to participate in initial 
agency mine rescue training shall have had an examination by a 
physician, who shall certify that such applicant is physically fit to 
perform mine rescue and recovery work while wearing a self-contained 
oxygen breathing apparatus. The physical examination shall be completed 
within thirty (30) days prior to scheduled initial training.
    (b) A physician shall fill out a form prescribed by the Director, 
and such form shall be presented to the Mine Rescue Training Instructor 
five (5) days prior to scheduled initial training.
Sec. 36-44-4. Agency Mine Rescue Team Members Compensation; Worker's 
        Compensation.
    4.1. (a) Agency mine rescue team members are to be paid a minimum 
of $250 per month, with the rate thereafter to be determined annually 
by the Director.
    (b) When engaged in rescue work required by an explosion, fire or 
other emergency at a mine, all members of the agency's mine rescue 
teams assigned to rescue operations shall, during the period of their 
rescue work, be employees of the operator of the mine where the 
emergency exists, and shall be compensated by the operator at the rate 
established in the area for such work. In no case shall this rate be 
less than the prevailing wage rate in the industry for the most skilled 
class of inside mine labor and paid according to the following 
criteria:
          Time and half--when on standby at hotel/home
          Double time--when available on the surface
          Triple time--when under apparatus underground
    The Director will invoice the operator and ensure proper 
distribution to the individual agency mine rescue team members.
    (c) During the period of their emergency employment, members of 
mine rescue teams shall be protected by the workers' compensation 
subscription of such emergency employer.
                                 ______
                                 

                        Committee Substitute for
                           Senate Bill No. 68

  (By Senators Tomblin, Mr. President, and Caruth, By Request of the 
                               Executive)
 [Originating in the Committee on Finance; reported February 15, 2007.]

    A BILL to amend and reenact Sec. 22A-1-15 of the Code of West 
Virginia, 1931, as amended; to amend said code by adding thereto a new 
section, designated Sec. 22A-2-4a; to amend and reenact Sec. 22A-2-5 of 
said code; to amend and reenact Sec. 22A-7-5 of said code; to amend 
said code by adding thereto a new section, designated Sec. 22A-7-7; and 
to amend said code by adding thereto a new article, designated 
Sec. 22A-11-1, Sec. 22A-11-2, Sec. 22A-11-3 and Sec. 22A-11-4, all 
relating generally to coal mine health and safety; authorizing Director 
of the Office of Miners' Health, Safety and Training, upon a finding of 
imminent danger, to issue closure orders for mines under certain 
circumstances; prohibiting the use of a belt conveyor entry as an 
intake air course and providing exceptions thereto; providing 
requirements for the design, construction and inspection of seals and 
the atmospheric monitoring of sealed areas; prohibiting use of certain 
seals and providing for requirements for remediation of existing seals 
under certain circumstances; prohibiting the use of bottom mining and 
providing exceptions thereto; requiring continuing education for 
underground mine foremen-fire bosses and setting course requirements; 
continuing the Mine Safety Technology Task Force; legislative findings; 
establishing powers and duties of task force; reimbursement; and task 
force consultation in approval of safety devices.
Be it enacted by the Legislature of West Virginia:
    That Sec. 22A-1-15 of the Code of West Virginia, 1931, as amended, 
be amended and reenacted; that said code be amended by adding thereto a 
new section, designated Sec. 22A-2-4a; that Sec. 22A-2-5 of said code 
be amended and reenacted; that Sec. 22A-7-5 of said code be amended and 
reenacted; that said code be amended by adding thereto a new section, 
designated Sec. 22A-7-7; and that said code be amended by adding 
thereto a new article, designated Sec. 22A-11-1, Sec. 22A-11-2, 
Sec. 22A-11-3 and Sec. 22A-11-4, all to read as follows:
Article 1. Office of Miners' Health, Safety and Training; 
        Administration; Enforcement.
            Sec. 22A-1-15. Findings, orders and notices.
    (a) If upon any inspection of a coal mine an authorized 
representative of the director finds that an imminent danger exists, 
such the representative shall determine the area throughout which such 
the danger exists and thereupon shall immediately issue forthwith an 
order requiring the operator of the mine or the operator's agent to 
cause immediately all persons, except those referred to in subdivisions 
(1), (2), (3) and (4), subsection (c) (e) of this section, to be 
withdrawn from and to be prohibited from entering such the area until 
an authorized representative of the director determines that such the 
imminent danger no longer exists.
    All employees on the inside and outside of a mine who are 
idled as a result of the posting of a withdrawal order by a 
mine inspector shall be compensated by the operator at their 
regular rates of pay for the period they are idled, but not 
more than the balance of such shift. If such order is not 
terminated prior to the next working shift, all such employees 
on that shift who are idled by such order are entitled to full 
compensation by the operator at their regular rates of pay for 
the period they are idled, but for not more than four hours of 
such shift.
    (b) If upon any inspection of a coal mine an authorized 
representative of the director finds that there has been a violation of 
the law, but the violation has not created an imminent danger, he or 
she shall issue a notice to the operator or the operator's agent fixing 
a reasonable time for the abatement of the violation. If upon the 
expiration of the period of time, as originally fixed or subsequently 
extended, an authorized representative of the director finds that the 
violation has not been totally abated, and if the director also finds 
that the period of time should not be further extended, the director 
shall find the extent of the area affected by the violation and shall 
promptly issue an order requiring the operator of such the mine or the 
operator's agent to cause immediately all persons, except those 
referred to in subdivisions (1), (2), (3) and (4), subsection (c) (e) 
of this section, to be withdrawn from and to be prohibited from 
entering such the area until an authorized representative of the 
director determines that the violation has been abated.
    (c) If upon any inspection of a coal mine an authorized 
representative of the director finds that an imminent danger exists in 
an area of the mine, in addition to issuing an order pursuant to 
subsection (a) of this section, the director shall review the 
compliance record of the mine.
    (1) A review of the compliance record conducted in accordance with 
this subsection shall, at a minimum, include a review of the following:
    (A) Any closure order issued pursuant to subsection (a) of this 
section;
    (B) Any closure order issued pursuant to subsection (b) of this 
section;
    (C) Any enforcement measures taken pursuant to this chapter, other 
than those authorized under subsections (a) and (b) of this section;
    (D) Any evidence of the operator's lack of good faith in abating 
violations at the mine;
    (E) Any accident, injury or illness record that demonstrates a 
serious safety or health management problem at the mine;
    (F) The number of employees at the mine, the size, layout and 
physical features of the mine and the length of time the mine has been 
in operation; and
    (G) Any mitigating circumstances.
    (2) If, after review of the mine's compliance record, the director 
determines that the mine has a history of repeated significant and 
substantial violations of a particular standard caused by unwarrantable 
failure to comply or a history of repeated significant and substantial 
violations of standards related to the same hazard caused by 
unwarrantable failure to comply and the history or histories 
demonstrate the operator's disregard for the health and safety of 
miners, the director shall issue a closure order for the entire mine 
and shall immediately issue an order requiring the operator of the mine 
or the operator's agent to cause immediately all persons, except those 
referred to in subdivisions (1), (2), (3) and (4), subsection (e) of 
this section, to be withdrawn from and to be prohibited from entering 
the mine until a thorough inspection of the mine has been conducted by 
the office and the director determines that the operator has abated all 
violations related to the imminent danger and any violations unearthed 
in the course of the inspection.
    (d) All employees on the inside and outside of a mine who are idled 
as a result of the posting of a withdrawal order by a mine inspector 
shall be compensated by the operator at their regular rates of pay for 
the period they are idled, but not more than the balance of the shift. 
If the order is not terminated prior to the next working shift, all the 
employees on that shift who are idled by the order are entitled to full 
compensation by the operator at their regular rates of pay for the 
period they are idled, but for not more than four hours of the shift.
    (c) (e) The following persons are not required to be withdrawn from 
or prohibited from entering any area of the coal mine subject to an 
order issued under this section:
    (1) Any person whose presence in such the area is necessary, in the 
judgment of the operator or an authorized representative of the 
director, to eliminate the condition described in the order;
    (2) Any public official whose official duties require him or her to 
enter such the area;
    (3) Any representative of the miners in such the mine who is, in 
the judgment of the operator or an authorized representative of the 
director, qualified to make coal mine examinations or who is 
accompanied by such a person and whose presence in such the area is 
necessary for the investigation of the conditions described in the 
order; and
    (4) Any consultant to any of the foregoing persons set forth in 
this subsection.
    (d) (f) Notices and orders issued pursuant to this section shall 
contain a detailed description of the conditions or practices which 
cause and constitute an imminent danger or a violation of any mandatory 
health or safety standard and, where appropriate, a description of the 
area of the coal mine from which persons must be withdrawn and 
prohibited from entering.
    (e) (g) Each notice or order issued under this section shall be 
given promptly to the operator of the coal mine or the operator's agent 
by an authorized representative of the director issuing such the notice 
or order and all such the notices and orders shall be in writing and 
shall be signed by such the representative and posted on the bulletin 
board at the mine.
    (f) (h) A notice or order issued pursuant to this section may be 
modified or terminated by an authorized representative of the director.
    (g) (i) Each finding, order and notice made under this section 
shall promptly be given to the operator of the mine to which it 
pertains by the person making such the finding, order or notice.
    (j) Definitions.--For the purposes of this section only, the 
following terms have the following meanings:
    (1) ``Unwarrantable failure'' means aggravated conduct, 
constituting more than ordinary negligence, by a mine operator in 
relation to a violation of this chapter of the code; and
    (2) ``Significant and substantial violation'' shall have the same 
meaning as that established in 6 FMSHRC 1 (1984).
Article 2. Underground Mines.
            Sec. 22A-2-4a. Use of belt air.
    (a) Definitions.--For purposes of this section, ``belt air'' means 
the use of a belt conveyor entry as an intake air course to ventilate 
the working sections of a mine or areas where mechanized mining 
equipment is being installed or removed.
    (b) Upon the effective date of the enactment of this section, belt 
air may not be used to ventilate the working sections of a mine or 
areas where mechanized mining equipment is being installed or removed: 
Provided, That if an alternative method of ventilation will at all 
times guarantee no less than the same measure of protection afforded 
the miners of an underground mine by the foregoing or if the 
application of the foregoing to an underground mine will result in a 
diminution of safety to the miners in the mine, the director may 
approve the interim use of belt air pursuant to the following:
    (1) For those operators using belt air pursuant to a ventilation 
plan approved by the director in accordance with the provisions of 
section two of this article prior to the effective date of the 
enactment of this section, the director shall cause an inspection to be 
made of the mine ventilation system and ventilation equipment. The 
director may allow the continued use of belt air in that mine if he or 
she determines that: (i) The use meets the minimum requirements of 30 
CFR 75.350(b); and (ii) the use, as set forth in the ventilation plan 
and as inspected, will at all times guarantee no less than the same 
measure of protection afforded the miners of the mine if belt air were 
not used, or that the prohibition of the use of belt air in the mine 
will result in a diminution of safety to the miners in the mine.
    (2) For those operators submitting on or after the effective date 
of the enactment of this section, a ventilation plan proposing the use 
of belt air to the director pursuant to section two of this article, 
the director shall immediately upon receipt of the plan give notice of 
the plan to the representative of the miners in that mine and cause any 
investigation to be made that the director considers appropriate: 
Provided, That the investigation shall include a review of any comments 
on the plan submitted by the representative of miners in the mine. Upon 
receiving the report of the investigation, the director shall make 
findings of fact and issue a written decision, incorporating in the 
decision his or her findings and an order approving or denying the use 
of belt air pursuant to the terms of the ventilation plan. To approve 
the use of belt air pursuant to a ventilation plan, the director shall, 
at a minimum, determine that: (i) The operator's proposed use of belt 
air meets the minimum requirements of 30 CFR 75.350(b); and (ii) 
approval of the proposed use of belt air will at all times guarantee no 
less than the same measure of protection afforded the miners of the 
mine if belt air were not used, or that the prohibition of the use of 
belt air in the mine will result in a diminution of safety to the 
miners in the mine.
    (3) The interim use of belt air shall be accurately reflected in 
operator's plan of ventilation, as approved by the director in 
accordance with the provisions of section two of this article.
    (c) Upon completion of the independent scientific and engineering 
review concerning the use of belt air and the composition and fire 
retardant properties of belt materials in underground coal mining by 
the technical study panel created pursuant to the provisions of 30 U. 
S. C. Sec. 963 and the Secretary of the United States Department of 
Labor's corresponding report to Congress pursuant to the review, the 
Board of Coal Mine Health and Safety shall, within thirty days of the 
Secretary of Labor's report to Congress, provide the Governor with its 
recommendations, if any, for the enactment, repeal or amendment of any 
statute or rule which would enhance the safe ventilation of underground 
mines and the health and safety of miners: Provided, That at least 
sixty days after the Secretary of Labor's report to Congress, the Board 
of Coal Mine Health, Safety and Training shall promulgate emergency 
rules regulating the use of belt air in light of that report: Provided, 
however, That the provisions of subsections (a) and (b) of this section 
shall expire and no longer have any force and effect upon the filing of 
such emergency rules.
            Sec. 22A-2-5. Unused and abandoned parts of mine.
    (a) In any mine, all workings which are abandoned after the first 
day of July, one thousand nine hundred seventy-one, shall be sealed or 
ventilated. If the workings are sealed, the sealing shall be done with 
incombustible material in a manner prescribed by the director and one 
or more of the seals of every sealed area shall be fitted with a pipe 
and cap or valve to permit the sampling of gases and measuring of 
hydrostatic pressure behind the seals. For the purpose of this section, 
working within a panel shall not be considered to be abandoned until 
the panel is abandoned.
    (b) Air that has passed through an abandoned area or an area which 
is inaccessible or unsafe for inspection shall not be used to ventilate 
any working place in any working mine, unless permission is granted by 
the director with unanimous agreement of the technical and mine safety 
review committee. Air that has been used to ventilate seals shall not 
be used to ventilate any working place in any working mine. Air which 
has been used to ventilate an area from which the pillars have been 
removed shall not be used to ventilate any working place in a mine, 
except that the air, if it does not contain 0.25 volume percent or more 
of methane, may be used to ventilate enough advancing working places 
immediately adjacent to the line of retreat to maintain an orderly 
sequence of pillar recovery on a set of entries. Before sealed areas, 
temporary or permanent, are reopened, the director shall be notified.
    (c) On or after the effective date of the amendment and reenactment 
of this section during the regular session of the Legislature in two 
thousand seven, a professional engineer registered with the Board of 
Registration for Professional Engineers pursuant to article thirteen, 
chapter thirty of this code shall certify the design of all new seals 
as meeting the criteria established by the director. Every seal design 
shall have the professional engineer's certificate and signature, in 
addition to his or her seal, in the following form:
    ``I the undersigned, do hereby certify that this seal design is, to 
the best of my knowledge, in accordance with all applicable 
requirements under state and federal law, rules and regulations.------
P.E.''
    (d) On or after the effective date of the amendment and reenactment 
of this section during the regular session of the Legislature in two 
thousand seven, the director shall approve the construction of all new 
seals in accordance with rules authorized in this section. The 
construction shall also be:
    (1) Certified by the mine foreman-fire boss of the mine as being in 
accordance with the design certified by a professional engineer 
pursuant to subsection (c) of this section; and
    (2)(A) Constructed of solid concrete blocks and in accordance with 
the other provisions of 30 CFR 75.335(a)(1); or
    (B) Constructed in a manner that the director has approved as 
having the capability to withstand pressure equal to or greater than a 
seal constructed in accordance with the provisions of 30 CFR 
75.335(a)(1).
    (e) On or after the effective date of the amendment and reenactment 
of this section during the regular session of the Legislature in two 
thousand seven, the operator shall inspect the physical condition of 
all seals and measure the atmosphere behind all seals in accordance 
with protocols developed by the Board of Coal Mine Health and Safety, 
pursuant to rules authorized in this section and consistent with a 
mine-specific atmospheric measurement plan submitted to and approved by 
the director. The atmospheric measurements shall include, but not be 
limited to, the methane and oxygen concentrations and the barometric 
pressure. The atmospheric measurements also shall be recorded with ink 
or indelible pencil in a book kept for that purpose on the surface at a 
location designated by the operator. The protocols shall specify 
appropriate methods for inspecting the physical condition of seals, 
measuring the mine atmosphere in sealed workings, and inerting the mine 
atmosphere behind the seals, where appropriate.
    (f)(1) In all mines containing workings sealed using seals 
constructed in accordance with the provisions of 30 CFR 75.335(a)(2) 
which are constructed: (A) Of cementitious foam blocks; or (B) with 
methods or materials that the Board of Coal Mine, Health and Safety 
determines do not provide an adequate level of protection to miners, 
the operator shall, pursuant to a plan submitted to and approved by the 
director, remediate the seals by either enhancing the seals or 
constructing new seals in place of or immediately outby the seals. 
After being remediated, all seals must have the capability to withstand 
pressure equal to or greater than a seal constructed in accordance with 
the provisions of 30 CFR 75.335(a)(1). The design, development, 
submission and implementation of the remediation plan is the 
responsibility of the operator of each mine. Pursuant to rules 
authorized in this section, the Board of Coal Mine Health and Safety 
shall specify appropriate methods of enhancing the seals.
    (2) Notwithstanding any provision of this code to the contrary, if 
the director determines that any seal described in subdivision (1) of 
this subsection is incapable of being remediated in a safe and 
effective manner, the mine foreman-fire boss shall, at least once every 
twenty-four hours, inspect the physical condition of the seal and 
measure the atmosphere behind the seal. The daily inspections and 
measurements shall otherwise be performed in accordance with the 
protocols and atmospheric measurement plan established pursuant to 
subsection (e) of this section.
    (g) Upon the effective date of the amendment and reenactment of 
this section during the regular session of the Legislature in two 
thousand seven, second mining of lower coal on retreat, also known as 
bottom mining, shall not be permitted in workings that will be sealed 
unless an operator has first submitted and received approval by the 
director of a remediation plan that sets forth measures that will be 
taken to mitigate the effects of remnant ramps and other conditions 
created by bottom mining on retreat which can increase the force of 
explosions originating in and emanating out of workings that have been 
bottom mined. The director shall require that certification in a manner 
similar to that set forth in subsection (c) of this section shall be 
obtained by the operator from a professional engineer and the mine 
foreman-fire boss for the plan design and plan implementation, 
respectively.
    (h) No later than sixty days after the effective date of the 
amendment and reenactment of this section during the regular session of 
the Legislature in two thousand seven, the Board of Coal Mine Health 
and Safety shall develop and promulgate rules pursuant to the 
provisions of section four, article six of this chapter to implement 
and enforce the provisions of this section.
    (i) Upon the issuance of mandatory health and safety standards 
relating to the sealing of abandoned areas in underground coal mines by 
the Secretary of the United States Department of Labor pursuant to 30 
U. S. C. Sec.  811, as amended by section ten of the federal Mine 
Improvement and New Emergency Response Act of 2006, the director, 
working in consultation with the Board of Coal Mine Health and Safety, 
shall, within thirty days, provide the Governor with his or her 
recommendations, if any, for the enactment, repeal or amendment of any 
statute or rules which would enhance the safe sealing of abandoned mine 
workings and the health and safety of miners.
Article 7. Board of Miner Training, Education and Certification.
            Sec. 22A-7-5. Board powers and duties.
    (a) The board shall establish criteria and standards for a program 
of education, training and examination to be required of all 
prospective miners and miners prior to their certification in any of 
the various miner specialties requiring certification under this 
article or any other provision of this code. Such The specialties 
include, but are not limited to, underground miner, surface miner, 
apprentice, underground mine foreman-fire boss, assistant underground 
mine foreman-fire boss, shotfirer, mine electrician and belt examiner. 
Notwithstanding the provisions of this section, the director may by 
rule further subdivide the classification classifications for 
certification.
    (b) The board may require certification in other miner occupational 
specialties: Provided, That no new specialty may be created by the 
board unless certification in a new specialty is made desirable by 
action of the federal government requiring certification in a specialty 
not enumerated in this code.
    (c) The board may establish criteria and standards for a program of 
preemployment education and training to be required of miners working 
on the surface at underground mines who are not certified under the 
provisions of this article or any other provision of this code.
    (d) The board shall set minimum standards for a program of 
continuing education and training of certified persons and other miners 
on an annual basis: Provided, That the standards shall be consistent 
with the provisions of section seven of this article. Prior to issuing 
said the standards, the board shall conduct public hearings at which 
the parties who may be affected by its actions may be heard. Such The 
education and training shall be provided in a manner determined by the 
director to be sufficient to meet the standards established by the 
board.
    (e) The board may, in conjunction with any state, local or federal 
agency or any other person or institution, provide for the payment of a 
stipend to prospective miners enrolled in one or more of the programs 
of miner education, training and certification provided for in this 
article or any other provision of this code.
    (f) The board may also, from time to time, conduct such any 
hearings and other oversight activities as may be required to ensure 
full implementation of programs established by it.
    (g) Nothing in this article empowers the board to revoke or suspend 
any certificate issued by the director of the office of miners' health, 
safety and training Office of Miners' Health, Safety and Training.
    (h) The board may, upon its own motion or whenever requested to do 
so by the director, deem consider two certificates issued by this state 
to be of equal value or deem consider training provided or required by 
federal agencies to be sufficient to meet training and education 
requirements set by it, the director, or by the provisions of this 
code.
            Sec. 22A-7-7. Continuing education requirements for 
                    underground mine foreman-fire boss.
    (a) An existing underground mine foreman-fire boss certified 
pursuant to this article shall complete the continuing education 
requirements in this section within two years from the effective date 
of this section and every two years thereafter. An underground mine 
foreman-fire boss certified pursuant to this article on or after the 
effective date of this section shall complete the continuing education 
requirements in this section within two years of their certification 
and every two years thereafter. The continuing education requirements 
of this section may not be satisfied by the completion of other 
training requirements mandated by the provisions of this chapter.
    (b) In order to receive continuing education credit pursuant to 
this section, a mine foreman-fire boss shall satisfactorily complete a 
mine foreman-fire boss continuing education course approved by the 
board and taught by a qualified instructor approved by the director. 
The mine foreman-fire boss shall not suffer a loss in pay while 
attending a continuing education course. The mine foreman-fire boss 
shall submit documentation to the office certified by the instructor 
that indicates the required continuing education has been completed 
prior to the deadlines set forth in this subsection: Provided, That a 
mine foreman-fire boss may submit documentation of continuing education 
completed in another state for approval and acceptance by the board.
    (c) The mine foreman-fire boss shall complete at least eight hours 
of continuing education every two years.
    (d) The content of the continuing education course shall include, 
but not be limited to:
    (1) Selected provisions of this chapter and 30 U. S. C. Sec. 801, 
et seq.;
    (2) Selected provisions of the West Virginia and federal 
underground coal mine health and safety rules and regulations;
    (3) The responsibilities of a mine foreman-fire boss;
    (4) Selected policies and memoranda of the Office of Miners' 
Health, Safety and Training, the Board of Coal Mine Health and Safety 
and the Board of Miner Training, Education and Certification;
    (5) A review of fatality and accident trends in underground coal 
mines; and
    (6) Other subjects as determined by the Board of Miner Training, 
Education and Certification.
    (e) The board may approve alternative training programs tailored to 
specific mines.
    (f) Failure to complete the requirements of this section shall 
result in suspension of a mine foreman-fire boss certification pending 
completion of the continuing education requirements. During the 
pendency of the suspension, the individual may not perform statutory 
duties assigned to a mine foreman-fire boss under West Virginia law. 
The office shall send notice of any suspension to the last address the 
certified mine foreman-fire boss reported to the director. If the 
requirements are not met within two years of the suspension date, the 
director may file a petition with the board of appeals pursuant to the 
procedures set forth in section thirty-one, article one of this chapter 
and, upon determining that the requirements have not been meet, the 
board of appeals may revoke the mine foreman-fire boss' certification, 
which shall not be renewed except upon successful completion of the 
examination prescribed by law for mine foremen-fire bosses or upon 
completion of other training requirements established by the board: 
Provided, That an individual having his or her mine foreman-fire boss 
certification suspended pursuant to this section who also holds a valid 
mine foreman-fire boss certification from another state may have the 
suspension lifted by completing training requirements established by 
the board.
    (g) The office shall make a program of instruction that meets the 
requirements for continuing education set forth in this section 
regularly available in regions of the state, based on demand, for 
individuals possessing mine foreman-fire boss certifications who are 
not serving in a mine foreman-fire boss capacity: Provided, That the 
office may collect a fee from program participants to offset the cost 
of the program.
    (h) The office shall make available to operators and other 
interested parties a list of individuals whose mine foreman-fire boss 
certification is in suspension or has been revoked pursuant to this 
section.
Article 11. Mine Safety Technology.
            Sec. 22A-11-1. Legislative findings, purposes and intent.
    The Legislature hereby finds and declares:
    (1) That the first priority and concern of all persons in the coal 
mining industry must be the health and safety of its most precious 
resource--the miner;
    (2) That in furtherance of this priority, the provisions of article 
two of this chapter are designed to protect the health and safety of 
this state's coal miners by requiring certain minimum standards for, 
among other things, certain health and safety technology used by each 
underground miner;
    (3) That the proper implementation of this technology in West 
Virginia's underground mines would benefit from the specialized 
oversight of persons with experience and competence in coal mining, 
coal mine health and safety and the expanding role of technology; and
    (4) That, in furtherance of provisions of this section, it is the 
intent of the Legislature to create a permanent task force which, on a 
continuous basis, shall evaluate and study issues relating to the 
commercial availability and functional and operational capability of 
existing and emerging technologies in coal mine health and safety, as 
well as issues relating to the implementation, compliance and 
enforcement of regulatory requirements governing the technologies.
            Sec. 22A-11-2. Mine Safety Technology Task Force continued; 
                    membership; method of nomination and appointment.
    (a) The Mine Safety Technology Task Force, created and existing 
under the authority of the director pursuant to the provisions of 
section six, article one of this chapter, is continued as provided by 
this article.
    (b) The task force shall consist of nine members who are appointed 
as specified in this section:
    (1) The Governor shall appoint, by and with the advice and consent 
of the Senate, three members to represent the viewpoint of operators in 
this state. When these members are to be appointed, the Governor shall 
request from the major trade association representing operators in this 
state a list of three nominees for each position on the task force. All 
nominees shall be persons with special experience and competence in 
coal mine health and safety. There shall be submitted with the list, a 
summary of the qualifications of each nominee. For purposes of this 
subdivision, the major trade association representing operators in this 
state is that association which represents operators accounting for 
over one half of the coal produced in mines in this state in the year 
prior to the year in which the appointment is to be made.
    (2) The Governor shall appoint, by and with the advice and consent 
of the Senate, three members who can reasonably be expected to 
represent the viewpoint of the working miners of this state. When 
members are to be appointed, the Governor shall request from the major 
employee organization representing coal miners within this state a list 
of three nominees for each position on the task force. The highest 
ranking official within the major employee organization representing 
coal miners within this state shall submit a list of three nominees for 
each position on the board. The nominees shall have a background in 
coal mine health and safety.
    (3) The Governor shall appoint, by and with the advice and consent 
of the Senate, one certified mine safety professional from the College 
of Engineering and Mineral Resources at West Virginia University;
    (4) The Governor shall appoint, by and with the advice and consent 
of the Senate, one attorney with experience in issues relating to coal 
mine health and safety; and
    (5) The ninth member of the task force is the director, or his or 
her designee, who shall serve as chair of the task force. The director 
shall furnish to the task force any secretarial, clerical, technical, 
research and other services that are necessary to the conduct of the 
business of the task force.
    (c) Each appointed member of the task force shall serve at the will 
and pleasure of the Governor.
    (d) Whenever a vacancy on the task force occurs, nominations and 
appointments shall be made in the manner prescribed in this section: 
Provided, That in the case of an appointment to fill a vacancy, 
nominations of three persons for each vacancy shall be requested by and 
submitted to the Governor within thirty days after the vacancy occurs 
by the major trade association or major employee organization, if any, 
which nominated the person whose seat on the task force is vacant.
    (e) Each member of the task force shall be paid the expense 
reimbursement, as is paid to members of the Legislature for their 
interim duties as recommended by the citizens legislative compensation 
commission and authorized by law for each day or portion thereof 
engaged in the discharge of official duties. In the event the expenses 
are paid by a third party, the member shall not be reimbursed by the 
state. The reimbursement shall be paid out of the state treasury upon a 
requisition upon the state auditor, properly certified by the Office of 
Miners' Health, Safety and Training. An employer shall not prohibit a 
member of the task force from exercising leave of absence from his or 
her place of employment in order to attend a meeting of the task force 
or a meeting of a subcommittee of the task force, or to prepare for a 
meeting of the task force, any contract of employment to the contrary 
notwithstanding.
            Sec. 22A-11-3. Task force powers and duties.
    (a) The task force shall provide technical and other assistance to 
the office related to the implementation of the new technological 
requirements set forth in the provisions of section fifty-five, article 
two, of this chapter, as amended and reenacted during the regular 
session of the Legislature in the year two thousand six, and 
requirements for other mine safety technologies.
    (b) The task force, working in conjunction with the director, shall 
continue to study issues regarding the commercial availability, the 
functional and operational capability and the implementation, 
compliance and enforcement of the following protective equipment:
    (1) Self-contained self-rescue devices, as provided in subsection 
(f), section fifty-five, article two of this chapter;
    (2) Wireless emergency communication devices, as provided in 
subsection (g), section fifty-five, article two of this chapter;
    (3) Wireless emergency tracking devices, as provided in subsection 
(h), section fifty-five, article two of this chapter; and
    (4) Any other protective equipment required by this chapter or 
rules promulgated in accordance with the law that the director 
determines would benefit from the expertise of the task force.
    (c) The task force shall on a continuous basis study, monitor and 
evaluate:
    (1) The potential for enhancing coal mine health and safety through 
the application of existing technologies and techniques;
    (2) Opportunities for improving the integration of technologies and 
procedures to increase the performance and survivability of coal mine 
health and safety systems;
    (3) Emerging technological advances in coal mine health and safety; 
and
    (4) Market forces impacting the development of new technologies, 
including issues regarding the costs of research and development, 
regulatory certification and incentives designed to stimulate the 
marketplace.
    (d) On or before the first day of July of each year, the task force 
shall submit a report to the Governor and the Board of Coal Mine Health 
and Safety that shall include, but not be limited to:
    (1) A comprehensive overview of issues regarding the implementation 
of the new technological requirements set forth in the provisions of 
section fifty-five, article two, of this chapter, or rules promulgated 
in accordance with the law;
    (2) A summary of any emerging technological advances that would 
improve coal mine health and safety;
    (3) Recommendations, if any, for the enactment, repeal or amendment 
of any statute which would enhance technological advancement in coal 
mine health and safety; and
    (4) Any other information the task force considers appropriate.
    (e) In performing its duties, the task force shall, where possible, 
consult with, among others, mine engineering and mine safety experts, 
radiocommunication and telemetry experts and relevant state and federal 
regulatory personnel.
            Sec. 22A-11-4. Approval of devices.
    Prior to approving any protective equipment or device that has been 
evaluated by the task force pursuant to the provisions of subsection 
(b), section three of this article, the director shall consult with the 
task force and review any applicable written reports issued by the task 
force and the findings set forth in the reports and shall consider the 
findings in making any approval determination.
                                 ______
                                 
    [Additional material supplied by Mr. Roberts follows:]

                                                                                             INJURY AND FATALITY STATISTICS BY UNION STATUS
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                               Union        Union                        Union        Union
                                                                    Underground    Surface     Total Coal   Underground   percent of       Union        Surface     percent of   Union surface  Total Union  Total union    Total union
                                CY                                      Coal         Coal       Injuries        Coal     underground    Underground       Coal       surface    representation      Coal         % of     representation
                                                                      Injuries     Injuries                   Injuries     injuries   Representation    Injuries     injuries                     Injuries     injuries
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Injuries:
    2002..........................................................        4,192        1,847        6,039         1,047        25.0%          35.2%           413        22.4%          26.0%         1,461        24.2%          31.3%
    2003..........................................................        3,647        1,521        5,168         1,061        29.1%          34.6%           276        18.1%          25.4%         1,338        25.9%          30.5%
    2004..........................................................        3,709        1,420        5,129         1,116        30.1%          33.7%           274        19.3%          22.4%         1,391        27.1%          28.9%
    2005..........................................................        3,732        1,450        5,182         1,068        28.6%          32.6%           207        14.3%          20.5%         1,276        24.6%          27.5%
    2006..........................................................        3,700        1,467        5,167           969        26.2%            N/A           226        15.4%            N/A         1,195        23.1%            N/A
    2007..........................................................          302          118          420           101        33.4%            N/A            22        18.6%            N/A           123        29.4%            N/A
                                                                   ---------------------------------------------------------------------------------------------------------------------------------------------------------------------
      Totals......................................................       19,282        7,823       27,105         5,362        27.8%  ..............        1,418        18.1%  ..............        6,783        25.0%  ..............
                                                                   =====================================================================================================================================================================

Fatalities:
    2002..........................................................           17           10           27             3        17.6%          35.2%             0         0.0%          26.0%             3        11.1%          31.3%
    2003..........................................................           17           13           30             6        35.3%          34.6%             0         0.0%          25.4%             6        20.0%          30.5%
    2004..........................................................           17           11           28             4        23.5%          33.7%             1         9.1%          22.4%             5        17.9%          28.9%
    2005..........................................................           16            6           22             4        25.0%          32.6%             0         0.0%          20.5%             4        18.2%          27.5%
    2006..........................................................           39            8           47             5        12.8%            N/A             1        12.5%            N/A             6        12.8%            N/A
    2007..........................................................            3            1            4             0         0.0%            N/A             0         0.0%            N/A             0         0.0%            N/A
                                                                   ---------------------------------------------------------------------------------------------------------------------------------------------------------------------
      Totals......................................................          109           49          158            22        20.2%  ..............            2         4.1%  ..............           24        15.2%  ..............
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Sources: Mine Safety and Health Administration (injury and fatality data); Energy Information Administration (union representation data).

                                 ______
                                 
    [Additional material supplied by Mr. Watzman follows:]

                MINE SAFETY IMPROVEMENTS: PROGRESS FACTS
------------------------------------------------------------------------
                                                 Progress
------------------------------------------------------------------------
Self-contained self-rescuers...  <bulleT] 78,000 new SCSRs placed into
                                  service;
                                 <bulleT] 100,000 additional units to be
                                  added.
------------------------------------------------------------------------
SCSR training..................  <bulleT] All 55,000 underground coal
                                  miners have and will continue to
                                  receive quarterly training;
                                 <bulleT] More than 7,000 training units
                                  have been ordered;
                                 <bulleT] More than 50,000 additional
                                  units expected.
------------------------------------------------------------------------
Emergency evacuation training..  <bulleT] All 55,000 underground coal
                                  miners have received training on
                                  evacuation procedures.
------------------------------------------------------------------------
Evacuation aids................  <bulleT] Underground coal mines have
                                  installed lifelines;
                                 <bulleT] Additional SCSR caches have
                                  been placed at fixed distances in
                                  escapeways;
                                 <bulleT] Emergency tethers provided to
                                  link miners together.
------------------------------------------------------------------------
Locating trapped miners........  <bulleT] Underground coal mines have
                                  implemented systems to track miners
                                  while they are in the mine;
                                 <bulleT] New systems are being tested;
                                  results expected in 2007;
                                 <bulleT] Pre-accident tracking appears
                                  doable; more R&D needed on post-
                                  accident tracking systems.
------------------------------------------------------------------------
Post accident communication....  <bulleT] Underground coal mines have
                                  installed redundant communication
                                  systems in separate entries;
                                 <bulleT] Awaiting development and
                                  approval of wireless systems.
------------------------------------------------------------------------
Sealing of abandoned areas.....  <bulleT] Operators required to install
                                  seals more than double the strength of
                                  those previously installed.
                                 <bulleT] Operators have evaluated
                                  existing seals and corrected any
                                  defects found.
                                 <bulleT] Seals are being examined
                                  visually on a weekly basis.
------------------------------------------------------------------------
Refuge chambers/...............  <bulleT] On February 9, 2007, operators
Breathable air.................   received guidance on means to provide
                                  breathable air;
                                 <bulleT] NIOSH study on the efficacy of
                                  refuge chambers in underground coal
                                  mines will be completed by December
                                  2007.
------------------------------------------------------------------------
Rescue Teams...................  <bulleT] 36 new underground coal mine
                                  rescue teams have been added or are
                                  planned.
------------------------------------------------------------------------

                                 ______
                                 
    [Internet address to National Mining Association report, 
``Review of Mine Safety Technology and Training 
Recommendations'' follows:]

            http://www.nma.org/pdf/misc/050807--watzman.pdf

                                 ______
                                 
    [Whereupon, at 12:54 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
